<html>
<title> - NOMINATION OF RADM MICHAEL D. WEAHKEE TO SERVE AS DIRECTOR OF THE INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES</title>
<body><pre>[Senate Hearing 116-124]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-124
 
   NOMINATION OF RADM MICHAEL D. WEAHKEE TO SERVE AS DIRECTOR OF THE 
  INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 
 
 
 
                    U.S. GOVERNMENT PUBLISHING OFFICE 
 39-563 PDF                 WASHINGTON : 2020
 
         


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 11, 2019................................     1
Statement of Senator Cortez Masto................................    32
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................    26
Statement of Senator Smith.......................................    27
Statement of Senator Tester......................................    29
Statement of Senator Udall.......................................     2

                               Witnesses

Weahkee, Rear Admiral Michael D. Nominee For Director of the 
  Indian Health Service, U.S. Department of Health and Human 
  Services.......................................................     4
    Biographical information.....................................     7
    Prepared statement...........................................     5

                                Appendix

Bresette, James L., Pharm.D., Member, Red Cliff Band of Lake 
  Superior Chippewa, prepared statement..........................    35
Letters of support submitted for the record 


Response to written questions submitted by Hon. Tom Udall to Rear 
  Admiral Michael D. Weahkee.....................................    97


   NOMINATION OF RADM MICHAEL D. WEAHKEE TO SERVE AS DIRECTOR OF THE 
                      INDIAN HEALTH SERVICE, U.S. 
                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:48 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. I will now call the 
nomination hearing to order.
    Today, the Committee will hear from Rear Admiral Michael D. 
Weahkee, who has been nominated by President Trump on October 
30th, 2019, to be the Director of the Indian Health Service in 
the Department of Health and Human Services. The IHS Director 
oversees the administration and delivery of health care 
services to approximately 2.6 million American Indians and 
Alaska Natives. Operating in 37 States through a network of 
over 605 hospitals, clinics, and health stations, the IHS 
employs over 15,000 professionals and utilizes a budget of 
approximately $6.9 billion.
    Rear Admiral Weahkee was born on the Navajo Reservation in 
Shiprock, New Mexico, in a public health service hospital. He 
is an enrolled member of the Pueblo of Zuni of New Mexico. He 
is a husband and father of three children.
    Rear Admiral Weahkee received his Bachelor of Science 
degree from Southern Illinois University, Carbondale, in health 
care management, and his MBA and Master of Health Services 
Administration from Arizona State University. Rear Admiral 
Weahkee began his career in health with the United States Air 
Force, spent time as project manager for the Arizona 
Association of Community Health Centers, and then later became 
a commissioned Corps officer within the U.S. Public Health 
Service.
    Admiral Weahkee has risen to the ranks from Lieutenant 
Junior Grade to his current flag rank of Rear Admiral. We 
appreciate your service.
    Most recently, in June of 2017, he was appointed to be 
Acting Secretary of the IHS, becoming Principal Deputy Director 
in September 2018. Since his appointment, Admiral Weahkee has 
been filling the role of IHS Director, and is responsible for 
overseeing the operating budget, workforce, and administration 
of this important agency.
    Just prior to his appointment, Admiral Weahkee served as 
Chief Executive Officer for the IHS Phoenix Indian Medical 
Center. As CEO, he was the lead official in overseeing the 
largest IHS facility in the Country, with a user population of 
over 111,000 Native Americans. The Phoenix Indian Medical 
Center serves as a hub for Arizona, Nevada, and Utah patients.
    Admiral Weahkee has received a number of awards and 
recognition for his work with the Air Force and U.S. Public 
Health Service, including the Public Health Service 
Presidential Unit Citation, the Public Health Service 
Outstanding Service Medical, and the IHS National Director's 
Award. He is a member of a number of professional 
organizations, including the American College of Health Care 
Executives, Commissioned Officers Association, Military 
Officers Association of America, Reserve Officers Association, 
Association of Military Surgeons of the United States, and the 
Arizona State University Alumni Association, Native American 
Chapter.
    Over 60 letters of support have been sent to the Committee 
regarding his nomination, including from the Pueblo of Zuni, 
the United States Air Force, National Indian Health Board, 
Seattle Indian Health Board, California Rural Indian Health 
Board, South Central Foundation, United South and Eastern 
Tribes, and the Northwest Portland Area Indian Health Board. I 
will include all letters received as part of the official 
hearing record.
    The Chairman. We look forward to your testimony today, 
Admiral.
    Specifically, I look forward to hearing about your vision 
for IHS. I want to know how IHS is responding to the Dr. Weber 
sex abuse incident, as well as getting off the GAO High-Risk 
List.
    With that, I will turn to Vice Chairman Udall for his 
opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman. Before I start, I 
just want to acknowledge that the President of the Mescalero 
Apache Tribe in New Mexico, President Aguilar, is here in the 
audience. I think he is probably here with some of his 
councilmen and councilwomen. He has just newly become the 
President of the Mescalero Apaches.
    Thank you, Chairman, for holding this hearing to consider 
Rear Admiral Michael Weahkee's nomination to serve as Director 
of the Indian Health Service. By way of an introduction, I am 
proud to note that Rear Admiral Weahkee hails from New Mexico. 
He is an enrolled member of the Zuni Tribe, one of 23 in my 
home State, who was born in IHS's Shiprock Indian Hospital on 
the Navajo Nation.
    He is a dedicated public servant, and a veteran of the U.S. 
Air Force. Throughout his 23 years of service at the IHS, 
Admiral Weahkee has demonstrated hard work and commitment to 
Indian Country. He has received four IHS National Director's 
Awards, three Outstanding Service Medal awards, and a 
Presidential Unit Citation, the highest unit award issued to a 
uniformed service.
    Admiral, your career has been a credit to New Mexico and to 
the Zuni Pueblo. Congratulations on being nominated to serve as 
the IHS Director.
    IHS has been without a confirmed director since 2013. 
Unfortunately, the situation at the Service has grown even more 
critical in the intervening years. The crisis in the Great 
Plains worsened and spread to other IHS service areas, like 
Billings, Bemidji, and Navajo.
    The Government Accountability Office added the Service to 
its High-Risk List of waste, fraud, and abuse. The Albuquerque, 
Navajo, and other service areas have had staffing vacancy 
levels shoot past 30 percent, and concerns over management 
practices have intensified as more and more information from 
the Weber patient abuse cases and reports of preventable 
patient deaths have surfaced. Now, perhaps more than ever, it 
is imperative that the IHS have a leader at the helm who has 
the experience and commitment to bring about real change.
    The Director of the IHS is more than just a manager of a 
multi-billion-dollar budget and 15,000 full-time Federal 
employees. If confirmed, Admiral Weahkee will be responsible 
for developing IHS health care policy, ensuring the delivery of 
quality, comprehensive care, advocating for the needs of all 
Native Americans, whether they live in the most remote corner 
of Alaska, or the busiest street corner in New York City, 
supporting tribal sovereignty and upholding the Federal trust 
responsibility.
    That is why I view today's hearing as an opportunity not 
only to clarify your personal policy views and plans for 
reform, but also to get a firm commitment from you that you 
will fight for transparency, for the resources you need to get 
the job done, and for Indian Country.
    Thank you again, Mr. Chairman. Thank you, Admiral Weahkee, 
for being here today.
    The Chairman. Thank you, Vice Chairman Udall.
    Are there other opening statements? If not, we will now 
swear in the witness. Rear Admiral Weahkee, will you please 
stand and raise your right hand?
    Do you solemnly affirm that the testimony that you shall 
give today shall be the truth, the whole truth and nothing but 
the truth, under the penalty of perjury?
    Mr. Weahkee. Yes, I do.
    The Chairman. You can be seated.
    I want to remind you that your full written testimony will 
be made part of the official record. With that, Admiral, we 
welcome your opening statement.

         STATEMENT OF REAR ADMIRAL MICHAEL D. WEAHKEE, 
    NOMINEE FOR DIRECTOR OF THE INDIAN HEALTH SERVICE, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Weahkee. Thank you, Chairman Hoeven, Vice Chairman 
Udall, for the introduction. To all members of the Committee, I 
appreciate the opportunity to be here with you today.
    I am joined today by my wife, Dr. Rose Weahkee, seated 
immediately behind me, as well as my son Nicolaus, who is one 
of our three children. His sisters Tamia and Sofia are both 
engaged in finals this week, we are at the end of the semester, 
and school commitments. So they are both out west.
    My mother, Glinda Weddle, my brothers Charley and Tim 
Weahkee, my sister Jessica, and her husband Cory Weddle, as 
well as several other friends, colleagues and family members 
who have traveled here to Washington, D.C., to support me 
during today's hearing. I would also like to acknowledge and 
honor my father, Jim Weahkee, who could not be here with us 
today, as he is undergoing chemotherapy treatment back in 
Phoenix.
    First, let me say that it is an extreme honor, and I am 
humbled to be here today. I am very grateful for your 
consideration of my nomination by President Trump to serve as 
the next Director of the Indian Health Service.
    I want to thank all of the tribal leaders, all of the urban 
Indian organization leaders, the national Indian health 
stakeholder organizations, professional colleagues, and my IHS 
team members for the outpouring of support that I have received 
over the past two and a half years that I have served as the 
Principal Deputy Director and the Acting Director of the Indian 
Health Service.
    As I reflect back on the significant points in my life that 
I believe helped to contribute to where I sit today, I am 
continually reminded of the many people whose influence played 
a part in shaping the person that I have become and the path 
that has led me here. From my mother, Glinda, I learned the 
importance of a strong work ethic and of selfless service. From 
my father, Jim, I inherited my ``Indian-ness'' and being Zuni, 
and I learned the value of culture and traditions, and of 
having a good sense of humor in life. My maternal grandparents 
instilled in me a strong Christian faith and a desire for 
service, which led me to follow in my grandfather's footsteps 
and enlist in the Air Force.
    Remembering my paternal grandparents, my uncle, and my 
aunt, who were all taken away from our family way too early, I 
am reminded of the terrible toll that diabetes and heart 
disease, alcoholism and hepatitis C have inflicted upon our 
Native people, and why the health care path that I have chosen 
as my life's work is so very important. This Committee is well 
aware that American Indians and Alaska Natives are impacted 
disproportionately in comparison to the general U.S. population 
for many different diseases and health conditions. My family is 
not immune, and is representative of the issues that our 
patients face throughout Indian country.
    As was mentioned, I was born in one of our Indian Health 
Service hospitals, on the Navajo reservation in Shiprock, New 
Mexico. I have been a lifelong user of our system and many of 
my family members continue to receive their care and treatment 
at our IHS tribal and urban Indian organizations.
    The IHS has transitioned dramatically in many ways since 
its creation back in 1955, but there is still much work to do 
to adequately meet the needs of our patients. The mission of 
the Indian Health Service is to raise the physical, mental, 
social, and spiritual health of American Indians and Alaska 
Natives to the highest level, and it is our responsibility to 
uphold the Federal Government's obligation to promote healthy 
American Indian and Alaska Native people, communities and 
cultures, and to honor and protect the inherent sovereign 
rights of Tribes. It is a noble mission, and it is ``My Why'' 
for working in Indian Health and it keeps me energized to come 
in to work and face the many challenges that confront us each 
and every day.
    As is evident from recent news stories, our agency 
continues to face many challenges, including the need to 
recruit and retain qualified health care professionals, to 
maintain aged facilities and meet certification and 
accreditation requirements, and to overcome community issues 
like inadequate housing, jobs, a lack of transportation and 
other social determinants of health that need attention in 
Indian Country.
    In partnership with tribes and urban Indian organizations, 
we have developed a comprehensive and aggressive five-year 
strategic plan for the Indian Health Service that is focused on 
expanding access to care, improving the quality of the care, 
and improving the management and operations of the Agency. In 
the past two years we have made significant strides to remove 
the Indian Health Service from the Government Accountability 
Office's High-Risk List, implementing 12 of the 14 open 
recommendations that helped to land the agency on the list.
    We have transitioned the Rosebud Indian Hospital from a 
facility that was on the brink of decertification by the 
Centers for Medicaid and Medicare Services to now being fully 
accredited by the Joint Commission. Just last week, CMS 
conducted a recertification survey of the Pine Ridge Indian 
Hospital, and we look forward to sharing the results of that 
survey soon.
    If I am fortunate enough to be confirmed by the Senate, I 
promise to be guided by the core values of integrity and 
transparency. I pledge to faithfully execute the laws written 
by Congress, and to be responsive to your questions regarding 
the agency.
    We cannot solve everything at once, but we can make a 
positive, real, and lasting difference in the lives and health 
of our patients. And we can make what some say is impossible 
possible.
    Thank you for your consideration of my nomination and I 
look forward to answering your questions here today.
    [The prepared statement and biographical information of 
Admiral Weahkee follow:]

  Prepared Statement of Rear Admiral Michael D. Weahkee, Nominee For 
   Director of the Indian Health Service, U.S. Department of Health 
                           and Human Services
    Thank you Senator Udall for that kind introduction. Good afternoon 
Chairman Hoeven, Mr. Vice-Chairman, and members of the Committee. I am 
joined here today by my wife, Dr. Rose Weahkee, my son Nicolaus (one of 
our three children, his sisters Tamia and Sofia are both engaged in 
finals and school commitments this week out west), my mother Glinda 
Weddle, my brothers Charley and Tim Weahkee, my sister Jessica and her 
husband Cory Weddle, as well as several other friends, colleagues, and 
family members who have traveled here to Washington, DC, to support me 
during today's hearing. I'd also like to acknowledge and honor my 
father, Jim Weahkee, who could not be here with us today as he is 
undergoing chemotherapy treatment in Phoenix, Arizona.
    First, let me say that it is an extreme honor, and I am humbled to 
be here today. I am very grateful for your consideration of my 
nomination by President Trump to serve as the next Director of the 
Indian Health Service. I want to thank all of the Tribal leaders, urban 
Indian organization leaders, national Indian health stakeholder 
organizations, professional colleagues, and my IHS team members for the 
outpouring of support that I have received over the past two and a half 
years that I have served as the Principal Deputy Director and Acting 
Director of the Indian Health Service.
    As I reflect back on the significant points in my life that I 
believe helped contribute to where I sit today, I am continually 
reminded of the many people whose influence played a part in shaping 
the person that I have become and the path that led me here.
    From my mother Glinda, I learned the importance of a strong work 
ethic and of selfless service. From my father Jim, I inherited my 
``Indian-ness'' and being Zuni, and I learned the value of culture, 
traditions, and having a good sense of humor in life.
    My maternal grandparents instilled in me a strong Christian faith 
and a desire for service, which led me to follow in my grandfather's 
footsteps and enlist in the Air Force as a young man.
    Remembering my paternal grandparents, my uncle, and my aunt, who 
were all taken away from our family way too early, I am reminded of the 
terrible toll that diabetes, heart disease, alcoholism and hepatitis C 
have inflicted upon our native people, and why the health care path 
that I have chosen as my life's work is so very important. This 
committee is well aware that American Indians and Alaska Natives are 
impacted disproportionately in comparison to the United States general 
population for many different diseases and health conditions. My family 
is not immune and is representative of the issues that our patients 
face throughout Indian country.
    I was born in one of our Indian Health Service hospitals, on the 
Navajo reservation in Shiprock, New Mexico. I have been a lifelong user 
of our system and many of my family members continue to receive their 
care and treatment at our Indian Health Service, Tribal and Urban 
Indian facilities. The IHS has transformed dramatically in many ways 
since its creation in 1955, but there is still much work to do to 
adequately meet the needs of our patients.
    The mission of the Indian Health Service is to raise the physical, 
mental, social, and spiritual health of American Indians and Alaska 
Natives to the highest level, and it is our responsibility to uphold 
the Federal Government's obligation to promote healthy American Indian 
and Alaska Native people, communities and cultures, and to honor and 
protect the inherent sovereign rights of Tribes. It is a noble mission, 
and it is ``My Why'' for working in Indian Health and it keeps me 
energized to come in to work and face the many challenges that confront 
us each and every day.
    As is evident from recent news stories, our Agency continues to 
face many challenges, including the need to recruit and retain 
qualified health care professionals; maintain aged facilities and meet 
certification and accreditation requirements; and to overcome community 
issues like inadequate housing, jobs, transportation and other social 
determinants of health that need attention in Indian country.
    In partnership with Tribes and Urban Indian Organizations, we have 
developed a comprehensive and aggressive five-year strategic plan for 
the IHS, focused on expanding access to care, improving the quality of 
care that we provide, and improving the management and operations of 
the Agency. In the past two years we have made significant strides to 
remove the Indian Health Service from the Government Accountability 
Office's High Risk List, implementing 12 of the 14 unimplemented 
recommendations that helped to land the Agency on the list. We have 
transitioned the Rosebud Indian Hospital from a facility that was on 
the brink of decertification by the Centers for Medicaid and Medicare 
Services, to now being fully accredited by the Joint Commission. And, 
just last week CMS conducted a recertification survey of the Pine Ridge 
Indian Hospital and we look forward to sharing the results of that 
survey soon.
    If I am fortunate enough to be confirmed by the Senate, I promise 
to be guided by the core values of integrity and transparency. I pledge 
to faithfully execute the laws written by Congress, and to be 
responsive to your questions regarding the agency. We cannot solve 
everything at once, but we can make a positive, real and lasting 
difference in the lives and health of our patients.
    Thank you for your consideration of my nomination and I look 
forward to answering your questions here today.
                                 ______
                                 
                        biographical information
    1. Name: Rear Admiral Michael Dean Weahkee (enrolled member of the 
Zuni Indian Tribe).
    2. Position to which nominated: Director, Indian Health Service.
    3. Date of nomination: October 22, 2019.
    4. Address: [Information not released to the public.]
    5. Date and place of birth: [Information not released to the 
public.]
    6. Marital status: Married; Spouse's Name--Dr. Rose Lydia (Vazquez) 
Weahkee.
    7. Names and ages of children: (A) Tamia Rose Weahkee (B) minor 
child (C) minor child. [Ages and names of minor children not released 
to the public.]
    8. Education:

        A) Master of Health Services Administration, Arizona State 
        University, 1998
        B) Master of Business Administration, Arizona State University, 
        1998
        C)  Bachelor of Science-Health Care Management, Southern 
        Illinois University-Carbondale, 1996
        D) Associate of Liberal Arts, San Juan College, Farmington, NM, 
        1991

    9. Employment record: (See attached CV).
    10. Government experience: (See attached CV).
    11. Business relationships: (None).
    12. Memberships: (See attached CV).
    13. Political affiliations and activities:

    (a) List all offices with a political party that you have held or 
any public office for which you have been a candidate. None/Not 
Applicable.

    (b) List all memberships, offices held in, and services rendered to 
all political parties or election committees during the last 10 years. 
None/Not Applicable.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None/Not Applicable.

    14. Honors and awards: (See attached CV).
    15. Published writings:

         Editorial in the Journal of American Medical Association, 
        Ending the HIV Epidemic: A Plan for America https://
        jamanetwork.com/journals/jama/fullarticle
        /2724455?utm_source=jps&utm_medium=email&utm_campaign
        =author_alert-jamanetwork&utm_content=author-author_engagement-
        tfl&utm_term=3m

         Op-Ed in Indian Country Today, Ending the HIV Epidemic in 
        Indian Country https://newsmaven.io/indiancountrytoday/opinion/
        ending-the-hiv-epidemic
        -in-indian-countryrCXSrHaH4EyGUBs6JnC8cw/

    16. Speeches: Provide the Committee with two copies, and any 
transcript of recording, if available, of any formal speeches you have 
delivered during the last 5 years on topics relevant to the position 
for which you have been nominated. Formal speeches include, but not 
limited to widely attended public addresses, commencement speeches, and 
conference lectures. Please include the date, place and organization 
where they were delivered.

        See recent speeches at this url: https://www.ihs.gov/newsroom/
        directorsspeeches/

    I have served as the Principal Deputy Director and Acting IHS 
Director since June 19, 2017.

    17. Selection:

    (a) Do you know why you were selected for the position to which you 
have been nominated by the President? I have successfully fulfilled the 
duties and responsibilities of this position for the past two and a 
half years as the Acting Director and Principal Deputy Director of the 
Indian Health Service.

    (b) What in your background or employment experience do you believe 
affirmatively qualifies you for this particular appointment? My 
undergraduate and graduate education is in hospital and business 
administration. I have served my entire 26 year professional career in 
the government health care system, first in the United States Air 
Force, then in the State Primary Care Association in Arizona, and for 
the past 21 years in the Indian Health Service. I have served at the 
headquarters, area and local service unit levels, as well as in both 
the federal and tribal setting. My entire Indian Health Service career 
has been in supervisory, management and leadership positions of 
progressively higher levels of responsibility and accountability. I 
have served as the CEO of the largest federally operated hospital in 
the Indian Health Service and I led the team that reopened the Rosebud 
Indian Hospital emergency department after it was closed in December of 
2015. I am an enrolled member of the Zuni Indian Tribe.

                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? I am a career officer in the United States 
Public Health Service, with 23 years of retirement credit. Following 
this appointment, I would ideally return to service in another capacity 
somewhere in federal government to fulfill a 30-year service ca reer 
and retire at that time.

    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, please explain. No/Not Applicable.

    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? (See response to B.1. above).

    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.

    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. None/Not Applicable.

    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None/Not Applicable.

    3. Describe any business relationship, dealing, or financial 
transaction that you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None/Not Applicable.

    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy, regardless if you 
were a registered lobbyist.

    I have provided testimony at the request of Congress, for the 
purpose of informing and updating various oversight and appropriations 
committees on the status of IHS activities and budget requests. 
Testimony has been provided as follows: https://www.ihs.gov/newsroom/
congressionaltestimony/

        Senate Committee on Indian Affairs

          --March 12, 2019
          --June 13, 2018
          --April 11, 2018
          --September 13, 2017
          --July 12, 2017

        Senate Interior Appropriations Subcommittee

          --May 1, 2019

        House Interior Appropriations Subcommittee

          --April 9, 2019

        House Natural Resources Subcommittee on Indian, Insular and 
        Alaska Native Affairs

          --March 20, 2018

        House Natural Resources Subcommittee for Indigenous People of 
        the United States

          --September 25, 2019

    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (None/Not Applicable).

    6. Please provide written opinions provided to the Committee by the 
designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? (None/Not Applicable).
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. (No/Not Applicable).
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.

    2. Will you ensure that your department/agency responds to all 
congressional inquiries from members of Congress in a timely manner? 
Yes.

    3. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.

    4. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee in a timely 
manner? Yes.

    5. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress.

    The Indian Health Service works closely with the leadership at the 
Department of Health and Human Services to promulgate regulations and 
policy that support the provision of safe, quality health care for 
American Indians and Alaska Natives. The Agency works closely with the 
HHS Office of General Counsel to review all legal considerations 
related to draft regulations and policy as they are being developed. In 
addition, the Indian Self Determination and Education Assistance Act 
and the Indian Health Care Improvement Act require that the IHS work 
closely and in partnership with the Tribes that we serve. This is 
typically done through formal consultation with Indian Tribes and 
Tribal Organizations, and through conferral with Urban Indian Health 
programs. I will commit to fully complying with these laws and the 
goals and intent of the Agency's Tribal Consultation and Urban Confer 
policies. I also commit to providing timely responses and feedback to 
Congress when information or technical assistance requests are made of 
the Indian Health Service.

    6. Are you willing to appear and testify before any duly 
constituted committee upon request of the Congress on such occasions as 
reasonably requested to do so? Yes.

                  f. general qualifications and views
    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?

    For the past two and a half years I have served in an Acting 
capacity, in the role for which I have been nominated (IHS Director). 
These two and a half years of real world, direct experience have been 
tremendously beneficial in preparing me to take on this challenge 
officially. In addition, I have more than 20 years of Indian Health 
Service-specific experience, working at all levels of the organization 
and in a variety of different roles.

    2. Why do you wish to serve in the position for which you have been 
nominated?

    I have dedicated more than two decades of service to the Indian 
Health Service and I am very much invested in the fulfillment of the 
Agency's mission, to raise the physical, mental, social and spiritual 
health of American Indians and Alaska Natives to the highest level. In 
addition, I was born in an IHS facility, at the Shiprock Indian 
Hospital on the Navajo reservation. My family and I continue to receive 
care at IHS facilities in New Mexico and Arizona, and I have many 
friends, neighbors and relatives who also receive their care at our 
facilities and through our system. I want to make a positive impact on 
the Agency, and instill lasting change and improvements. I want to 
improve the way that we do business, the culture of the Agency, and the 
IHS brand. . .to make it an Agency that our Native people, our staff, 
HHS and Congress can be proud of.

    3. What goals have you established for your first two years in this 
position, if confirmed?

    In my first two and a half years as the Acting IHS Director, I have 
focused on addressing quality of care concerns across the system, but 
with a specific focus on facilities in the Great Plains Area, to 
include the Pine Ridge and Rosebud facilities. I have pressed the 
development and implementation of the new Office of Quality at the IHS 
Headquarters level. This new office provides us with the oversight 
structure and staffing needed to assure appropriate support, compliance 
and accountability at all levels of our Agency (HQ, Area Offices and 
Service Units). This new office is envisioned to grow to approximately 
35 full time equivalent positions, each with a vitally important and 
value added role. To date we have been able (with the support of 
Congress and HHS leadership) to fund approximately 14 of those FTE 
positions. I intend to continue the work necessary to realize full 
implementation of this new office.
    I have also focused intently on removing the IHS from the 
Government Accountability Office's (GAO) High Risk List. In 2017, just 
prior to when I came into the appointed role of IHS Principal Deputy 
Director, the IHS was placed onto the GAO High Risk List due to a 
number of factors, including lack of leadership and management 
capacity; no demonstration of an organized action plan to guide the 
Agency in moving forward with needed improvements; no demonstrated 
progress in addressing longstanding GAO recommendations to the Agency. 
In the two and a half years since, I have led to Agency to successfully 
address 11 of the 14 outstanding GAO recommendations. I have led the 
Agency to develop a new 5-year Strategic Plan, the first for the Agency 
in almost a decade, which will guide the IHS and our partner Tribes and 
Urban Indian health programs to address many of our long-standing 
challenges and capitalize on many of the opportunities that exist for 
improving care and treatment for our patients. I have focused on 
recruiting and filling key leadership positions in the senior executive 
ranks, both at the headquarters level and in the Area offices, as well 
as filling key chief executive officer and clinical director positions 
in our service units. The Rosebud Indian Hospital is now fully 
accredited by the Joint Commission.
    My goals for the immediate future include:

         --Regaining Centers for Medicare and Medicaid Services (CMS) 
        certification status for the Pine Ridge Indian Hospital. We are 
        within weeks of doing this and realizing this milestone is a 
        top priority for me;

         --Working with Congress, HHS and the Office of Personnel 
        Management to equip the Agency with additional tools that will 
        enable us to better recruit and retain needed health care 
        professionals, both in clinical and administrative roles. 
        Recruitment and retention of staff is the key contributor to 
        many of our challenges within the IHS;

         --Converting all I HS hospitals to an appropriate facility 
        type. Currently the majority of IHS hospitals are classified by 
        CMS as Acute Care Hospitals. Due to the low volume of 
        inpatients at many of our sites, some facilities do not meet 
        the criteria for being classified as acute care hospitals and 
        should be reclassified as either Critical Access Hospitals or 
        as Ambulatory health care facilities (Outpatient). Modernizing 
        our facilities to the appropriate facility type, and evaluating 
        whether new facility types and payment models should be 
        considered for the IHS is a high priority for me.

         --I will rely heavily on the new IHS strategic plan that was 
        developed in partnership with Tribes and Urban Indian programs 
        to guide my efforts. The three overarching goals of the new 
        plan focus on improving access to care, quality of care, and 
        management and operations of the Agency. I will ensure that 
        everything that the Agency does incorporates the goals, 
        objectives and tasks identified in the new plan (budget 
        formulation, performance assessment, resource allocation, 
        etc.).

    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?

    I have found that Washington, DC-based policy experience has been 
my largest deficit. I now have two and a half years of hard-earned 
experience with this, but there is much more to learn. I learned a very 
important lesson early in my tenure as the Acting IHS Director, when I 
was assigned to testify at a Senate Appropriations Subcommittee hearing 
in my third week on the job. My preparation for the hearing was not 
ideal and I have worked with HHS and IHS officials over the past two 
years to develop a process that works for me. My very public dialogue 
with Senator John Tester (MT) during this hearing taught me the 
importance of speaking to the needs and interests of multiple 
audiences/stakeholders in my responses. Over the past two and a half 
years Tribal leaders have impressed upon me the importance of keeping 
Indian health care non-partisan, and that it is vitally important that 
we have the support of both sides of the aisle in order to best meet 
the needs and interests of our American Indian and Alaska Native 
patients. That will be my goal moving forward.

    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.

    I have personally historically favored small government over heavy 
government engagement and oversight of the private sector. That being 
said there are definitely times when the federal government must step 
in to ensure that the obligations our country makes are honored and 
adhered to. One of those scenarios is the trust responsibility owed to 
Indian Tribes. I believe wholly in the federal government obligation 
and commitment to uphold our trust responsibility to Tribes. The Indian 
Health Service is responsible for providing federal health services to 
American Indians and Alaska Natives. The provision of health services 
to members of federally-recognized tribes grew out of the special 
government-to-government relationship between the federal government 
and Indian tribes. This relationship, established in 1787, is based on 
Article I, Section 8 of the Constitution, and has been given form and 
substance by numerous treaties, laws, Supreme Court decisions, and 
Executive Orders. The IHS is the principal federal health care provider 
and health advocate for Indian people, and our goal is to raise their 
health status to the highest possible level. The IHS provides a 
comprehensive health service delivery system for American Indians and 
Alaska Natives, in some of the most rural and remote locations across 
our country.
    I have heard proposals and discussions from some in Congress and 
from other health care systems about privatizing Indian health care. 
These individuals point to the challenges and problems experienced in 
our current system, and assert that privatization would alleviate or at 
least mitigate many of these issues. I personally have no faith that 
the private sector would be able to meet the needs and interests of our 
Indian patients any better than the Indian Health Service, and in fact 
I am confident that privatization would diminish care and treatment for 
our patients. You can simply look to the large number of 
rural.hospitals and health care facilities that are closing across our 
nation, because private and non-profit health care organizations no 
longer find them to be financially viable nor are they able to maintain 
certification and accreditation in these low volume settings. The IHS 
is a safety net for the patients who rely upon it for their care and 
treatment, and ensures the fulfillment of the United States 
government's obligation to our American Indian and Alaska Native 
people.
    That being said, there is definitely a role that private health 
care organizations can play to supplement the primary care and limited 
specialty services provided by the IHS system. A program similar to the 
Veteran's Choice program in the Veteran's Health Administration, would 
help to ensure that those Indian patients who live far away from IHS/
Tribal/Urban facilities could have access to care. Currently the IHS 
only operates in 37 of the 50 States in the Union, and 70 percent of 
American Indians and Alaska Natives now live in Urban settings away 
from their home reservation-based health care facilities. Private 
health care organizations could help to fill that gap and meet the 
needs of our patients living outside of the current catchment area. I 
would support the federal government partnering with the private sector 
to develop such a program for our patients.

    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.

    The IHS Mission is to ``Raise the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.''

    The IHS Vision--``Healthy communities and quality health care 
systems through strong partnerships and culturally responsive 
practices.''

    IHS Strategic Plan Goals (Access, Quality, Management and 
Operations)

        1)  To ensure that comprehensive, culturally appropriate 
        personal and public health services are available and 
        accessible to American Indian and Alaska Native people.

        2)  To promote excellence and quality through innovation of the 
        Indian health care system into an optimally performing 
        organization.

        3)  To strengthen IHS program management and operations.

    7. What do you believe to be the top three challenges facing the 
department/agency and why?

        1)  Recruitment and retention of qualified clinical and 
        leadership staff;

        2)  Need to transform the system into one that meets the needs 
        of patients. (Electronic Health Record Modernization, Use of 
        innovative technology/equipment, telehealth, in home dialysis, 
        right-size and appropriate facility types)

        3)  Need to improve the culture of the Agency with a focus on 
        quality and accountability.

    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?

        1)  Appropriate planning (lack of strategic plan for a decade)

        2)  Prepared leadership/management (lack of investment in 
        workforce, Executive Leadership Development, other)

        3)  Lack of Resources (Federal Disparity Index/Indian Health 
        Care Improvement Fund)

    9. Who are the stakeholders in the work of this department/agency?

        1) American Indian and Alaska Native Patients
        2) 573 federally recognized Tribes
        3) 41 Urban Indian Health Programs
        4) Congress
        5) American Taxpayers
        6) Sister HHS Operating Divisions and Federal Agencies outside 
        of HHS
        7) Other Health Care Providers and Health Systems
        8) Academia

    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?

    Mutual Respect, Transparency, Proactive Outreach, Consultative, 
Interdependent, Accountability

    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices. (a) What do you believe are your responsibilities, if 
confirmed, to ensure that your department/agency has proper management 
and accounting controls?

    As the Agency's Principal, it would be my responsibility to ensure 
full compliance with the Federal Managers Financial Integrity Act, as 
well as assuring the development and maintenance of an enterprise risk 
management system that complies with the goals and intent of 0MB 
Circular A-123. I also feel strongly that the IHS needs to develop a HQ 
level compliance program that includes inperson audits/inspections by 
HQ subject matter experts to each IHS Area Office on an annual basis.

    (b) What experience do you have in managing a large organization?

    I have successfully managed the Indian Health Service for two and a 
half years as the Acting Director and Principal Deputy Director. Prior 
to this role, I was the Chief Executive Officer of the largest 
federally operated hospital in the Indian Health Service.

    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?

    The Government Performance and Results Act (GPRA) requires Federal 
agencies to demonstrate that they are using their funds effectively 
toward meeting their missions. The law requires agencies to have both a 
5-year Strategic Plan in place and to submit Annual Performance Plans 
describing specifically what the agency intends to accomplish toward 
those goals with their annual budget request. GPRA also requires 
agencies to set performance measures with specific annual targets.
    GPRA measures for the IHS include clinical care performance 
measures, such as care for patients with diabetes, cancer screening, 
immunizations, behavioral health screening, and other prevention 
measures. The agency also reports many non-clinical measures, including 
rates of hospital accreditation, injury prevention, and infrastructure 
improvements. The establishment of metrics helps to ensure that the 
Agency's expenditure of resources are actually impacting upon the 
ultimate goal of improving the health status of American Indians and 
Alaska Natives. Without performance goals and metrics we do not know if 
the programs and services being provided are impactful. When there is 
no progress we should adjust our programming so that it better meets 
the needs of patients.

    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?

    I believe that step one should be for Congress to review whether 
the Agency is appropriately resourced to fulfill the goals and 
objectives assigned to it. If appropriately resourced and still not 
meeting performance goals, then Congress should audit the Agency to 
pinpoint the cause for not meeting expectations. If it is lack of 
adherence to laws, regulations or policies, then leadership should be 
held accountable and dealt with. If it is lack of vision and 
leadership, then an appropriately pepared leader should be identified 
and appointed. In the case of the Indian Health Service, the federal 
government has a responsibility to ensure maintenance of the trust 
relationship, which establishes a responsibility for a variety of 
services and benefits to Indian people based on their status as 
Indians, including health care. As such, the elimination or downsizing 
of the program are contrary to this trust responsibility. Congress 
should support innovation and work with executive branch leadership to 
break down silos and provide resources when and where they are most 
needed.

    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?

    I believe that the goals that I laid out in response to questions 
F.3. and F.7. above should be used as the basis for creating my 
individual performance goals, should I be confirmed to serve as the IHS 
Director.

    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?

    I prescribe to the 'Golden Rule' leadership philosophy .... to lead 
as I would like to be led. As a health care professional, serving in an 
industry that is service oriented and patient and family focused, I 
also lean towards the use of servant leader and loving leader models. 
My priority is to nurture and support my employees to the extent 
possible. When this proves to not be enough, then I will help my 
employees to find a better fit for their knowledge, skills and 
abilities elsewhere in the organization, or if absolutely necessary 
outside of the Agency. I have served for more than 20 years in our 
Agency without having a formal complaint or lawsuit lodged against me 
directly.

    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.

    See my previous responses to questions C.4. and F.4.

    15. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.

    As the Acting IHS Director, I developed and issued guidance to all 
lHS employees outlining my expectations of the way that we work with 
both the OIG and the GAO. A summary of that guidance is as follows:

    Working with and Reporting to the OIG and GAO

    I want to remind everyone of the commitment of IHS to work 
positively and cooperatively with our external authorities, especially 
with the HHS Office of Inspector General and the Government 
Accountability Office. Consistent with that commitment, it is important 
for all I HS employees to build and sustain a positive relationship and 
to be responsive and cooperative in working with the OIG and the GAO. A 
critical part of this overall responsibility includes the proactive 
reporting of known or suspected fraud, waste, and abuse to appropriate 
authorities. Anyone with knowledge or suspicion of child abuse must 
report this information to local law enforcement, the IHS Headquarters 
Division of Personnel Security and Ethics, or the OIG. The IHS hotline 
number is (301) 443-0658, and the OIG hotline number is (800) 447-8477. 
IHS health care practitioners, administrators and other personnel have 
a legal duty to report known or suspected abuse. When reporting 
something you see or suspect, you can be confident that leadership will 
take the allegations seriously and without reprisal.

    16. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.

    Advanced Appropriations for the IHS--To amend the Indian Health 
Care Improvement Act (IHCIA) to authorize advance appropriations for 
the Indian Health Service (IHS) by providing authority for two fiscal 
years in succession, and for other purposes, and, relatedly, to amend 
31 U.S.C.  1105(a) to make a conforming change to budget submission 
requirements.
    The IHS proposes to have its budget set on a two-year cycle, 
establishing budget authority levels for a budget year and a separate 
funding level for a subsequent year, with funds only becoming available 
on October 1 of the second fiscal year. An advance appropriation is one 
made to become available one year or more beyond the year for which the 
appropriations act is passed. This change would protect IHS and Tribal 
programs, in the same way that VA facilities are protected. I fully 
support this proposal.
    Sequestration Exemption for the IHS--To amend current law, section 
256(e) of the Balanced Budget and Emergency Deficit Control Act 
(BBEDCA) (2 U.S.C.  906(e)), to exempt the Indian Health Service from 
future sequestration cuts. Similar to the advanced appropriations 
request, this proposal would protect IHS and Tribal health programs 
from funding reductions. I fully support this proposal.
    ISDEAA Section 105(1) Lease Authority--To provide a new 
appropriation account for the IHS with a lease prospectus requirement 
for compensation provided to a Tribe or Tribal organization for a lease 
under section 105(/) of the Indian Self-Determination and Education 
Assistance Act (ISDEAA). In order to protect funds for federally 
operated facilities a new funding source needs to be identified to meet 
this need. I fully support the development of a new budget line for 
this purpose.
    Waiver of Indian Preference--Amend 25 U.S.C.  5117 to authorize 
the HHS Secretary to waive Indian Preference laws, and issue related 
regulations, applicable to IHS positions that fall under specific 
conditions in order to fill positions in cases where the Secretary 
determines there is an urgent staffing crisis or chronic persistent 
vacancies in health professions. Currently waivers can only be granted 
with Tribal resolution and concurrence. We often face challenges 
filling key CEO and other service unit level positions because of the 
lack of qualified Indian preference candidates. I support the goals and 
intent of this new authority.
    Elevate IHS Director to Assistant Secretary Level--Amend Federal 
law to designate the Director of the Indian Health Service (IHS) to be 
a reference to the Assistant Secretary of Indian Health. The main goal 
of this position elevation would be to provide more direct access to 
the HHS Secretary, Deputy Secretary and Chief of Staff without going 
through Assistant Secretary review and clearance.
    Subsequent Reduction of ISDEAA Funding Level--Allow the Indian 
Health Service (IHS) to reduce an Indian Self-Determination and 
Education Assistance Act (ISDEAA) contra ctor's or compactor's ISDEAA 
funding in subsequent years if an increase in the contractor/
compactor's funding was made pursuant to a statutory or regulatory 
``deemed approved'' provision. This change would enable the Agency to 
reso lve administrative errors and technical issues with agreements. 
Currently there is no recourse for the Agency when errors are 
discovered.
    Contractibility of IHS Facilities Serving Multiple Tribes--Ensure 
Indian Health Service (IHS) health care facilities serving more than 
one Tribe may be contracted or compacted by an eligible Tribe or Tribal 
Organization (T/TO) only if approved through Tribal resolution by all 
Tribes primarily benefitting from the IHS health care facility. There 
have been recent cases where Tribes served by a single facility have 
differences of opinion regarding the future of the organization. As the 
law is currently written, the IHS must enter into a PL 93-638 agreement 
when a Tribes desires to do so, forcing arrangements that are not 
always in the best interests of patients. Requiring consensus by all 
Tribes served would be in the best interest of patients and reduce 
administratively burdensome and unwieldy management/operations 
arrangements.
    FTCA Coverage for Urban Indian Programs--The Indian Health Service 
(IHS) requests approval of the proposal to amend the Indian Health Care 
Improvement Act (IHCIA) to provide Federal Tort Claims Act (FTCA) 
coverage to I HS-funded Urban Indian Organizations (UIOs) in the same 
manner as Indian SelfDetermination and Education Assistance Act 
(ISDEAA) contractors and mandate that all medical malpractice claims 
and judgments be paid from the Department of Treasury's Judgment Fund. 
This amendment would cover medical, dental, pharmaceutical, and 
behavioral health counseling related health care services including 
ancillary services provided to eligible Urban American Indians and 
Alaska Natives (Al/AN) pursuant to grants and contracts awarded by the 
IHS, as authorized by 25 U.S.C. Subchapter IV--Health Services for 
Urban Indians of the IHCIA.

    17. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a timeframe for 
their implementation. If not, please explain why.

    Yes. The Indian Health Service allocates the vast majority of 
annually appropriated funds based on stable base funding levels that 
were established back in the mid 1990's. New funding and discrete 
purpose funds are typically allocated based on funding formulas that 
were developed in consultation and partnership with Tribes, and in 
conferral and partnership with Urban Indian organizations. These 
formulas include factors like active user counts, disease burden, 
tribal size adjustments, etc. The goals of these formulas are to ensure 
that all IHS, Tribal and Urban Indian programs receive an equitable 
level of funding to help address the many challenges that our patients 
face. Some of the programs that use formula allocation methodology 
include the Purchased and Referred Care (PRC) program, the Indian 
Health Care Improvement Fund (IHCIF) line, the Sanitation Facilities 
Construction (SFC) program, t he Special Diabetes Program for Indians 
(SDPI), etc.
    Tribal Consultation occurs when there is a critical event that may 
impact Tribes. The appropriation of funds to the IHS for a new or 
expanded purpose meets this th reshold and would trigger the need for 
the Agency to consult with Tribes about the appropriate use and 
allocation of t hese funds. Several advisory committees have been 
established to provide leadership, advocacy, and guidance to t he 
Director on policy and program matters. Additional workgroups and task 
fo rces would be established when new policy changes are proposed, or 
when new sources of funding are provided by Congress. These committees 
provide the init ial review and recommendat ions to the IHS Director, 
and their feedback is sent out to all 573 Tribes and 41 Urban Indian 
Organizations for review and feedback via a Dear Triba l Leader and 
Dear Urban Indian Organization let ter. Once comments are received, 
this information is then shared again with the Tribal workgroup or task 
force for refinement of t heir recommendations to the IHS Director. As 
t he IHS Director, it would be (and has been) my responsibility to make 
a final decision about the allocation of new resources to the Agency. 
The process used by the Indian Health Service is very much open, fair 
and objective. . .and one of t he trade-off is t hat it does take some 
time to do it right. There are also times when disparate viewpoints 
arise between Tribes. In these cases, t he difficult role of deciding 
what is best for the Indian health care system and our patients overall 
falls to the IHS Director and I welcome t he challenge of fulfilling 
this vita lly important role.
                           g. financial data
    [Information not released to the public.]

    Attachment
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
     

    The Chairman. Thank you, Admiral. We will start with five-
minute rounds of questioning.
    A recent Wall Street Journal article noted that inquiries 
into a physician's work history are not always screened by an 
IHS manager, which makes it easier for a doctor with conduct 
issues to be hired. If confirmed as Director, how would you 
ensure that all health care professionals hired by the Indian 
Health Service are credentialed and in good standing with the 
medical boards they are certified in?
    Mr. Weahkee. Thank you for the question, Chairman Hoeven. 
One of the primary responsibilities I feel as the principal of 
the agency is to establish that tone at the top, and to create 
the policies and the controls necessary to not only equip the 
team members to identify when something doesn't quite look 
right, but to feel free to report those items up, that we 
should be creating a culture that celebrates success.
    One of the items that we have worked on recently is the 
implementation of a centralized credentialing system. This 
enables transparency into the records of providers, not only at 
the local level, at the service unit level, but also by our 
area offices and at the headquarters level. So we have that 
ability to really open up and be transparent in the records.
    We are working through Dr. Michael Toedt, our Chief Medical 
Officer, to firm up any loose ends in our policies. A good 
example of this is if we have providers with licenses in 
multiple States, and they may have an active license in one 
State but a restricted license in another, that it is clear in 
our policy that that person is not hirable, that that 
individual had a restricted license for a reason, and that we 
should not be employing them in our system.
    Ultimately, the focus should be on keeping our patients 
safe and elevating the quality of the care that we provide.
    The Chairman. How will you make sure that you don't have a 
repeat of something like what happened with Stanley Patrick 
Weber?
    Mr. Weahkee. Thank you, Senator. Again, hearing from my 
mouth directly and from all members of our senior team that 
those types of activities are absolutely unacceptable and will 
not be tolerated. We cannot risk any harm to our patients. 
Creating knowledge and awareness of, if you see something that 
doesn't look right, report it, and let's let the investigation 
play out. We want to make sure that not only are employees 
trained, but that they have tested to that training, and that 
they know their roles and responsibilities in the process.
    So establishing policy control, tone at the top, I think 
are the major items that I will be focusing on.
    The Chairman. At the same time that you are making sure you 
have proper accountability, how are you going to recruit the 
health care professionals you need for IHS?
    Mr. Weahkee. Thank you, Senator Hoeven. As I noted, tribal 
leaders and urban Indian organization leaders helped us to 
identify that recruitment and retention is one of our major 
challenges. Stories like that of Dr. Weber do not help us in 
that regard.
    So what we need to do is focus really on all of the great 
work that the agency is doing. We hear in the news reports 
terrible stories like that of Dr. Weber, but we don't tell the 
story enough about all the great work that is going on 
throughout our Indian health care system, where we have places 
like the South Central Foundation that is a two-time Malcolm 
Baldridge Award winning health care system. People from around 
the world travel to Alaska to learn from them.
    We don't tout that enough. We don't tell the story about 
Cherokee Nation standing up a medical school to train the next 
generation of medical providers in reservation-based medicine. 
So once those needs in Oklahoma are met, we will have these 
Indian-trained physicians going out throughout the rest of 
Indian Country.
    We need to be innovative in our thoughts and how we 
recruit. We need to partner with you for flexibility on items 
like our scholarship and loan repayment program. We currently 
use that as one of our central tools in attracting new 
graduates and current students into our system, that we are not 
as attractive as other systems like the armed forces and the 
National Health Service Corps, because of the taxability issue. 
If we could work to eliminate that tax burden, we could compete 
better for a limited pool of students.
    Also to have flexibility in the payback. Currently, our 
system requires a two-year clinical payback. If we were more 
like some of the other services, we could do a more flexible 
payback schedule, perhaps a half time over a four-year period, 
or a part time clinical, part time administrative payback. 
These types of legislative actions would be very beneficial to 
us in our recruitment efforts.
    The Chairman. If you partner with the Public Health 
Service, that is something we talked about as a way to attract 
talent.
    Mr. Weahkee. Thank you, Chairman. Very much, a primary 
strategy is to work with the Office of the Surgeon General to 
bring new commissioned officers into the Indian Health Service. 
We have gained both the Secretary's and the Assistant Secretary 
for Health, Brett Giroir's commitment that any new entrants 
into the public health service will be focused to Indian Health 
Service hard to fill slots as a priority. New physicians, new 
dentists, new nurses, all professions, that those in direct 
clinical positions in Indian Health Service are being 
prioritized.
    The Chairman. And if confirmed, will you commit to work to 
improve the credentialing system, so that more dentists, for 
example, who are more willing to come out and do pro bono work 
and that kind of thing, are able to do so?
    Mr. Weahkee. Absolutely. If confirmed, we will do so. I 
know that Dr. Toedt and our dental professionals have already 
conducted some initial demonstration projects to assess how we 
can reduce that and streamline that process. So we look forward 
to that.
    We also need to partner with Congress to look at Federal 
tort claims coverage for volunteers. Currently, our FTCA does 
not automatically extend to volunteers in the Indian Health 
Service.
    The Chairman. Good. Thank you. Vice Chairman Udall.
    Senator Udall. Thank you, Chairman Hoeven.
    Admiral Weahkee, we covered very extensively the medical 
malpractice issues reported in the Wall Street Journal. We have 
had several here, talking about Dr. Weber and the abuses there. 
But I just wanted to ask you very specifically, if confirmed, 
will you commit to full transparency with Congress and the 
tribes on these kinds of issues, and working with us to put an 
end to these abuses?
    Mr. Weahkee. Thank you, Vice Chairman Udall. You have my 
full commitment to transparency and openness. I want to be 
candid with all the Committee's requests.
    Senator Udall. Thank you. If confirmed as Director of IHS, 
you will transition from a career civil servant and member of 
the uniformed services to a political appointee. As an 
appointee, you will be asked to balance advancing the 
Administration's policies with advocating for Indian Country's 
priorities at the highest level within the Executive branch. 
This balancing act can be difficult to achieve, especially when 
those two tasks stand in conflict with each other.
    Since 2017, we have seen the budget process reflect this 
conflict. IHS and other Native programs at HHS have been the 
targets of budget cuts under this Administration. Will you be a 
fierce advocate for Indian Country at HHS? Will you be willing 
to take on the political leadership to fight for needed 
resources at IHS?
    Mr. Weahkee. Thank you, Senator Udall. I will absolutely 
continue in the same manner that I have over the past two plus 
years to be a very vocal internal advocate within HHS. I do 
feel confident that there is a lot of support for Indian health 
within HHS, and the Secretary and Deputy Secretary have 
expressed directly that they are in full support.
    So adding my voice to that of our ANA commissioner, Jeannie 
Hovland, and others within government, there is a lot of 
education to do. But I do feel confident that we are making a 
lot of progress, and that future requests are going to 
demonstrate that.
    Senator Udall. A Government Accountability Office study 
released in September found that the Affordable Care Act 
increased health insurance coverage among IHS patients, and 
that federally operated facilities increased third party 
revenues by 51 percent. The expansion in health insurance 
coverage, especially through the ACA's Medicaid expansion, has 
allowed the Federal, tribal and urban IHS facilities to 
continue their operations and expand services beyond just life 
and limb.
    Do you agree with the findings of this report?
    Mr. Weahkee. Thank you, Senator Udall. We have analyzed 
data internally, and we have also met with our tribal partners. 
It is evident that in many parts of the Country where there are 
additional resources now available that our programs are able 
to see and provide services for diagnostics, prevention, where 
in the past they were only able to take care of life and limb 
medical priority level one.
    So any opportunity that we have to expand resources coming 
into our Indian Health Care system definitely would be 
beneficial.
    Senator Udall. Do you believe that increased third party 
revenues will result in improved health care outcomes for IHS 
patients and Native communities?
    Mr. Weahkee. I do believe that additional resources and 
third party revenues would be used to benefit our patients and 
improve health outcomes, reduce disparities, yes, sir.
    Senator Udall. You listed recruitment and retention of 
quality clinical and leadership staff as the top challenge 
facing IHS in one of your responses to the Committee's 
nomination questionnaire. The Albuquerque and Navajo service 
areas have two of the highest IHS medical provider vacancy 
rates in the Country. These staffing shortages have dire 
impacts on Native communities in New Mexico.
    Just last month, the ACL Hospital, which is located about 
an hour west of Albuquerque, had to shut down its emergency 
room and urgent care departments. Based on your experience as 
Acting Director, what factors pose the greatest barriers to 
recruitment and retention at IHS? If confirmed, how will you 
overcome those barriers?
    Mr. Weahkee. Thank you, Senator Udall. There are many 
different challenges to recruitment and retention efforts in 
the most rural and remote parts of our Country. Housing is a 
substantial issue, and we have been thankful for the support of 
Congress to provide funding for staff quarters. We have also 
turned to innovative strategies to address lack of housing, 
such as construction of 19-unit apartment complexes throughout 
many different sites in Indian Country, Chinle and Crown Point, 
Pine Ridge and Rosebud. We have been able to put these units in 
at approximately $5 million per complex. That alleviates the 
need to reserve homes for contract providers. We can provide 
those single-family homes to young health care professionals, 
extending the availability of housing throughout Indian 
Country.
    Transportation, education systems, when we are recruiting a 
health care provider, we are also recruiting their family. We 
need jobs for spouses. So one of the areas that we have been 
working on through the Intradepartmental Council of Native 
American Affairs is to partner with our sister agencies who 
have funding to help meet these challenges and meet these 
needs, and to address the economic development issues and the 
housing issues, transportation issues, to help us attract 
talent into remote locations like Acoma, Canoncito, and Laguna.
    Senator Udall. Thank you for that answer. Thank you, Mr. 
Chairman.
    The Chairman. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Rear Admiral Weahkee, thank you for visiting with me this 
past week. Also thank you for your several visits up to this 
date, to know and understand better some of the conditions that 
Alaska Natives are facing when it comes to delivery of health 
care.
    I also appreciate your comments this afternoon as it 
relates to recruitment and retention and what can be done here, 
what we can help do in terms of encouraging more to come over 
to the IHS system, and making available the scholarship and the 
loan repayment programs that are offered by National Health 
Service Corps and the loan repayment programs and the exempt 
scholarship provisions that would help you, I think, be a 
little bit more competitive. I know that is something that I 
think is an important way that we can assist.
    I also want to raise an issue that we had discussed, and 
this relates to water and sanitation. As you know, in far too 
many of our rural communities, we have communities that lack 
any level of basic sanitation needs being met. We have no 
running water; we have no sewer facilities. When you are not 
able to have clean water to drink, or to bathe in, or to clean 
your clothes, your home, disease is allowed to accumulate. We 
have issues, whether they are respiratory issues, whether they 
are just communicable diseases that are shared. I think we 
recognize that these are a key and an integral part to how you 
are able to better provide for the health care needs of so many 
in my part of the Country, up in Alaska.
    We know that Public Health Service, IHS, has recognized 
that it makes sense to provide some incidental benefits to non-
Indians in an Indian community in order to get the full 
sanitation benefits to the folks that are there. You have 
authority under the Sanitation Facilities Construction Act. But 
as we have discussed, there have been interpretations more 
recently through the IHS that are perhaps more stringent as to 
how those rules apply to non-Indian communities, requiring IHS 
to then pay the pro-rata contribution for whole projects, which 
then makes it absolutely impossible, infeasible to move 
forward.
    So I am hoping that we can continue to work with you to 
ensure that we are able to do right when we say we want to meet 
the statutory obligation of serving our Native communities as a 
whole. This is something that is going to be a more complicated 
and a broader approach, but I hope I have your commitment to 
work in these areas where we know we will have direct and 
positive impact on health outcomes.
    Mr. Weahkee. Thank you, Senator Murkowski. I really enjoyed 
our conversation. You have my full commitment to continuing the 
dialogue and to work with our partners throughout government, 
the Environmental Protection Agency and the U.S. Department of 
Agriculture, to bring the resources that they receive to meet 
the needs of our Indian communities and our Indian homes as 
well.
    We know that, in personal visits that I have had the 
opportunity to make, to Shishmaref and Wales, I have had the 
opportunity to see first hand the limited facilities, the solid 
waste concerns, the PASS system in some communities that has 
been used as an innovative way of addressing sanitation. You 
definitely have my commitment to continue scanning the 
landscape for innovative solutions, and to best use the Indian 
Health Service's resources to meet the needs throughout Indian 
Country. We are talking about Alaska here specifically, but 
Navajo Nation has many homes still without running water as 
well. Ensuring that those formulas are constructed in a manner 
that gets the money to the locations that need it the most.
    In today's day and age, as I have heard you say many times, 
we should not be relying on honey buckets, and we should really 
take a public health approach to meet these needs.
    Senator Murkowski. I appreciate the recognition that we 
need to have these various Federal agencies working together. 
The end goal is the overall health of our Native peoples. When 
we get siloed because USDA has an interpretation, a language 
that is one way, EPA has another, and we can't migrate through 
these siloes, we are not able to accomplish what we need.
    Mr. Chairman, I have raised the issue of the 105(l) leases 
with Rear Admiral Weahkee. It is a big issue for IHS. It is 
going to have significant budget impact. Senator Udall knows 
full well, as we look at our Interior Appropriations bill, if 
we don't find a solution to this soon, IHS is going to have to 
reduce part of their budget to pay for these leases.
    I have raised this issue with the Rear Admiral. I think it 
is fair to say that you agree that this is a growing concern, 
it is something that we need to get our arms around in terms of 
understanding what the number of proposals is that we might 
anticipate, what is the trajectory of growth. This is something 
I am going to continue to press on. You have given me your 
assurance that you are going to be working with us on that. I 
think that is something that we all need to be very aware that 
this could literally take over our IHS budget if we don't have 
a greater understanding.
    Mr. Weahkee. Thank you, Senator Murkowski. You have my 
commitment to continue providing the assistance needed. And we 
do have very willing tribal partners to help us project that 
out-year cost. We have a Federal tribal work group that is 
ready to help us identify the inventory of tribally owned 
buildings being used for health care. And just to update the 
rest of the Committee on the trajectory, it has basically 
doubled every year. At the end of fiscal year 2019, we have 
received 205 proposals, at an approximate cost of $100 million.
    The Chairman. Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you, Mr. Chair, and Vice Chair Udall. 
Thank you very much, Rear Admiral Weahkee, for coming in to 
speak with me last week, I think it was. I enjoyed our 
conversation very much. I appreciate your willingness to serve 
in this role.
    During my time on this Committee, I have heard from both my 
Republican and Democratic colleagues a real concern about 
budget cuts and inadequate funding for programs of Indian 
Country, particularly Indian Health. Of course, we are always 
balancing priorities, and it is a challenge. We are always 
living in a world of limited resources. Yet I think when it 
comes to our relationships with tribal nations, this is a 
matter not of priorities, this is a matter of solemn trust and 
obligation and agreement.
    I bring this up because, as you and I discussed when you 
came to my office, when the Federal Government shut down 
earlier this year, we really failed in that obligation. So many 
of us were deeply aware of the consequences this had in Indian 
Country. Mr. Chair, Mr. Vice Chair, we are talking about the 
challenges of recruiting health care providers to Indian Health 
Service hospitals as an example, in Indian Country, recruiting 
people. Yet the shutdown, we had this experience of making it 
even harder to recruit people.
    So my question, to start out with, is, will you commit to 
be a fierce advocate within the Administration for advanced 
appropriations in Indian Country?
    Mr. Weahkee. Thank you, Senator Smith. In partnership with 
the tribes and the National Indian Health Board, we did conduct 
quite a bit of work in January and February of this year to 
really assess the impacts of government shutdown on the Indian 
Health system of care. We learned things like patients not 
being able to make it to their appointments, or to emergency 
care, even, because roads were not able to be plowed. So that 
is a real patient safety issue.
    We had some tribes that were in a situation where they had 
to go and take short-term loans out, with high interest rates, 
in order to make payroll. So these things are really creating a 
lot of havoc throughout Indian Country. Internally, when we 
have continuing resolutions or questions about continued 
funding, we are not able to plan or prioritize as well as we 
should be able to. So looking forward to the future, if we have 
an unclear budget picture, or we don't know when and how we 
will be able to modernize our electronic health record, or roll 
out our community health aid program in the lower 48, or 
further stand up our Office of Quality and Compliance Program.
    So I have heard very loudly from tribal leaders that they 
would like to see advanced appropriations in the same way that 
the Veterans Administration has advanced appropriations for the 
provision of direct health care, and not wanting to interrupt 
and put patients at risk. I think that logic is very clear. We 
have had robust dialogue within HHS and with appropriators 
about this topic.
    Senator Smith. Would you be willing to advocate for 
advanced appropriations?
    Mr. Weahkee. I am willing to share all of the impacts of 
what not having advanced appropriations does to us.
    Senator Smith. Maybe I can just take that for a yes.
    Mr. Weahkee. I will go right up to the line with you.
    [Laughter.]
    Senator Smith. I am hearing a yes. Thank you, Senator 
Murkowski, I am hearing a yes there.
    We had a really interesting conversation about the 
connection between mental health and physical health and the 
importance of really looking at all of the factors that affect 
people's whole health, really everywhere, but we were talking 
specifically about your work in Indian Health Service. Senator 
Murkowski and I have been thinking a lot about this, and 
working on it, particularly when it comes to rural moms and 
looking at the vast disparities that we see in health outcomes 
and maternal mortality for women living in Indian Country, 
Native women compared to white women around the Country.
    Would you just talk a little bit about how you see that 
issue, and how you would see working on that issue, should be 
you confirmed in this role?
    Mr. Weahkee. Thank you, Senator Smith. Maternal mortality 
has definitely been a major focus area for us. In the past 
months, we have had CDC roll out some recent reports that 
demonstrate that our Native women continue to have much higher 
rates of maternal mortality in comparison to non-Native women. 
We have some strong partnerships with the American College of 
Obstetricians and Gynecologists and the American Academy of 
Pediatrics.
    We have been able to put together some patient bundles. Dr. 
Michael Toedt, who is our chief medical officer, sitting here 
to my right, has been very engaged in these activities. We have 
invested resources and have hired a maternal and child health 
expert at IHS headquarters to focus on issues like this. We 
expect that this will be a significant focus area for the 
agency moving forward, so that we can bring those disparate 
rates down.
    Senator Smith. Thank you very much. Mr. Vice Chair, I see 
that I am out of time. I would just like to add that I would 
like to enter into the record letters of support from the Red 
Lake Nation and the Mille Lacs Band of Ojibwe in Minnesota.
    Senator Udall. [Presiding.] Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Senator Udall.
    I want to thank you for your willingness to serve, Admiral. 
A special thank you to your wife, Rose, thank you for being 
here, and thank you for being a big part of the team. I mean 
that.
    The first question is for you, Admiral. You spoke of your 
leadership team. Is it fully staffed at this moment in time?
    Mr. Weahkee. Thank you, Senator Tester. We have, of all of 
our Indian Health Service senior executive service positions 
only two vacancies currently, out of about 35 positions. It is 
the best we probably have ever been.
    Senator Tester. That is good. So overall, in the IHS, can 
you tell me what your staffing is?
    Mr. Weahkee. Yes, sir, historically, and our current 
vacancy rate, is at 20 percent across all professions out of 
15,400 employees.
    Senator Tester. Okay. So your vacancy rate is 20, and I am 
not sure, we didn't cover this in the office, and thanks for 
stopping in, I had a nice visit. Did you say your turnover is 
about 5 percent, or was that somebody else I was talking to?
    Mr. Weahkee. It must have been somebody else.
    Senator Tester. Okay. What is your turnover rate?
    Mr. Weahkee. We are probably, depending on the profession, 
which we do track very specifically by profession, would likely 
run into the thirties.
    Senator Tester. Okay. So I have a parochial issue I want to 
take up with you really quick, and you don't have to handle it 
yourself, but it is why I asked if your leadership team was 
fully staffed. You can pass this on. There is a dispute right 
now between health care given by Glacier County, up by the 
Blackfeet Reservation, and IHS. I am not saying IHS is wrong, 
and I am not saying Glacier County is wrong. But it would be 
great to put somebody on this, to get this resolved, if you 
could. I would certainly appreciate this, once you are 
confirmed.
    I have a couple other questions. They kind of revolve 
around what has already been said. I really, really appreciate 
your answer to the Ranking Member on being an advocate for 
funding. As I told you in my office, I have been through three 
administrations now. We have had folks in front of this 
Committee several times, and funding has always been a problem.
    You are uniquely qualified to be in this position, because 
you are Native American, you have used the services, you have 
been in the system as an employee and as a utilizer. I think 
that if anybody knows the challenges out there from a money 
standpoint, it is you. It is important that you are a fierce 
advocate for funding.
    Have you had an opportunity, when it comes to retaining 
people, and you are involved with the military, so you get 
this, to take a look at some of the tools that the VA, that 
Congress has given the VA to be able to hire and retain 
employees? If you have, tell me if you would like those 
authorities. If you haven't, I would just encourage you to have 
somebody go over and work with the VA to determine what they 
have to see if they would work for you.
    Mr. Weahkee. Thank you, Senator Tester. I thank you for 
bringing up the VA. I have, actually, looked quite in-depth at 
the VA's authorities with envy. Title 38 authorities enable the 
VA to compensate at higher rates. Their benefits packages are 
much better than Title 5 and the hiring authority that we have 
within the IHS.
    Senator Tester. So they can actually be competitive with 
the private sector that they are in competition with?
    Mr. Weahkee. They can get a lot closer than we can, yes, 
sir. Across many different professions, we have actually used 
the VA's work to create our own pay scales for professions like 
podiatry.
    Senator Tester. Would you be willing to work with any of us 
on the Committee, but I think it starts with the Ranking Member 
and the Chairman, to try to get those authorities for IHS?
    Mr. Weahkee. Absolutely, sir. We would very much love to 
partner with you on that.
    Senator Tester. I think there are some opportunities for 
success here. I think you guys have a hard time. And it is for 
a number of reasons. Part of it is compensation, part of it is 
housing, which is more difficult than compensation, from my 
perspective. We would love to work with you, and I know there 
are other folks on this Committee that would love to work with 
you. Since I am ranking on the VA committee, we are pretty much 
up to our waist in some of the stuff that they have done there.
    I want to thank you for being here. I want to thank you for 
being in my office. Probably the only folks that know this are 
the folks in your family that are in this room, but we had a 
dust-up a few years ago. I want to tell you that we--evidently 
you do know about that.
    [Laughter.]
    Senator Tester. I want to tell you that when I went back to 
Montana and talked to the Native American population, they were 
happy about that. They liked that. They loved me, and not for 
any other reason but the fact that, and I will just say this 
quite frankly, and this isn't on you, it is on the agency in 
general, over decades and decades and decades, they don't 
believe there is anybody in IHS that is fighting for them.
    I would just tell you that, I think you are going to get 
confirmed, and you should get confirmed. But if you leave here 
without anything, I would just ask you to be a fierce fighter 
for the Native Americans that you serve. If you do, they will 
build statues to you. They need somebody.
    IHS is, you know this, I don't need to preach to you, you 
have been there, you have done that. But it really is 
oftentimes a life and limb situation. If you are able to break 
through that, you have a lot of people on this Committee that 
are on your side, on both sides of the aisle, that will help 
you be successful. I would just say, be aggressive and good 
luck. Thank you.
    Mr. Weahkee. Thank you, Senator Tester.
    The Chairman. [Presiding] Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Today seems to be the day for New Mexico tribes in the 
Committee. Also present are a number of members of the Tesuque 
Pueblo, including the Governor, Governor Herrera. Welcome here 
today, and it is good to have you.
    We talked about the facilities, Admiral, especially the 
ones in New Mexico that have had some issues over emergency 
rooms and urgent care and keeping them open. Will you commit to 
making sure that the IHS facilities in New Mexico, like the 
ACL, Crown Point, and Gallup IHS hospitals have enough staff to 
keep the doors of their emergency rooms and urgent care open?
    Mr. Weahkee. Thank you, Senator Udall. I commit to doing 
all that we can to ensure that those emergency physicians, 
emergency nurses, are there for our patients. That is really 
the sole purpose and the reason for our agency, is to be that 
safety net for our Native communities.
    We do, when we are not able to hire directly, we contract 
for those individuals to locums companies, at sometimes two to 
three times the cost of what it would be if we could hire them 
outright. But we are dedicated to identifying those resources 
and having those individuals in place.
    Senator Udall. Great. Thank you for that commitment.
    It is no secret there is a severe health care provider 
shortage in Indian Country. Indian Country needs more doctors, 
more midwives, nurses, and lab techs. However, Indian Country 
also needs more ways to help support Native youth who want to 
serve their communities and earn a living.
    Admiral Weahkee, do you believe IHS has a role to play in 
developing a pipeline of Native youth into health professions?
    Mr. Weahkee. Thank you, Senator Udall. I do believe 
strongly that developing our own youth to work in our 
facilities is a primary strategy that we should be using. I 
have already initiated conversations internally with ANA 
Commissioner Jeannie Hovland, and with the Office of Minority 
Health, to look at their grant-making abilities to fund 
programs that will introduce our Native youth to health care 
professions at an early age, we are hoping as early as 
elementary school and junior high, in fact, so they can start 
along a path towards a health care profession.
    Dr. Weahkee and myself are doing our own part. We are 
really pushing our kids to pursue health careers. So we are 
trying to train our own for the next generation of health care 
professionals.
    Senator Udall. We would like to see that. We are very 
encouraged.
    Earlier this year, you collaborated with your counterparts 
at the CDC to publish an op-ed on efforts at the Department of 
Health and Human Services to address HIV in Indian Country. I 
am glad to hear you are working on this initiative. I was a bit 
surprised, because just a few months before the op-ed was 
published, the Department proposed eliminating the CDC's Good 
Health and Wellness in Indian Country program, a program 
specifically created to address HIV and other chronic diseases. 
I am sure you would agree that this seems like a bit of a 
disconnect.
    If confirmed, will you continue to build partnerships with 
sister agencies at HHS and will you commit to advocating for 
Native programs like Good Health and Wellness at those 
agencies?
    Mr. Weahkee. Thank you, Senator Udall. I was ecstatic that 
the Indian Health Service was involved early in the ending HIV 
initiative. It is typical that IHS is an afterthought, but we 
were included early in this endeavor. That is through the 
leadership and vision of the Secretary and Director Redfield 
from the CDC seeing how many of the communities were 
overlapping with our rural reservation sites, Oklahoma being 
one of those seven States that has a high number of new HIV 
infection rates, and Maricopa County being another of those 48 
communities.
    Using science, using data to really direct the resources to 
where they are needed, I think, is vitally important. Again, 
the role of the IHS Director being that vocal internal advocate 
to my sister agencies and their leaders about the needs in 
Indian Country is of primary importance. You have my commitment 
that, if confirmed, I will do that, yes, sir.
    Senator Udall. That is great. Advocacy is so important. 
Sometimes I hear from tribes where they are trying to just open 
the door and get in and talk about a program with one of your 
sister agencies. I think a call by your leadership team and 
being a vocal advocate would just really make a difference 
there.
    Thank you very much, and we look forward to working with 
you.
    The Chairman. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Admiral, it is good to see you again. Thank you for meeting 
with me last week.
    When we talked, we talked about maximizing Medicare 
enrollment in Indian Country. I appreciated the conversation.
    There are a handful of different public data points on how 
many tribal members are actually enrolled in Medicare. They 
give a broad range of estimates. For example, the American 
Community Survey data says 96 percent of tribal members report 
Medicare coverage. The Survey of the Elders finds a Medicare 
coverage rate of 78 percent. And the National Health Interview 
Survey finds a Medicare coverage rate of 88 percent.
    So does IHS have data that would help us to understand 
actually how many tribal members who get coverage from IHS 
facilities are Medicare eligible? And of those, how many are 
enrolled in Part A, B, or D coverage? That is the data that I 
am looking for, and I am curious if IHS has that already.
    Mr. Weahkee. Thank you, Senator Cortez Masto. I appreciated 
our conversation the other day as well.
    We do work very closely in partnership with the Centers for 
Medicare and Medicaid Services. We have a regular conversation 
with them about the needs and interests of Indian Country.
    In terms of our data sets, we are very quickly building our 
capacity, both on the Medicaid and the Medicare side, to track 
all of our third-party reimbursements. I will have to go back 
to determine whether or not we have the ability to split by 
parts. But we do, of course, track very closely our coverage 
rates and our reimbursements through Medicaid and Medicare.
    Senator Cortez Masto. Thank you. And that information is 
helpful, for the reasons that I think we talked about in our 
conversation in my office. I am working on a bill to enable 
tribes to pay Medicare premiums on behalf of their members. 
Making sure that our eligible tribal members are enrolled would 
help provide access to care for seniors. It would help tribes 
stretch their dollars further.
    So do you see that type of policy, one that would boost 
enrollment in health insurance, as beneficial to Indian 
Country?
    Mr. Weahkee. Thank you, Senator. I feel that any initiative 
that will expand coverage for our American Indian and Alaska 
Native beneficiaries would be helpful.
    Senator Cortez Masto. Thank you. I look forward to 
hopefully working with you on this policy.
    One final question. As you well know, of the Federal 
programs in Medicaid, it is Medicaid that provides the greatest 
volume of coverage to Indian Country. The ACA was a major boon 
to that coverage. I saw that in Nevada, working with my tribes. 
Today, Medicaid covers more than a quarter of the American 
Indian and Alaska Native populations.
    Like Medicare, Medicaid helps stretch IHS dollars farther, 
and improves access to quality care. Does IHS know what portion 
of the individuals you serve are eligible for Medicaid but not 
enrolled, and whether there is a gap or not?
    Mr. Weahkee. We do have data, and thank you again, Senator, 
for the question, regarding our coverage rates. I feel strongly 
that one of the challenges that we have within Indian Country, 
not only on the Federal side, but on the tribal and urban side, 
is educating our patients about the importance of enrolling in 
Medicaid. Because it expands our purchasing power.
    Many people see IHS as their health care plan, and why 
should I apply for Medicaid or Medicare, IHS will take care of 
me. So it is really an education opportunity for us to tell the 
story about expanded services that we could provide, the 
greater capacity that we could have if we were able to enroll 
more people into the Medicaid coverage.
    So in terms of rates, I will have to talk to our Office of 
Resource Access and Partnerships. I don't have those 
percentages off the top of my head. But we do track by State, 
we do track, in many instances, by service unit or location.
    Senator Cortez Masto. Thank you. I look forward to that 
information, and working with you and your team on how we can 
close that gap.
    Thank you so much. Congratulations on your nomination.
    Mr. Weahkee. Thank you, Senator.
    Senator Cortez Masto. I yield my time.
    The Chairman. There being no further questions, if there 
are any questions, they can be submitted in writing. Also, we 
would ask that you respond within two weeks to any of those.
    With that, unless there is any other question, or business 
for the good of the order, I would like to again thank you, 
Admiral Weahkee, for being here. We appreciate it very much, 
and appreciate your testimony.
    Thank you so much.
    Mr. Weahkee. Thank you, Senator.
    The Chairman. We are adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of James L. Bresette, Pharm.D., Member, Red Cliff 
                     Band of Lake Superior Chippewa
    For the record, I am an enrolled member of the Red Cliff Band of 
Lake Superior Chippewa. I do not take this action lightly as I am 
concerned that my tribe may face IHS retribution based on me providing 
this information.
    As we discussed, please find the attached 2013 House Appropriations 
Bill for the Indian Health Service * that was not voted upon in the 
Senate due to a series of continuing resolutions for that fiscal year 
and Senator Harry Reed's failure to take up a separate budget bill 
opting for an omnibus spending bill instead.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    Note on page 80 in the IHS Direct Operations requirement for the 
Agency to explain the departure of more than 25 senior leaders. These 
longstanding and competent IHS employees were harassed, threatened and 
chased from the IHS at the direction of IHS Director Yvette 
Roubideaux's expressed policy of removing from IHS senior management 
positions non-Indians without cause other than their race and others 
she deemed to not be her people and ``loyalists''.
    IHS under Roubideau'x direction and through the actions of her 
``loyalists'' such as then-CDR Michael Weahkee conspired to and 
violated multiple OPM personnel regulations to drive competent and 
qualified federal employees from the IHS. While IHS can legally hire 
based on Indian preference, IHS under Roubideaux's direction and with 
Weahkee's assistance sought to replace non-Indians from senior 
management positions based upon their race.
    During this period, then-CDR Michael Weahkee was the IHS Office of 
Management Services (OMS) Deputy Director and was fully cognizant as 
well as an active participant in these highly suspect and illegal 
personnel and funding violations.
    Additionally, Roubideaux's ``loyalists'' directly worked, assisted 
and tolerated bringing more Roubideaux ``loyalists'' into IHS 
Headquarters (Rockville, MD) during 2010 and 2011 on extended temporary 
duty (TDY) of multiple 180 day tours to reward them with high per diem 
Washington D.C. as additions to their pay. IHS records will show direct 
evidence of the excessive amount of funds spent in this manner unlike 
any prior years.
    Several long-term IHS and former IHS employees subsequently 
contacted and met with members of the Senate Committee for Indian 
Affairs and Appropriations staffs in late 2011 and early 2012. At that 
time the SCIA and Appropriations staff were alarmed and yet not 
surprised due to other information they had received. When they asked 
how could they follow up surreptitiously as not to ``tip off'' IHS from 
hiding evidence or obfuscating their committee oversight, the current 
and former IHS employees advised them to ``follow the money'' spent in 
TDY costs as a logical and evidentiary means to conduct their review 
and open up additional areas of personnel and fiscal malfeasance.
    When CDR Weahkee was charged and convicted of driving under the 
influence of alcohol in Montgomery County, Maryland. rather than 
disciplining CDR Weahkee, IHS at Director Roubideaux's direction 
promoted him by assigning him to Phoenix Indian Medical Center (PIMC) 
as COO and CEO to protect him, advance his career as a ``loyalist'' and 
get him ``out of sight and out of mind'' at IHS Headquarters.
    RADM Weahkee and the Agency should be questioned about these 
occurrences both in the confirmation hearing and in written responses 
from the Agency to assure RADM Weahkee has the opportunity to explain 
these events and that these practices have been subsequently corrected 
by the IHS.
    Former and current IHS employees can be interviewed to assist with 
additional facts and evidence as needed in support of and in addition 
to that provided here.
    Sincerely and respectfully submitted.
                                 ______
                                 
                                WINNEBAGO TRIBE OF NEBRASKA
                                                  December 18, 2019
    On behalf of the Winnebago Tribe of Nebraska, I write this letter 
in support of the confirmation of Rear Admiral Michael D. Weahkee to 
serve as the Director of the Indian Health Service (``IHS''), U.S. 
Department of Health and Human Services.
    The Winnebago Tribe of Nebraska (``the Tribe''), a federally 
recognized Indian tribe, is located in the northeast comer of what is 
now known as Nebraska. The Tribe was historically served by the IHS 
Winnebago Service Unit, which is part of the Great Plains Area, and 
operated a thirteen ( 13) bed hospital, clinic and emergency room on 
our Reservation. These facilities serve the citizenry of the Winnebago, 
Omaha, Ponca and Santee Sioux Tribes, a service population of 
approximately 10,000 people. In 2018, through the IHS Self-Governance 
Program, the Tribe established the Winnebago Comprehensive Healthcare 
System to transition IHS operations to tribal management and assume the 
functions of the Winnebago Hospital which is now the Twelve Clan Unity 
Hospital, the first of its kind in the Great Plains Area.
    The Tribe appreciates Admiral Weahkee's support and attentiveness 
throughout the transition of its hospital from IHS to tribal 
management. Admiral Weahkee's leadership and integrity lend to his keen 
sense of listening and deliberative manner in working with tribes. His 
impressive leadership style is mission driven and he is effective and 
genuine in his approach for creative and patient centered solutions. 
Indian Country would do well with Admiral Weahkee at the helm of IHS.
    I urge the Committee to swiftly approve Admiral Weahkee's 
nomination and I look forward to his confirmation by the full Senate.
    Thank you for your attention.
        Sincerely,
                                      Coly Brown, Chairman.
                                 ______
                                 
                Great Plains Tribal Chairmen's Health Board
                                                  December 11, 2019
    I, Jerilyn Church, President and CEO of Great Plains Tribal 
Chairmen's Health Board, strongly supports the nomination of Rear 
Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe and ask that 
you support his confirmation as Director of the Indian Health Service 
(IHS) in the United States Department of Health and Human Services 
(HHS). RADM Weahkee has served as the Principal Deputy Director and 
Acting Director of the IHS for the past two and a half years, and in 
that time he has proven that he is capable and dedicated to improving 
the Agency and raising the physical, mental, social and spiritual 
health of American Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his Bachelor 
of Science in health care management degree from Southern Illinois 
University-Carbondale, and both a Master of Health Services 
Administration and Master of Business Administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five-year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                         Jerilyn Church, MSW, President/CEO
                                 ______
                                 
                                Gila River Indian Community
                                                  December 11, 2019
    On behalf of the Gila River Indian Community I write in support of 
the confirmation of Michael Weahkee as Director of the Indian Health 
Service.
    It is critical for the position of Director of the Indian Health 
Service to be filled. The health crisis facing Native Americans is well 
documented. The Director is charged with carrying out the programs and 
policies that have a direct effect on the health of our tribal 
citizens. At the Gila River Indian Community, we run a comprehensive 
health system with seven health facilities including hospitals, 
clinics, and a dialysis center. It is imperative that our federal 
partner at the Indian Health Service is engaged with the Community and 
has the authority to carry out the policies of the Administration.
    While we are aware that many in Indian Country have raised concerns 
about Mr. Weahkee's commitment to consult and engage, the Community has 
been encouraged by the level of outreach that Mr. Weahkee has conducted 
in the past with us and his willingness to engage the Community and 
Indian Country around budgetary issues, programs such as the Special 
Diabetes Program for Indians, behavioral health issues, and tribal 
inclusion in dealing with the opioid crisis. We hope that Mr. Weahkee 
will continue to engage Indian Country upon confirmation and seek ways 
to partner effectively with the Tribes so that we can improve the 
health of our tribal citizens.
    It is for these reasons that the Gila River Indian Community 
supports the nomination of Mr. Weahkee as Director of the Indian Health 
Services and hopes the Senate will promptly act on this confirmation.
        Sincerely,
                               Stephen Roe Lewis, Governor.
                                 ______
                                 
                                Port Gamble S'Klallam Tribe
                                                  December 10, 2019
    I am writing on behalf of the Port Gamble S'Klallam Tribe to 
express our support for the nomination of Rear Admiral (RADM) Michael 
D. Weahkee of the Zuni Indian Tribe for the position of Director of the 
Indian Health Service (IHS) in the Department of Health and Human 
Services (DHHS). We respectfully request that you support his 
confirmation for this position.
    Our Tribe is a sovereign nation comprised of over 1,200 citizens 
and located on Kitsap Peninsula in Northwest Washington State. In 1992, 
we became one of the first Self-Governance tribes in the United States 
and assumed control of our BIA and IHS programs. Providing quality 
health care to our citizens and approximately 800 other American 
Indians, Alaska Natives, and nonIndians living on our Reservation is 
one of our paramount priorities. For this reason, we participate in the 
Self-Governance Advisory Committee meetings, the DHHS Secretary's 
Tribal Advisory Committee meetings, IHS and DHHS tribal consultation 
sessions, and other meetings related to health care and tribal 
governance. We do this with an eye towards improving our services to 
our people and holding the United States accountable to its treaty and 
trust responsibilities relating to health care.
    We have had the opportunity to meet with RADM Weahkee in these 
meetings and separately. We believe RADM Weahkee is well suited to be 
the IHS Director and that his more than two years as Acting IHS 
Director has provided him invaluable experience for the role. We find 
RADM Weahkee not only to be competent to carry out the duties of the 
IHS Director, but to do so in a manner that is respectful of tribal 
sovereignty and with the best interests of Native Peoples at the 
forefront. We believe he understands treaty and trust responsibilities 
and expect that he will work diligently to carry them out. We ask you 
to support RADM Weahkee's nomination and to work toward his quick 
confirmation for the position of IHS Director.
        Sincerely,
                                  Jeromy Sullivan, Chairman
                                 ______
                                 
                                              Spokane Tribe
                                                  November 25, 2019
    The Spokane Tribe of Indians strongly supports the nomination of 
Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
ask that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years and, in that time, he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five-year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully;
                                   Carol Evans, Chairwoman.
                                 ______
                                 
                 California Rural Indian Health Board, Inc.
                                                   December 6, 2019
    I am happy and honored to provide a personal letter that strongly 
supports the nomination of Rear Admiral (RADM) Michael D. Weahkee of 
the Zuni Indian Tribe, and ask that you support his confirmation as 
Director of the Indian Health Service (IHS) in the United States 
Department of Health and Human Services (HHS). I am an enrolled member 
of the Navajo Nation and reside in Rocklin, CA. Although this is a 
personal letter of support, in my professional career, I currently 
serve as the Director of the Research and Public Health Department at 
the California Rural Indian Health Board, Inc. (CRIHB) located in 
Roseville, CA. CRIHB is a network of 19 Tribal Health Programs, 
controlled and sanctioned by 59 federally recognized Tribes, serving 
American Indian and Alaska Native (AIAN) people residing in California. 
I have had the privilege of knowing RADM Weahkee for over 15 years, 
while he worked at CRIHB as the Director of Family and Community Health 
Services. RADM Weahkee has served as the Principal Deputy Director and 
Acting Director of the IHS for the past two and a half years, and in 
that time he has proven that he is capable and dedicated to improving 
IHS and raising the physical, mental, social, and spiritual health of 
AIAN to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a Master of Health Services 
Administration and Master of Business Administration degree from 
Arizona State University in Tempe, Arizona.
    During my personal and professional relationship with RADM Weahkee, 
I have come to know him as a person with a high level of commitment and 
dedication to improving the health and well-being of AIAN across the 
country. He has dedicated his professional and personal life to AIAN 
health care. He has served in a variety of different roles within the 
Indian health system of care, including in both the federal and Tribal 
setting (i.e. CRIHB). He has served in the field, at the service unit 
and regional office level, as well as at IHS headquarters at the 
national level. RADM Weahkee has successfully led IHS forward in a very 
trying time, overseeing the development and implementation of a new IHS 
five year strategic plan, the first in over a decade. He has pressed 
IHS forward to address long-standing and unimplemented, external 
oversight recommendations from the Government Accountability Office and 
the HHS Office of Inspector General. He established and implemented a 
new Office of Quality at the IHS Headquarters level, to ensure 
appropriate management oversight and accountability by the Area Offices 
and federal service unit hospitals and health centers. In partnership 
with the Administration for Native Americans Commissioner, RADM Weahkee 
revitalized the HHS Intradepartmental Council on Native American 
Affairs, to provide a forum internally at HHS to discuss the needs and 
interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that Tribal and Urban AIAN communities face in addressing the 
various health concerns that they are confronted with. It is this type 
of leadership, commitment, and character that is needed in the IHS 
Director. Thank you for your strong consideration of this endorsement.
        Respectfully,
                             Vanesscia L. Cresci, MSW, MPA,
                   Director, Research and Public Health Department.
                                 ______
                                 
                               Alaska Tribal Health Compact
                                                   December 3, 2019
    The Indian Self-Determination and Education Assistance Act, Pub. L. 
93-638, as amended authorizes the Alaska Tribal Health Compact (ATHC or 
the Compact) which represents 229 tribes and their tribal health 
organizations to operate health and health-related programs. The 
Compact is the umbrella agreement that sets forth the terms and 
conditions of the government-to-government relationship between Alaska 
Native tribes and/or tribal organizations, and the United States 
government. We write on behalf of the ATHC, in support of Rear Admiral 
Michael D. Weahkee to be confirmed as permanent Director of the Indian 
Health Service.
    The Indian Health Service (IHS) is obligated to provide healthcare 
services to Alaska Natives and American Indians (AN/AIs) in fulfillment 
of the federal government's trust responsibility, however IHS has 
lacked permanent leadership since 2015. On October 22, 2019, RADM 
Weahkee was formally nominated by President Donald J. Trump to be 
permanent IHS Director. Throughout his career, RADM Weahkee, a citizen 
of the Pueblo of Zuni, has been a commendable advocate for AN/AIs. 
Since assuming the role of Acting IHS Director in June 2017 and 
continuing in his current role as IHS Principal Deputy Director, he has 
worked to address numerous challenges facing the IHS and had made 
concerted efforts to visit the IHS Areas and many rural Alaska Native 
Villages in particular.
    The Alaska Tribal Health Compact Co-Signers supports the 
appointment of RADM Weahkee as permanent Director of the Indian Health 
Service and requests expeditious Senate confirmation of him as 
permanent Director of the Indian Health Service.
        Sincerely,
         Natasha Singh; Diana L. Zirul, Co-Lead Negotiator.
                                 ______
                                 
   American Indian Health & Family Services of SE Michigan-
                                       Detroit Urban Clinic
                                                  November 22, 2019
    The American Indian Health & Family Services of SE Michigan-Detroit 
Urban Clinic strongly supports the nomination of Rear Admiral (RADM) 
Michael D. Weahkee of the Zuni Indian Tribe, and ask that you support 
his confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                         Chasity Dial, CEO.
                                 ______
                                 
                        Bristol Bay Area Health Corporation
                                                  November 26, 2019
    The Bristol Bay Area Health Corporation a consortium of 28 tribes 
in Southwest Alaska strongly supports the nomination of Rear Admiral 
(RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask that you 
support his confirmation as Director of the Indian Health Service (IHS) 
in the United States Department of Health and Human Services (HHS). 
RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years, and in that time 
he has proven that he is capable and dedicated to improving the Agency 
and raising the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five-year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address longstanding and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges that 
native communities face in addressing the various health concerns that 
they are confronted with. Thank you for your strong consideration of 
this endorsement.
        Respectfully,
                             Robert J. Clark, President/CEO
                                 ______
                                 
                                            Cherokee Nation
                                                   November 6, 2019
    Osyio. On behalf of the Cherokee Nation, the largest tribal 
government in the United States with more than 380,000 citizens, I 
strongly endorse Rear Admiral (RADM) Michael D. Weahkee to be the next 
Director of the Indian Health Service (IHS).
    His leadership and commitment to improved health care access for 
American Indians and Alaska Natives is second to none. He has been a 
tremendous asset to Indian Country, serving as both the Principal 
Deputy Director and Acting Director of IHS and deserves the opportunity 
to lead the agency. I believe RADM Weahkee, a citizen of the Zuni 
Indian Tribe, will improve the physical, mental, social and spiritual 
health of tribal citizens across the country.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management from Southern Illinois University-
Carbondale, and both a master of health services administration and 
master of business administration from Arizona State University in 
Tempe, Arizona.
    At Cherokee Nation, we collaborated with RADM Weahkee and IHS on 
the historic joint venture project that recently opened and is now the 
largest health care facility in Indian Country. It is a world-class 
health center, and we are proud to partner with IHS and RADM Weahkee to 
deliver the best possible care to our tribal citizens and to all Native 
people in northeast Oklahoma.
    Without a doubt, he has moved IHS forward in a positive manner, and 
in a short amount of time. To better understand the challenges our 
sovereign governments face in delivering health care, he has traveled 
extensively throughout Indian Country, including many stops in Cherokee 
Nation.
    He would make an exceptional IHS Director and I ask that you 
support his confirmation.
    I am proud to offer my highest recommendation for Rear Admiral 
(RADM) Michael D. Weahkee. If you have any questions or require further 
information, please call me at (918) 323-5411.
        Wado,
                          Chuck Hoskin Jr., Principal Chief
                                 ______
                                 
                                Cheyenne and Arapaho Tribes
                                                  November 13, 2019
    As Governor of the Cheyenne and Arapaho Tribes, I write to offer my 
support for the nomination of RADM Michael D. Weahkee for the Director 
of the Indian Health Service (IHS).
    RADM Weahkee has been serving as the Acting IHS Director for over 
two years and prior to that he served as the chief executive officer at 
the Phoenix Medical Center. A champion of Indian health responsibility, 
RADM Weahkee is an extraordinary choice for the Director of IHS. In 
good times and in bad, RADM Weahkee has always emphasized the utmost 
importance of serving the public and Native American people. After 
being named the Acting Director in 2017, RADM Weahkee led the IHS 
through one of the most difficult crises ever experienced in Indian 
Country. With remarkable courage and integrity, RADM Weahkee's highest 
priority during the long-standing problems in the Great Plains Region 
was to help resolve those issues while at the same time improve the 
recruitment and retention of physicians at our IHS facilities.
    Using all available means, RADM Weahkee's vision and leadership has 
sparked extraordinary hope across Indian Country and has put the IHS on 
the right track to provide quality health care for all Native 
Americans. The IHS has a long history of being grossly underfunded by 
Congress which greatly affects any IHS leadership from being effective. 
With the strategic plan released by the IHS under RADM Weahkee's 
leadership earlier this year, our tribe is confident that this plan 
will improve the delivery of health care across Indian Country. The 
fact that RADM Weahkee values the consistent input from tribes and 
tribal organizations is a key element that shows he is the right person 
to lead the IHS.
    Thank you for your consideration, Mr. Chairman. I am truly blessed 
to know RADM Weakhee. His leadership of the IHS over the past 2 years 
has touched the lives of over 2 million Native Americans and we are all 
better for it.
        Sincerely,
                                  Reggie Wassana, Governor.
                                 ______
                                 
                                       The Chickasaw Nation
                                                  November 26, 2019
    The Chickasaw Nation strongly supports the nomination of Rear 
Admiral Michael D. Weahkee of the Zuni Indian Tribe, and asks that you 
support his confirmation as director of the Indian Health Service (IHS) 
in the United States Department of Health and Human Services (HHS). 
Admiral Weahkee has served as the principal deputy director and acting 
director of the IHS for the past two-and-a-half years, and in that time 
he has proven that he is capable and dedicated to improving the agency 
and raising the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    Admiral Weahkee is a veteran of the United States Air Force, where 
he served as a military public health specialist. He obtained his 
bachelor of science in health care management degree from Southern 
Illinois University-Carbondale, and both a master of health services 
administration and master of business administration degrees from 
Arizona State University in Tempe, Arizona.
    Admiral Weahkee has served in a variety of different roles within 
the Indian health system of care, including in both federal and tribal 
settings. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. He 
has successfully led the IHS forward in a very trying time, overseeing 
the development and implementation of a new five-year strategic plan 
for the agency--the first in over a decade. Admiral Weahkee has pressed 
the IHS forward to address long-standing and unimplemented external 
oversight recommendations from the Government Accountability Office and 
the HHS Office of Inspector General. He established and implemented a 
new Office of Quality at the IHS headquarters level, to ensure 
appropriate management oversight and accountability by the area offices 
and federal service unit hospitals and health centers. In partnership 
with the Administration for Native Americans commissioner, Admiral 
Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian Country.
    Admiral Weahkee has moved the IHS forward in a positive manner, and 
in a relatively short period of time. He has traveled extensively 
throughout Indian Country to see and hear firsthand the challenges and 
issues that Native communities face in addressing the various health 
concerns with which they are confronted.
    We believe Admiral Weahkee will make an excellent director of the 
Indian Health Service, and that he will continue to work for all of 
Indian Country. Your consideration is appreciated.
        Sincerely,
                                  Bill Anoatubby, Governor.
                                 ______
                                 
    Congress of the United States--House of Representatives
    I write to express my support for the nomination of Rear Admiral 
(RADM) Michael D. Weahkee, member of the Pueblo of Zuni, for the 
position of Director of the Indian Health Service in the U.S. 
Department of Health and Human Services (HHS). I respectfully request 
that you support his long-overdue confirmation for the IHS Director 
position.
    Indian Health Service (IHS) is a fundamental health care system for 
Native Americans that provides services to 573 federally recognized 
Tribes in the United States. Since the onset of the Trump 
administration, the IHS Director position has remained without 
leadership, which is extremely concerning since it provides critical 
health care to approximately 2.2 million American Indians and Alaska 
Natives (AI/ANs) who have lower life expectancies and disproportionate 
disease burden because of discrimination in the delivery of health 
services.
    During the past two and a half years, the IHS Director position has 
remained vacant. However, RADM Weahkee has exhibited and continues to 
exhibit leadership, professional qualifications, and understanding of a 
complex healthcare system as the intermediate Principal Deputy Director 
and Acting Director of the II-IS. RADM has thoroughly shown his ability 
to lead this department on behalf of Indian Country during this 
elongated amount of time and further lead IHS in this capacity to 
ensure that healthcare standards are upheld for AI/ANs.
    Acting Director Weahkee's current position, and his past experience 
and oversight of healthcare programs in Indian Country, makes him an 
easy choice. His skills and institutional knowledge further add to 
support his selection as the IHS Director. It is also important to note 
that he is widely respected amongst tribal leaders and health 
professionals due to his diligence in improving the lives of AI/ANs, 
strong leadership, and development of IHS.
    I thank you for your consideration of this endorsement and strongly 
urge you to act on behalf of the approximately 2.2 million American 
Indians and Alaska Natives who have gone without leadership in this 
agency for too long. I would greatly appreciate your support of his 
confirmation to ensure Congress upholds its trust responsibility to 
provide health care services to federally enrolled tribal members who 
deserve a Director at IHS.
        Sincerely,
                            Deb Haaland, Member of Congress
                                 ______
                                 
                                           December 6, 2019
    I strongly support the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe, and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS), RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale. and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters; at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS lntradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    I personally know RADM Weahkee's abilities as I supervised him 
directly in his capacity as the Chief Medical Officer of the Phoenix 
Indian Medical Center (PIMC), often referred to as the ``Flagship of 
the Indian Health Service'', During his time at PIMC, RADM Weahkee, 
reopened the Pediatric Outpatient Clinic, which had been closed under a 
previous administration. Additionally, he revitalized and expanded 
Obstetric services to better serve the pregnant American Indian women; 
a service deeply valued by the surrounding Tribal communities. What 
better focus can a leader have but to ensure a healthier American 
Indian children's population? Additionally, RADM Weahkee, worked 
closely with me to establish a more focused Hospital Governing Board, 
focusing on and improving the quality of care direction, continually 
surveying to Medicare Quality Standards, PIMC passed its most recent 
quality of care survey conducted by The Joint Commission, RADM Weahkee 
was a pleasure to work with and has devoted his entire health career to 
preparing and serving the American Indian population.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
    Respectfully,
                     Dorothy A Dupree, Former Area Director
                                 ______
                                 
            Johns Hopkins Center for American Indian Health
                                                  November 20, 2019
    I am writing to offer my strong support for the nomination of Rear 
Admiral (RADM) Michael D. Weahkee, MBA, MHSA of the Zuni Indian Tribe, 
asking that you support this confirmation as Director of the Indian 
Health Service (IHS) of the U.S. Department of Health and Human 
Services (HHS). RADM Weahkee has served as Principal Deputy Director 
and Acting Director of the IHS for the past two and a half years, 
during which time he has proven highly capable and dedicated to 
improving the Agency and raising the physical, mental, social, and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee's deep familiarity with IHS, experience at the tribal 
level, and continued responsiveness to local issues show that he will 
serve as a reliable and committed leader for IHS. Born in the Shiprock 
Public Health Service Hospital on the Navajo Nation, RADM Weahkee was a 
direct service user of IHS who went on to earn an MBA and serve as CEO 
of Phoenix Indian Medical Center (PIMC), the Agency's largest federally 
operated facility. With an annual operating budget of $156 million 
during his tenure, PIMC was and remains an extensive, multifaceted, 
community-oriented health care delivery system serving as a referral 
center for seven other IHS hospitals and five health centers in the 
Phoenix Area.
    This management experience guided RADM Weahkee as he stepped into a 
variety of roles at IHS headquarters including Executive Officer for 
the Office of Clinical and Preventive Services, Director of the 
Management Policy and Internal Control Staff office, and Deputy 
Director for Personnel Functions in the Office of Management Services. 
He encouraged the Agency to address longstanding external oversight 
recommendations from the Government Accountability Office and the HHS 
Office of Inspector General, and he oversaw the development and 
implementation of a new five-year strategic plan for the Agency, the 
first in over a decade.
    His many accomplishments and steady management experience to date 
show that he will continue to serve as a reliable and expert leader for 
the Agency.
        Sincerely,
                       Allison Barlow, Ph.D, MPH, Director.
                                 ______
                                 
                                                  GlobalPOV
                                                   December 3, 2019
    GlobalPOV strongly supports the nomination of Rear Admiral (RADM) 
Michael D. Weahkee of the Zuni Indian Tribe, and ask that you support 
his confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and has proven that he is 
capable and dedicated to improving the Agency and raising the physical, 
mental, social and spiritual health of American Indians and Alaska 
Natives to the highest level.
    RADM Weahkee is a visionary and compassionate leader, with deep 
understanding of the complexities of health services administration 
tailored to diverse native communities.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new strategic 
plan for the Agency, the first in over a decade. He has pressed the 
Agency forward to address long-standing and unimplemented external 
oversight recommendations from the Government Accountability Office and 
the HHS Office of Inspector General. He established and implemented a 
new Office of Quality at the IHS Headquarters level, to ensure 
appropriate management oversight and accountability by the Area Offices 
and federal service unit hospitals and health centers. In partnership 
with the Administration for Native Americans Commissioner, RADM Weahkee 
revitalized the HHS Intradepartmental Council on Native American 
Affairs, to provide a forum internally at HHS to discuss the needs and 
interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. IHS, and the Nation, would be 
well served by his confirmation. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                        Cynthia K. Hansen, Ph.D.,President.
                                 ______
                                 
                                           Friendship House
                                                      Nov. 18, 2019
    I am writing to you today to strongly support the nomination of 
RADM Michael D. Weahkee of the Zuni Indian Tribe, and ask that you 
support his confirmation as Director of the Indian Health Service (IHS) 
in the United States Department of Health and Human Service (HHS).
    RADM Weahkee has served honorably as the Principal Deputy Director 
and Acting Director of IHS for the past two and a half years. During 
that period, he has proven that he is capable and dedicated to 
improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    As a veteran of the United States Air Force, RADM Weahkee served as 
a military public health specialist. His Bachelor of Science degree in 
Health Care Management from Southern Illinois University-Carbondale 
preceded his earning Master's degrees in both Health Services 
Administration and Business Administration from Arizona State 
University, Tempe, Arizona.
    RADM Weahkee's impressive span of experience and expertise includes 
his service in a variety of different roles within the Indian Health 
Service (IHS) system of care, in both federal and tribal settings. He 
has served in the field at the service unit and regional office level, 
as well as at IHS headquarters at the national level.
    To his great credit, RADM Weahkee has successfully led the Agency 
forward in a very trying time, including developing and implementing a 
new 5-year strategic plan for the Agency, the first in over a decade. 
Under his leadership, the Agency is successfully addressing long 
standing external oversight recommendations from the Government 
Accountability Office and the HHS Office of Inspector General.
    He is to be commended for establishing and implementing a new 
Office of Quality at the IHS Headquarters level to assure appropriate 
management oversight and accountability by the Area Offices and federal 
service unit hospitals and health centers. In partnership with the 
Administration for Native Americans Commissioner, RADM Weahkee 
revitalized the HHS Intradepartmental Council on Native 
AmericancAffairs which provides a forum at HHS to discuss the needs and 
interests of Indian country.
    RADM Weahkee has earned or strong support because he has been 
successful in moving the Agenda significantly forward in a positive 
manner and relatively short amount of time. His travel throughout 
Indian country to see and hear firsthand the challenges and issues that 
our communities face in addressing their serious health concerns had 
earned RADM Weahkee the trust and respect of urban, rural and tribal 
communities.
    RADM Weahkee has earned our strong support because he has been 
successful in moving IHS significantly forward in a positive manner and 
in a relatively short amount of time. His travel throughout Indian 
country to see and hear firsthand the challenges and issues that our 
Indian communities face in addressing their various health concerns has 
earned RADM Weahkee the trust and respect of our urban, rural and 
tribal American Indian communities.
    In short, RADM Weahkee is a man of integrity and extensive 
expertise and experience, and as such the kind of leader that we need 
in this position. I write to you as an American Indian woman (Navajo 
born and bred on the reservation, and urban area resident since 1963), 
founder and CEO of Friendship House Assoc. of American Indians, Inc., a 
residential substance abuse prevention, treatment and recovery facility 
with a proud 50 plus year record of success in serving American Indians 
of all tribes.
    Thank you for your consideration of this strong endorsement of RADM 
Weahkee for Director of Indian Health Service (IHS) of HHS.
        Respectfully,
                   Helen Waukazoo, Chief Executive Officer.
                                 ______
                                 
                                                   December 6, 2019
    I write today in support of RADM Michael Weahkee's nomination for 
the position of Director-Indian Health Service.
    I have known Mr. Weahkee professionally for many years and have the 
highest regard for his work ethic, team approach and his administrative 
capability. His commitment to a better quality of life for Native 
communities via an improved health care system is unflagging. He has 
begun building an IHS headquarters team that is equally committed to 
the goal of providing the best system of health care, despite the many 
serious challenges that IHS faces. A political appointee is absolutely 
necessary to have in place since many important budget and policy 
decisions are made at the Secretarial level at HHS and needs the input 
from the political Directorship.
    I spent 25 years at IHS headquarters as both a senior policy 
analyst and External Relations director and can tell you first hand 
that input from the Directorship at the HHS Secretarial level is 
critical to ensuring that all of HHS and its agencies understand that 
federal government health care is a responsibility of all of HHS.
    Please do not hesitate to contact me if I can provide more 
testament on behalf of Mr. Weahkee.
    Leo J. Nolan
                                 ______
                                 
                    The Inter Tribal Association of Arizona
                                                   November 1, 2019
    The Inter Tribal Association of Arizona, (ITAA), strongly supports 
the nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni 
Indian Tribe, and ask that you support his confirmation as Director of 
the Indian Health Service (IHS) in the United States Department of 
Health and Human Services (HHS). RADM Weahkee has served as the 
Principal Deputy Director and Acting Director of the IHS for the past 
two and a half years, and in that time he has proven that he is capable 
and dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriated management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native American Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internalyl at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                     Shan Lewis, President.
                                 ______
                                 
                Indian Health Care Resource Center of Tulsa
                                                   November 4, 2019
    Indian Health Care Resource Center of Tulsa strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                    Carmelita Skeeter, CEO.
                                 ______
                                 
                             American Academy of Pediatrics
                                                  December 10, 2019
    On behalf of the American Academy of Pediatrics (AAP), a non-profit 
professional organization representing over 67,000 pediatricians and 
many pediatricians caring for American Indian and Alaska Native (AI/AN) 
children, I am writing to offer principles to consider as you begin the 
process of confirming a U.S. Indian Health Service (IHS) Director.
    IHS directly provides and administers, in partnership with Tribes, 
critical child health services. This care is vital given the 
significant health disparities the AI/AN population faces. The impact 
of historical trauma continues to manifest in the lives of AI/AN women 
and children in the form of poor health outcomes and exposure to 
ongoing trauma such as domestic violence and child maltreatment. The 
preterm birth rate among Native women is 25 percent higher than the 
rate among non-Hispanic white women, \1\ and the rate of AI/AN infant 
mortality is nearly double the rate among non-Hispanic white infants. 
\2\ Native children face higher risks for suicide, unintentional 
injuries, and a variety of chronic conditions like Type 2 diabetes, 
compared to all U.S. races.
---------------------------------------------------------------------------
    \1\ March of Dimes Foundation. 2019 Premature Birth Report Card. 
November 2019. Retrieved from https://www.marchofdimes.org/materials/
US_REPORTCARD_FINAL.pdf.
    \2\ U.S. Centers for Disease Control and Prevention. Infant 
Mortality. March 2019. Retrieved from: https://www.cdc.gov/
reproductivehealth/maternalinfanthealth/infantmortality.htm#rates
---------------------------------------------------------------------------
    These serious disparities are not the result of lifestyle choices, 
but are associated with the social conditions in which Native families 
live. Approximately one third of Native families live below the poverty 
line, the highest percentage of any group and twice that of the general 
population. \3\ Improved access to quality health coverage is essential 
to successfully addressing these disparities. An effective IHS director 
with management experience providing direct care to this patient 
population is needed to ensure that AI/AN children receive the quality 
health services they need. The following are key principles we believe 
are essential for the next IHS Director.
---------------------------------------------------------------------------
    \3\ Health care for urban American Indian and Alaska Native women. 
Committee Opinion No. 515. American College of Obstetricians and 
Gynecologists. Obstet Gynecol 2012;119:201-5.
---------------------------------------------------------------------------
Prioritizing Child Health
    Nearly one-third of the AI/AN population is under the age of 18, 
compared to 24 percent of the total U.S. population. \4\ This means 
that high-quality child health care is foundational to the success of 
IHS. The next IHS director should demonstrate a commitment to guiding 
the agency in a way that honors the importance of providing safe, 
effective, timely, and culturally appropriate child health services.
---------------------------------------------------------------------------
    \4\ National Congress of American Indians. Indian Country 
Demographics. Retrieved from: http://www.ncai.org/about-tribes/
demographics
---------------------------------------------------------------------------
Continuing Expansion of IHS Emphasis on Behavioral Health Services
    We know that Native children and families face substantial health 
disparities, many of which are rooted in social determinants of health 
that stem from the historical trauma Native communities have faced 
throughout our history. Poverty, alcoholism, substance use disorder 
(SUD), chronic illness, mental health disorders, child abuse, and other 
poor health and social conditions are the symptoms of these underlying 
health crises in Native communities, not the cause of them. In 
recognition of these issues, IHS has initiated efforts to better 
address behavioral health needs, through programs such as the Zero 
Suicide Initiative. The provision of effective and culturally 
appropriate behavioral health services has been vital to addressing 
these disparities and their harmful sequelae. It is also important to 
expand access to behavioral health professionals with the appropriate 
training to serve pediatric populations. The next IHS Director should 
continue expanding the availability and quality of behavioral health 
services to meet AI/AN children's health needs, including through more 
effective use of appropriate telehealth services.
Addressing the Impact of NAS and Other Perinatal Substance Disorders
    The ongoing impact of the opioid epidemic on women and children's 
health is enormous. It is particularly acute in the AI/AN population, 
which faces high SUD rates and experiences significant numbers of 
births with neonatal abstinence syndrome (NAS). IHS has demonstrated a 
commitment to addressing this complex issue, and it is critically 
important that the next IHS Director expand that effort and work 
closely with Tribes, states, communities, and other stakeholders to 
appropriately address this complex and serious issue with a treatment-
focused and trauma-informed public health approach that prioritizes 
family-centric care.
Improving Health Provider Recruitment and Retention to Meet Need
    Effective recruitment and retention programming is central to 
ensuring IHS has the workforce necessary to meet the health needs of 
AI/AN children. There are many providers throughout the IHS system 
providing quality child health care services that improve the wellbeing 
of their communities, and we need to continue to build and expand that 
workforce. The challenges of the remote nature of many IHS sites, 
housing shortages, provider burnout and vicarious trauma, and limited 
amenities can make recruiting and retaining quality maternal-child 
health providers difficult. The next IHS director should focus on 
improving recruitment and retention efforts to ensure that IHS has the 
child health workforce needed to meet the needs of the communities they 
serve.
Conclusion
    The next IHS Director will fill a critical role and oversee 
important health service delivery and public health programs 
benefitting AI/AN children and families. As you work to confirm an IHS 
Director, we urge you to ensure that they have the qualifications, 
expertise, and experience to uphold these key principles as well as a 
commitment to partnering with tribes and communities to improve the 
crucial health services offered by IHS. We look forward to working with 
you during this important process.
        Sincerely,
                       Kyle E. Yasuda, MD, FAAP, President.
                                 ______
                                 
                       California Rural Indian Health Board
    November 25, 2019
    It was my honor to serve as the Executive Director of the 
California Rural Indian Health Board Inc., (CRIBB), a tribally 
sanctioned Indian Self Determination Act contractor, providing training 
and technical support to tribally operated health programs in 
California from January 1987 to December 2013. I am a member of the 
Cherokee Nation enrolled since 1976 and a graduate of the University of 
California Berkeley School of Public Health class of 1982.
    In my capacity as Executive Director of CRIHB I recruited, hired, 
oriented and directly supervised Michael Weahkee where he served as the 
Director Family and Community Health from May of 2001 until he was took 
on a new assignment at the Phoenix Indian Medical Center January of 
2008. As a member of the Commission Corp then Lieutenant Weahkee's 
assignment to CRIHB was facilitated by the California Area Office of 
the Indian Health Service. In January of 2003 in recognition of his 
administrative competence and numerous contributions to the effective 
implementation of our organizational goals he was designated Deputy 
Director of CRIHB. In that capacity we worked closely together to 
improve CRIHB organizational infrastructure, increase the number of 
state and federal grant awards and to respond to the needs of Tribal 
Health Programs and the communities they serve. I believe that this 
frontline experience working for a tribal contractor under the 
authorities of the Indian Self Determination Act expanded RADM 
Weahkee's understanding of both the limits and opportunities available 
to that portion of the IHS program that operates under contracts and 
compacts and that this experience continues to inform his 
decisionmaking to this day. I know RADM Weahkee to be a person of the 
highest character, a strong and thoughtful leader, a good team member 
and an experienced administrator.
    In closing I would like to express my fullest support for the 
nomination of RADM Michael D. Weahkee to serve as Director of the 
Indian Health Service and hope that you will confirm him to that 
position.
            James Allen Crouch MPH, Retired Senior Advisor.
                                 ______
                                 
                            Creative Health Care Management
                                                   November 4, 2019
    Please consider my strong support for the nomination of Rear 
Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe for 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS).
    RADM Weahkee has served as Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years. Prior to that he 
served as CEO of the Phoenix Indian Medical Center (PIMC) for three and 
a half years. It is in that capacity that I observed his extraordinary 
leadership skills as PIMC successfully engaged every staff member, 
manager, executive, and provider in a cultural transformation process 
designed to heal the organizational culture of PIMC while meeting all 
of their strategic objectives. His active involvement in leading and 
managing this process earned him the respect, admiration, and gratitude 
of staff members, leaders, and providers throughout this organization.
    I have been impressed with his strategic thinking, vision, and 
commitment to the IHS mission, and I have learned that this man has 
great integrity, compassion, humility, and sense of duty. As co-author 
of a chapter in a multi-award-winning book called Advancing 
Relationship Based Cultures, I had the privilege of interviewing RADM 
Weahkee and seven other distinguished executives whose leadership 
acumen had caught our attention. We learned that all of these leaders 
prized authenticity, vulnerability, and humility in other leaders and 
aspired to demonstrate these same qualities in their own leadership. 
Each had been mentored formally or informally by loving leaders. RADM 
Weahkee's comments poignantly provide a glimpse into who he is as a man 
and a leader:

         The risk of not developing the next generation is that you 
        have undeveloped resources, and you'll have to take on more 
        yourself. When I develop others, eventually they will get to 
        the point where they can develop the next generation. They'll 
        have the knowledge, education, and modeling of how to continue. 
        It won't stop with me. I feel like I have a personal 
        responsibility to pass it on ... to take what has been given to 
        me and share it with others and support others. I have the 
        capacity to teach more than one as many as are willing.

    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his Bachelor 
of Science in Healthcare Management from Southern Illinois University 
at Carbondale, and both his Master of Health Services Administration 
degree and MBA from the Arizona State University in Tempe, Arizona.
    RADM Weahkee has moved the IHS forward in a short period of time. 
He has traveled extensively throughout Indian country to see and hear 
firsthand the challenges and issues that Native communities face in 
addressing the health concerns that confront them.
    RADM Weahkee's education, military service, IHS leadership 
experience, and personal integrity make him the right person to be the 
National Director of the Indian Health Service. In RADM Weahkee, you 
have someone who is not only the right person to lead right now; he is 
also the right person to mentor and prepare the next generation of IHS 
leaders.
    It has been a highlight of my long career and one of the greatest 
honors of my life to work alongside this extraordinary man. Please 
consider endorsing RADM Weahkee for this vital role.
        Respectfully,
      Jay A Felgen, RN, MPA, Former CEO/President Emeritus.
                                 ______
                                 
                            Jeannie Hovland, Alexandria, VA
                                                   December 9, 2019
    It is with great enthusiasm that I write in support of President 
Trump's nomination of Rear Admiral Michael Weahkee for the position of 
the Director of the Indian Health Service (IHS).
    My first opportunity to work with RADM Weahkee was in 2016 when he 
was detailed to the Rosebud IHS facility located in Rosebud, South 
Dakota. During that time, I worked for Senator John Thune. I was 
impressed by RADM Weahkee's professionalism and kind approach towards 
tribal leaders, congressional staff, and IHS employees. He showed 
respect as he listened and displayed strong leadership by responding 
with workable ideas and solutions.
    In June 2017, RADM Weahkee was promoted to Principal Deputy 
Director of IHS and I continued to work with him in that capacity. He 
participated in regular briefings with tribal leaders and congressional 
staff from South Dakota and the Senate Committee on Indian Affairs. 
Under stressful situations he seized ownership and maintained a 
professional and respectful demeanor welcoming feedback and 
recommendations.
    In my current position as Commissioner of the Administration for 
Native Americans, I have been able to work more closely with RADM 
Weahkee. I have witnessed first-hand the respect and appreciation many 
tribal leaders have expressed for his leadership at IHS. Currently, I 
chair the Department of Health and Human Service's Intradepartmental 
Council on Native American Affairs (ICNAA) and RADM Weahkee serves as 
the Vice Chairman. He has been a remarkable partner in revamping the 
ICNAA and his leadership is appreciated and relied upon across HHS. The 
confirmation of RADM Weahkee would be a huge benefit to IHS and the 
people they serve.
    Thank you for your consideration of my support.
        Kind regards,
                                           Jeannie Hovland.
                                 ______
                                 
                                           John J. Dimaggio
                                                   October 31, 2019
    Please allow me to offer my highest recommendation of Rear Admiral 
(RADM) Michael D. Weahkee of the Zuni Indian Tribe to be confirmed as 
Director of the Indian Health Service (IHS) in the United States 
Department of Health and Human Services (HHS). RADM Weahkee has served 
as the Principal Deputy Director and Acting Director of the IHS for the 
past two and a half years, and in that time he has proven that he is 
capable and dedicated to improving the Agency and raising the physical, 
mental, social and spiritual health of American Indians and Alaska 
Natives to the highest level.
    As the Chairman of AMSUS Sustaining-Members (Industry), as a 
Trustee with the USPHS Commissioned Officers Foundation, as an advisor 
to the Nurses Organization of Veterans Affairs, and as .an Assistant 
Director of Federal National Accounts with US WorldMeds, I seek to 
develop and support ethical public/private partnerships which promote 
and advance our Nation's Public Health. RADM Weahkee has done, and will 
continue to do, a brilliant job of leading & fostering better health 
through better partnerships for IHS, and the Sovereign Tribal Nations, 
by providing optimal care for American Indian & Alaskan Native 
Patients, and optimal systemic value for IHS.
    Please support RADM Michael Weahkee's confirmation as Director of 
IHS. I deeply appreciate your, and your fellow Committee Members', 
service to our Country, and your tireless efforts to provide the best 
possible health and well-being for American Indian and Alaskan Native 
Patients.
        Warm Regards,
                                          John J. DiMaggio,
                    Trustee, USPHS Commissioned Officers Foundation
                      Chairman, AMSUS Sustaining-Members (Industry)
        Assistant Director, Federal National Accounts, US WorldMeds
        Advisory Committee, Nurses Organization of Veterans Affairs
                                 ______
                                 
    Kashia Band of Pomo Indians of Stewarts Point Rancheria
                                                  November 13, 2019
    The, Kashia Band of Pomo Indians of Stewarts Point Rancheria, 
``Tribe'', strongly supports the nomination of Rear Admiral (RADM) 
Michael D. Weahkee of the Zuni Indian Tribe, and ask that you support 
his confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                        Dino Franklin Jr., Tribal Chairman.
                                 ______
                                 
                                                 Kaw Nation
                                                  November 19, 2019
    The Kaw Nation strongly supports the nomination of Rear Admiral 
(RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask that you 
support his confirmation as Director of the Indian Health Service (IHS) 
in the United States Department of Health and Human Services (HHS). 
RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years, and in that time 
he has proven that he is capable and dedicated to improving the Agency 
and raising the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                 Lynn Williams, Chairwoman.
                                 ______
                                 
                                 RADM (ret.) Kevin D. Meeks
                                                   December 1, 2019
    I am writing to express my strong support of the nomination of Rear 
Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask 
that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit/tribal, and 
regional office level, as well as at IHS headquarters at the national 
level. I trust you are familiar with his official service record and 
many of his accomplishments. I would like to focus this letter on my 
personal observations of RADM Weahkee.
    I first met RADM Weahkee in 2010 when he was working in the Office 
of Management Services at IHS Headquarters. We worked on a number of 
Agency specific Commissioned Corps issues together. We did not work 
closely together again until April, 2016, when I contacted then CAPT 
Weahkee, who was then serving as the Chief Executive Officer of the 
Phoenix Indian Medical Center, on behalf of the Agency to inform him 
that we needed him to lead a team of experts to oversee and lead the 
IHS Rosebud Service Unit (RST). RST was undergoing significant 
hardships at the time directly related to the provision of quality 
health care, recruitment, retention, accreditation, certification, and 
more. CAPT Weahkee readily agreed to fulfill this critical and 
important request. He worked at RST from May-October, 2016 and 
significantly improved the operation and moral in the Service Unit. 
Even after he returned to his duty station, he continued to provide 
assistance to the new RST leadership.
    When he returned to his position as the Chief Executive Officer of 
the Phoenix Area Medical Center (PIMC), I watched RADM Weahkee from 
afar as he focused his staff's efforts on improving the quality of and 
access to needed health care services. He led PIMC in several new 
initiatives including Patient Centered Medical Homes, Improving Patient 
Care, and developing various centers of excellence targeting major 
health issues such as Hepatis C, HIV/AIDS, and others.
    After RADM Weahkee was reassigned to IHS Headquarters as the 
Principal Deputy Director, and acting IHS Director, he became my 
supervisor. As the former Deputy Director for Field Operations, I 
oversaw the twelve IHS Area Directors and the Office of Environmental 
Health and Engineering. In this role, I was in daily contact with RADM 
Weahkee and got to know him extremely well.
    I have found RADM Weahkee to be extremely dedicated and committed 
to improving the health of American Indian/Alaska Natives. He is 
honest, sincere, and compassionate. He is a man of integrity, a proven 
leader, one who leads by example. I do not believe that you can find a 
better candidate for the position of IHS Director.
    As you know, RADM Weahkee has successfully led the Agency forward 
in a very trying time, overseeing the development and implementation of 
a new five year strategic plan for the Agency, the first in over a 
decade. He has pressed the Agency forward to address long-standing and 
unimplemented, external oversight recommendations from the Government 
Accountability Office and the HHS Office of Inspector General. He 
established and implemented a new Office of Quality at the IHS 
Headquarters level, to ensure appropriate management oversight and 
accountability by the Area Offices and federal service unit hospitals 
and health centers. In partnership with the Administration for Native 
Americans Commissioner, RADM Weahkee revitalized the HHS 
Intradepartmental Council on Native American Affairs, to provide a 
forum internally at HHS to discuss the needs and interests of Indian 
country.
    You may hear reports of IHS shortcomings from various individuals 
and entities in the next few weeks, but if you listen to them closely, 
almost all of their concerns are related to issues that occurred many 
years in the past and very little if any of their criticism is based on 
current events.
    There is no doubt that the Agency still has many issues to work on, 
but RADM Weahkee has moved the Agency forward in a positive manner in a 
relatively short amount of time. He has traveled extensively throughout 
Indian country to see and hear firsthand the challenges and issues that 
native communities face in addressing the various health concerns that 
they are confronted with. He is a strong advocate for Indian 
healthcare, whether that care is delivered by the tribes, IHS, or Urban 
programs. Thank you for your strong consideration of my endorsement of 
RADM Michael Weahkee and I urge you and your Senate colleagues to 
confirm him as the next Director of the Indian Health Service as 
quickly as possible.
        Respectfully,
                                 RADM (ret.) Kevin D. Meeks
                                 ______
                                 
                             Kewa Pueblo Health Corporation
                                                   December 6, 2019
    The Kewa Pueblo Health Corporation (KPHC), a Public Law 93-638 
Title I program serving the Pueblo of Santo Domingo strongly supports 
the nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni 
Indian Tribe, and ask that you support his confirmation as Director of 
the Indian Health Service (IHS) in the United States Department of 
Health and Human Services (HHS). RADM Weahkee has served as the 
Principal Deputy Director and Acting Director of the IHS for the past 
two and a half years, and in that time he has proven that he is capable 
and dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    Given that RADM Weahkee has moved the Agency forward in a positive 
manner and in a relatively short amount of time, the Health Board and 
Governing Body of KPHC easily passed Resolution #2019-10 on December 2, 
2019 supporting his confirmation (enclosure). * Consequently, given his 
commitment to the stewardship of Indian Health across the nation, we 
strongly urge the Senate Committee on Indian Affairs to endorse his 
confirmation as the Director of the Indian Health Service, with all due 
speed and enthusiasm, to the entire Senate of the United States of 
America.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
        Respectfully,
                            Alan K.. Barlow, MS, MSHR, CEO.
                                 ______
                                 
                        Little River Band of Ottawa Indians
                                                   December 4, 2019
    The Little River Band of Ottawa Indians strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                             Larry Romanelli, Tribal Ogema.
                                 ______
                                 
                                     Major Larry Mahana, RN
                                                   December 3, 2019
    I strongly support the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe, and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                     Major Larry Mahana, RN
                                         Emergency Services Officer
                                             AZWG-Civil Air Patrol.
                                 ______
                                 
                                Mathuram Santosham, MD, MPH
                                                  November 20, 2019
    I strongly support the nomination of Rear Admiral (RADM) Michael D. 
Weahkee, MBA, MHSA of the Zuni Indian Tribe, and ask that you support 
his confirmation as Director of the Indian Health Service (IHS) of the 
U.S. Department of Health and Human Services (HHS). RADM Weahkee has 
served as Principal Deputy Director and Acting Director of the IHS for 
the past two and a half years, and in this time he has proven highly 
capable and dedicated to improving the Agency and raising the physical, 
mental, social, and spiritual health of American Indians and Alaska 
Natives to the highest level.
    RADM Weahkee draws from his experience as a veteran of the United 
States Air Force, where he served as a military public health 
specialist. His training in health care management from Southern 
Illinois University-Carbondale and health services from Arizona State 
University in Tempe has equipped him well to oversee a complex Agency 
dedicated to service excellence.
    RADM Weahkee's work within the Indian Health system, in both 
federal and tribal settings, demonstrates a deep understanding of the 
Agency and steady management experience. He has served in the field at 
the service unit and regional office level and at IHS headquarters at 
the national level. I admire the way RADM Weahkee has successfully led 
the Agency forward, overseeing the development and implementation of a 
new five-year strategic plan for the Agency. He has pressed the Agency 
forward to address long-standing and unimplemented, external oversight 
recommendations from the Government Accountability Office and the HHS 
Office of Inspector General. He established and implemented a new 
Office of Quality at the IHS Headquarters level, to ensure appropriate 
management oversight and accountability by the Area Offices and federal 
service unit hospitals and health centers. In partnership with the 
Administration for Native Americans Commissioner, RADM Weahkee 
revitalized the HHS Intradepartmental Council on Native American 
Affairs, to provide a forum internally at HHS to discuss the needs and 
interests of Indian country. Recently under his oversight the Agency 
updated guidance to better deliver trauma-informed healthcare.
    I appreciate that he has also traveled extensively throughout 
Indian country to see and hear firsthand the challenges and issues that 
Native communities face in addressing the various health concerns. His 
commitment to quality healthcare is unwavering and he takes this 
responsibility seriously.
    Thank you for your strong consideration of this endorsement.
        Respectfully,
                                Mathuram Santosham, MD, MPH
 Director Emeritus, Johns Hopkins Center for American Indian Health
Professor, International Health, Johns Hopkins Bloomberg School of 
                                                      Public Health
                                 ______
                                 
                                                 MDProvider
                                                   December 9, 2019
    I strongly support the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe, and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    Let us reiterate that in a relatively short amount of time, RADM 
Weahkee has successfully led the Agency with salient skill sets and 
moved it forward into the future. He has traveled extensively 
throughout Indian country, to visit and listen firsthand, the 
challenges and issues that native communities face in addressing the 
risk agents and various health burdens Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                        Babak Michael Nayeri, President/CEO
              BGEN Xavier Stewart, Executive Vice President
                                 ______
                                 
                          Mille Lacs Band of Ojibwe Indians
                                                   November 4, 2019
    As Chief Executive of the Mille Lacs Band of Ojibwe Indians, I am 
writing in strong supports the nomination of Rear Admiral (RADM) 
Michael D. Weahkee of the Zuni Indian Tribe, and ask that you support 
his confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee is an outstanding candidate and the Mille Lacs Band 
respectfully requests that his nomination be expedited through the 
confirmation process.
    Over his two and a half years serving as the Principal Deputy 
Director and Acting Director of the IHS, RADM Weahkee has proven his 
competency and commitment to supporting Indian tribes in our battles to 
restore the physical, mental, social and spiritual health of American 
Indian people. He has a depth of experience serving in a variety of 
positions within the Indian Health care system, and most important, he 
has on-the-ground experience working in Indian country for reservation-
based health care systems.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                          Melanie Benjamin, Chief Executive
                                 ______
                                 
                        Mississippi Band of Choctaw Indians
                                                  November 26, 2019
    The Mississippi Band of Choctaw Indians strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Yakoki,
                                   Cyrus Ben, Tribal Chief.
                                 ______
                                 
                              Fort Belknap Indian Community
                                                   December 9, 2019
    The Fort Belknap Indian Community strongly supports the nomination 
of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
ask that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                               Andrew Werk, Jr., President.
                                 ______
                                 
                                    Muscogee (Creek) Nation
                                                   October 27, 2019
    The Muscogee (Creek) Nation strongly supports the nomination of 
Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
ask that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                           James R. Floyd, Principal Chief.
                                 ______
                                 
         Native American Rehabilitation Association of the 
                                            Northwest, Inc.
                                                   December 3, 2019
    The Native American Rehabilitation Association of the Northwest an 
Urban Indian Health Program strongly supports the nomination of Rear 
Admiral (RADM) Michael D. Weahkee of the Zuni Tribe, and ask that you 
support his confirmation as permanent Director of the Indian Health en 
ice (IHS) in the United States Department of Health and Human Services 
(HHS). RADM Weahkee has served as the Principal Deputy Director and 
Acting Director of the IHS for the past two and a half years, and in 
that time, he has proven that he is capable and dedicated to the 
American Indian and Alaska Nation patients IHS serves, and also to 
improving the Agency to the highest level in partnership with 
stakeholders.
    This nomination is a continuation of service to the United States 
for RADM Weahkee. He previously served the United States in the Air 
Force (1993-96) as a military public health specialist. RADM Weahkee 
has also served the United States and his Indigenous community in a 
variety of different roles within the Indian Health system of care, 
including in both the federal (1999-01 & 2007-Present) and tribal 
(2001-07) setting and the role of Director of IHS is a natural 
progression for such a recognized leader. RADM Weahkee obtained his 
bachelor of science in health care management degree from Southern 
Illinois University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    Drawing on his long term and specific understanding of IHS 
operations, RADM Weahkee has pressed the Agency forward to address 
long-standing and unimplemented external oversight recommendations from 
the Government Accountability Office and the HHS Office of Inspector 
General. RADM Weahkee has served in the field at the service unit and 
regional office level, as well as at IHS headquarters at the national 
level. He has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new fiscal-
year strategic plan with a focus on agency goals (1) To ensure that 
comprehensive, culturally appropriate personal and public health 
services are available and accessible to American Indian and Alaska 
Native people; (2) To promote excellence and quality through innovation 
of the Indian health system into an optimally performing organization; 
and (3) To strengthen IHS program management and operations.
    RADM Weahkee has moved the Agency forward in a positive manner in 
his tenure as the Principal Deputy Director of IHS. He has visited our 
facilities to see and hear firsthand the challenges and issues that our 
community faces and to meet our patients in person. He is committed to 
continue his diligent work to provide high quality health care services 
for American Indians and Alaskan Natives. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                    Jacqueline Mercer, CEO.
                                 ______
                                 
                              Native American Health Center
                                                   December 2, 2019
    The Native American Health Center, (a non-profit, Urban Indian 
community clinic serving14,000 patients annually with 17 sites, 300 
employees and a $35M operating budget in the SanFrancisco Bay Area) 
strongly supports the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe, and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Sincerely,
                                      Martin Waukazoo, CEO.
                                 ______
                                 
                                  Native American LifeLines
                                                   December 4, 2019
    Native American LifeLines, a Title V Urban Indian Health Program 
serving Baltimore (MD) and Boston (MA), strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level, never forgetting that the over 70 percent of tribal 
citizens residing in urban settings are an important constituency.
    RADM Weahkee's qualifications are impressive. While in the United 
States Air Force, he served as a military public health specialist. 
Later, he obtained his Bachelor of Science in Health Care Management 
from Southern Illinois University-Carbondale, and both a Master of 
Health Services Administration and Master of Business Administration 
from Arizona State University.
    With regard to his service within the Indian Health system of care, 
RADM Weahkee has served in a number of capacities in both federal and 
tribal settings, as well as field, service unit, and regional office 
levels, and of course at IHS Headquarters. It is important to note his 
successful leadership in a particularly trying time for the IHS. 
Specifically, RADM Weahkee oversaw the development and implementation 
of a new five-year strategic plan for the Agency, the first in over a 
decade. He has pressed the Agency forward to address long-standing and 
unimplemented, external oversight recommendations from the Government 
Accountability Office and the HHS Office of Inspector General. He 
established and implemented a new Office of Quality at the IHS 
Headquarters level, to ensure appropriate management oversight and 
accountability by the Area Offices and federal service unit hospitals 
and health centers. Finally, in partnership with the Commissioner of 
Administration for Native Americans, RADM Weahkee revitalized the HHS 
Intradepartmental Council on Native American Affairs to provide a forum 
internally at HHS to discuss the needs and interests of Indian country.
    RADM Weahkee has clearly moved the Agency forward in a positive 
manner, and in a relatively short amount of time. And while his 
accomplishments have significant national impact, we would be remiss 
not to acknowledge the impacts felt at a local level in programs like 
ours. RADM is engaged and accessible in Indian Country, which at a 
senior level is a rare quality indeed. We appreciate his approach to 
addressing the health care concerns in Urban Indian communities, 
specifically viewing our challenges from a social determinants of 
health lens, acknowledging the impacts of federal policies and 
historical trauma among our people, and honoring our unique culture 
through support of practice based evidence and culture as prevention 
strategies. This perspective is well in tune with the priorities of the 
community we serve and for the reasons outlined, we heartily support 
RADM Weahkee's nomination.
    Thank you for your strong consideration of this endorsement.
        Respectfully,
               Kerry Hawk Lessard, MAA, Executive Director.
                                 ______
                                 
                                     Native Directions Inc.
                                                  November 27, 2019
    Native Directions Inc. is an Inpatient Drug and Alcohol Program for 
Native American Men. Our Program was founded in 1974, and has provided 
treatment for our Native American brothers in a culture based treatment 
facility, offering treatment from a Native American perspective and a 
an Inipi on grounds for spiritual growth.
    Native Directions Inc. strongly supports the nomination of Rear 
Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask 
that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                        Ramona Valadez, Executive Director.
                                 ______
                                 
                    National Council of Urban Indian Health
                                                   December 5, 2019
    On behalf of the National Council of Urban Indian Health (NCUIH), 
and the 41 Urban Indian Health Programs (UIHPs) receiving grants under 
Title V of the Indian Health Care Improvement Act (IHCIA) and the 
American Indian and Alaska Natives (AI/ANs) they serve and who we 
represent, we write to express our support of the nomination of Rear 
Admiral (RADM) Michael D. Weahkee. Furthermore, NCUIH would support any 
action taken by this committee to ensure his confirmation as Director 
of the Indian Health Service (IHS) in the United States Department of 
Health and Human Services (HHS). RADM Weahkee has served as the 
Principal Deputy Director and Acting Director of the IHS for the past 
two and a half years, and in that time he has voiced his support and 
pledged to commit the Agency's efforts to ensuring the federal trust 
responsibility to AI/AN people who live in urban communities and 
receive health care services at an Urban Indian Organization (UIO).
    Despite comprising over two-thirds of AI/ANs, urban Indians are too 
often excluded from federal policies and programs designed to carry out 
the trust responsibility. The federal trust responsibility extends not 
only to tribal governments but also to individual Indians. Among the 
most sacred of the duties encompassed within the federal trust 
responsibility is the duty to provide for Indian health care. Congress 
has long recognized the federal government's obligation to provide 
health care for AI/AN people follows them off reservations.
    While serving in his post, RADM Weahkee has repeatedly established 
his understanding that UIOs are an integral part of the Indian health 
system, which is comprised of the Indian Health Service (IHS), Tribes, 
and tribal organizations, and urban Indian organizations (collectively, 
I/T/Us). NCUIH looks forward to a continued partnership with him as 
together, we work to ensure the overall health of Indian Country.
    Thank you for your consideration of this endorsement.
        Respectfully,
                          Maureen Rosette, Board President.
                                 ______
                                 
                              New York Indian Council, Inc.
                                                  November 14, 2019
    The New York Indian Council, Inc. a subsidiary of the Rhode Island 
Indian Council, Inc. strongly supports the nomination of Rear Admiral 
(RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask that you 
support his confirmation as Director of the Indian Health Service (IHS) 
in the United States Department of Health and Human Services (HHS). 
RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years, and in that time 
he has proven that he is capable and dedicated to improving the Agency 
and raising the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                           Darrell Waldron,
                                                Executive Director.
                                 ______
                                 
                                    Northern Cheyenne Tribe
                                                   December 4, 2019
    The Northern Cheyenne Tribal President strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                   Rynalea Pena, President.
                                 ______
                                 
                Northwest Portland Area Indian Health Board
                                                  November 20, 2019
    On behalf of the Northwest Portland Area Indian Health Board 
(NPAIHB), I strongly support the nomination of Rear Admiral (RADM) 
Michael D. Weahkee of the Zuni Indian Tribe, and ask that you support 
his confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). 
Established in 1972, NPAIHB is a tribal organization formed under the 
Indian Self-Determination and Education Assistance Act (ISDEAA), P.L. 
93-638, representing the 43 federally-recognized Indian Tribes in 
Idaho, Oregon, and Washington on specific health care issues.
    NPAIHB's relationship with RADM Weahkee began when he worked at the 
California Rural Indian Health Board and continued through positions he 
held at IHS at the service unit and regional office level. In his role 
as Principal Deputy Director/Acting Director of IHS, he has proven that 
he is strong leader, capable and committed to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level. He has successfully 
led the Agency forward in a very trying time, overseeing the 
development and implementation of a new five-year strategic plan for 
the Agency, the first in over a decade. He has pressed the Agency 
forward to address long-standing and unimplemented, external oversight 
recommendations from the Government Accountability Office and the HHS 
Office of Inspector General. He established and implemented a new 
Office of Quality at the IHS Headquarters level, to ensure appropriate 
management oversight and accountability by the Area Offices and federal 
service unit hospitals and health centers. In partnership with the 
Administration for Native Americans Commissioner, RADM Weahkee 
revitalized the HHS Intradepartmental Council on Native American 
Affairs, to provide a forum internally at HHS to discuss the needs and 
interests of Indian country.
    RADM Weahkee has traveled extensively throughout Indian country, 
including to visit Northwest Tribes, to see and hear firsthand the 
challenges and issues that American Indian and Alaska Native 
communities face in addressing various health concerns. NPAIHB 
leadership have also had the opportunity to address RADM Weahkee on 
various issues through the tribal consultation process and other 
meetings.
    Lastly, RADM Weahkee is a veteran of the United States Air Force, 
where he served as a military public health specialist. He obtained his 
bachelor of science in health care management degree from Southern 
Illinois University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona. RADM Weahkee's experience 
in working with tribes, demonstrated leadership, and education strongly 
support his confirmation.
    Thank you for your strong consideration of this endorsement.
        Sincerely,
                            Cheryle A. Kennedy, Vice Chair.
                                 ______
                                 
                                Oklahoma City Indian Clinic
                                                   December 6, 2019
    The Oklahoma City Indian Clinic, an Urban Indian Health Program, 
strongly supports the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Tribe, and ask that you support his confirmation as 
permanent Director of the Indian Health en ice (IHS) in the United 
States Department of Health and Human Services (HHS). RADM Weahkee has 
served as the Principal Deputy Director and Acting Director of the IHS 
for the past two and a half years, and in that time, he has proven that 
he is capable and dedicated to the American Indian and Alaska Nation 
patients IHS serves, and also to improving the Agency to the highest 
level in partnership with stakeholders.
    This nomination is a continuation of service to the United States 
for RADM Weahkee. He previously served the United States in the Air 
Force (1993-96) as a military public health specialist. RADM Weahkee 
has also served the United States and his Indigenous community in a 
variety of different roles within the Indian Health system of care, 
including in both the federal (1999-01 & 2007-Present) and tribal 
(2001-07) setting and the role of Director of IHS is a natural 
progression for such a recognized leader.
    Drawing on his long term and specific understanding of IHS 
operations, RADM Weahkee has pressed the Agency forward to address 
long-standing and unimplemented external oversight recommendations from 
the Government Accountability Office and the HHS Office of Inspector 
General. RADM Weahkee has served in the field at the service unit and 
regional office level, as well as at IHS headquarters at the national 
level. He has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five-year 
strategic plan for the Agency, the first in over a decade.
    RADM Weahkee obtained his bachelor of science in health care 
management degree from Southern Illinois University-Carbondale, and 
both a master of health services administration and master of business 
administration degree from Arizona State University in Tempe, Arizona.
    RADM Weahkee has moved the Agency forward in a positive manner in 
his tenure as the Principal Deputy Director of IHS. He has visited our 
facilities to see and hear firsthand the challenges and issues that our 
community faces and to meet our patients in person. He is committed to 
continue his diligent work to provide high quality health care services 
for American Indians and Alaskan Natives. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                   Robyn Sunday-Allen, CEO.
                                 ______
                                 
                                             One Sky Center
                                                  November 26, 2019
    As Director of the One Sky Center and a Psychiatrist who has worked 
on American Indian issuesfor 45 years, I strongly support the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level. I have worked and interacted with RADM Weahkee since 
2003 and believe he is most suited for this position at this time.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. The IHS has a long history of 
lack of enough funding and critical physician and staff shortages; both 
of which effect access to care and ability to provide quality of care 
that much of the rest of the citizens of the United States receive. 
Please appoint RADM Weahkee to this position and provide the resources 
the IHS needs to get the job done. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                         Roger Dale Walker, M.D., Director.
                                 ______
                                 
                                Professional Growth Systems
                                                   December 5, 2019
    I wish to lend my support to the nomination of Rear Admiral (RADM) 
Michael D. Weahkee of the Zuni Indian Tribe, and ask that you support 
his confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS).
    My relationship with Rear Admiral Weahkee began in 2013 when he was 
selected as Administrator for the Phoenix Indian Medical Center (PIMC). 
At the time, I was providing consulting services to PIMC that included 
strategic planning, management team development and design/
implementation of a new model for delivery of primary care services. I 
continued to work with Admiral Weakkee after his appointment as Service 
Unit Director at PIMC and through 2016.
    At the time, Admiral Weakhee assumed his position at PIMC, the 
organization was still experiencing a crisis of leadership. Six Service 
Unit Directors had served at PIMC over a six plus year period. Data we 
gathered for purposes of an organizational assessment found that lack 
of leadership was the number one issue holding PIMC back from improving 
performance.
    From the moment, Admiral Weahkee took the helm as hospital 
administrator until the end of his service as Service Unit Director, 
the faith in leadership grew and the organization made substantial 
improvements as a result.
    The leadership strengths demonstrated during his tenure include the 
following:

  <bullet> Integrity. His word was his bond.

  <bullet> Confrontation of key issues that had been avoided for years

  <bullet> Rational and decisive decisionmaking

  <bullet> Even temperament despite crisis conditions in some cases

  <bullet> Innovation. The finding of creative solutions to facility 
        deficiencies and lack of services.

  <bullet> Accountability for results with managers reporting to him

  <bullet> Improved performance of his management team and individual 
        members

  <bullet> Elevated morale of a formerly dispirited workforce who came 
        to believe a better future was possible

  <bullet> Consistency. He enforced policies that had gone largely 
        ignored in the past

  <bullet> Effective partnerships with tribal governments and 
        organizations throughout the Service Unit

  <bullet> An unwavering commitment to performance improvement

    I have been associated in some fashion with the Indian Health 
Service since serving two years as a commissioned officer in Alaska 
from 1968-1970. The IHS has always been capable of attracting talented 
medical officers with a strong commitment to serve beneficiaries. It 
has often been the case that that commitment has been betrayed by 
leadership that lacked the courage or ability to make needed changes.
    I strongly believe that Admiral Weahkee can fulfil the need the 
transformational leadership. His standards for rational thought, his 
courage to make difficult decisions, his skill at building strategic 
relationships and his even temperament coupled with persistence will 
enable IHS to make substantial improvements.
    I appreciate this opportunity to support his candidacy.
    William Dann, Founder/Chairman
                                 ______
                                 
                          Profound Knowledge Partners, Inc.
                                                  November 13, 2019
    We are in a unique position as owners of a small, woman-owned 
business, Profound Knowledge Partners (PKP), headquartered in 
Georgetown, Texas. As one of the authors of The Improvement Guide, 
healthcare's reference book used worldwide, we were introduced to 
healthcare by the Institute for Healthcare Improvement (IHI) in 2001, 
working with Sweden, National Health Care System in the UK (NHS), 
Canada, and Singapore. In that capacity, we have also had the privilege 
of working with Indian Health Service (IHS) since 2009. Our first 
exposure to the leadership of IHS was Rear Admiral (RADM) Charles Grim 
at Cherokee Nation. It has been a pleasure to work with such 
professionals at IHS over the last decade.
    Our 2013 book, Transforming Healthcare Leadership, written with Dr. 
Michael Maccoby, has allowed us to continue to work with Healthcare 
leaders worldwide. In 2016, we conducted a leadership workshop in 
Phoenix, Arizona, requested by the Area Director, ADM Charles Reidhead. 
It was during this workshop that we had the privilege of meeting and 
working directly with RADM Michael Weahkee and Rose Weahkee. Both are 
exemplary healthcare leaders and professionals. Indian Health Service 
is fortunate to have their dedicated service.
    Since that time, we have been working directly with the leadership 
of three regions of Indian Health Service (Portland, Phoenix, and Great 
Plains). We have facilitated and developed others to improve Indian 
Health Service's processes and services. Through the leadership and 
strategic direction and support of RADM Michael D. Weahkee, improvement 
work has expanded to Billings, Navajo, Oklahoma, Bemidji, and Nashville 
Regions of IHS. Just this year, at Portland's Quality Symposium (where 
the Tribes shared completed projects and results), Tribal leaders 
confirmed the real and positive impact of these improvements on their 
Tribal members.
    Currently, at least 57 additional projects are led by Healthcare 
Improvement Professionals in training. These projects entail engaging 
IHS subject matter experts, identifying and testing changes, using 
statistical evidence for improvement, implementing, sharing and 
spreading improvements throughout the Indian Healthcare Service system. 
This intense focus has increased the number of improvement efforts to a 
total of 91 since 2016. Many of these efforts have improved service to 
patients and families while reducing costs. Without RADM Michael D. 
Weahkee's leadership and dedication to the Native Americans and Alaskan 
Natives, the continued hard work and commitment to improvement of 
Indian Health Service would not easily be sustained.
    RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years. In that time, he 
has proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    In this short time, we have seen signs of transformation to a 
stronger, more engaged Indian Health Service striving to become a 
Learning Organization. At the same time, they influence and positively 
impact the physical, mental, social, and spiritual health of American 
Indians and Alaska Natives to the highest level.
    We strongly support the nomination of Rear Admiral (RADM) Michael 
D. Weahkee of the Zuni Indian Tribe and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS).
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they confront. Thank you for your strong consideration of 
this endorsement.
        Respectfully,
                                 C. Jane Norman, President;
                        Clifford L. Norman, Vice President.
                                 ______
                                 
                                            Pueblo of Jemez
                                                   December 3, 2019
    The Pueblo of Jemez strongly supports the nomination of Rear 
Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask 
that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    The Pueblo of Jemez, a Title V Self-Governance tribe, has had the 
great privilege of directly working with him at the self-governance 
advisory committee meetings in Washington, DC and secured his support 
on health and human services issues critical to the Pueblo. He visited 
the Pueblo in summer, 2019 to learn about our community and the needs 
we have. We feel that he heard our needs and will work to help our 
Pueblo secure the funds and support needed to provide quality health 
care services.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country, including the Pueblo of Jemez, to see and 
hear firsthand the challenges and issues that native communities face 
in addressing the various health concerns that they are confronted 
with. As a member of our sister Pueblo, Zuni Pueblo, the Pueblo of 
Jemez strongly requests your approval of his confirmation.
        Respectfully,
                                 David M. Toledo, Governor;
                              John Galvan 1st Lt. Governor;
                             Elston Yepa, 2nd Lt. Governor.
                                 ______
                                 
                                             Pueblo of Zuni
                                                  November 11, 2019
    The Zuni Tribe strongly supports the nomination of Rear Admiral 
(RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask that you 
support his confirmation as Director of the Indian Health Service (IHS) 
in the United States Department of Health and Human Services (HHS). 
RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years, and in that time 
he has proven that he is capable and dedicated to improving the Agency 
and raising the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                             Val R. Panteah, Sr., Governor.
                                 ______
                                 
                          Red Lake Band of Chippewa Indians
                                                  November 22, 2019
    The Red Lake Band of Chippewa Indians strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                            Darrell G. Seki, Sr., Chairman.
                                 ______
                                 
          IHS office of Quality, Division of Patient Safety
                                                   December 5, 2019
    The Northern Cheyenne Tribal President strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level. As a friend and colleague with Michael D. Weahkee 
(Zuni) for over 15 years, I have witnessed firsthand his passion and 
commitment to public service. I also share personal roots from the 
state of New Mexico.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                 Regena Dale, MPH, BSN, RN.
                                 ______
                                 
                                           Rising Star, LLC
                                                   November 7, 2019
    I strongly support the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe, and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                               Joanne Schlosser, President.
                                 ______
                                 
                              Broward Health Medical Center
                                                   December 2, 2019
    I, Roberto Cuesta, strongly support the nomination of Rear Admiral 
(RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask that you 
support his confirmation as Director of the Indian Health Service (IHS) 
in the United States Department of Health and Human Services (HHS). 
RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years, and in that time 
he has proven that he is capable and dedicated to improving the Agency 
and raising the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                    Roberto R. Cuesta, RPh.
                                 ______
                                 
             Sacramento Native American Health Center, Inc.
                                                  November 21, 2019
    The Sacramento Native American Health Center, Inc. (SNAHC) strongly 
supports the nomination of Rear Admiral (RADM) Michael D. Weahkee of 
the Zuni Indian Tribe, and ask that you support his confirmation as 
Director of the Indian Health Service (IHS) in the United States 
Department of Health and Human Services (HHS). RADM Weahkee has served 
as the Principal Deputy Director and Acting Director of the IHS for the 
past two and a half years, and in that time he has proven that he is 
capable and dedicated to improving the Agency and raising the physical, 
mental, social and spiritual health of American Indians and Alaska 
Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                      Britta Guerrero. CEO.
                                 ______
                                 
                  Saginaw Chippewa Indian Tribe of Michigan
                                                   October 27, 2019
    The Saginaw Chippewa Indian Tribe of Michigan strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                               Ron F. Ekdahl, Tribal Chief.
                                 ______
                                 
                                    San Carlos Apache Tribe
                                                   November 7, 2019
    On behalf of the 16,800 members of the San Carlos Apache Tribe 
(``Tribe''), I provide our wholehearted support of the nomination of 
Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
ask that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS).
    RADM Weahkee's service is impeccable, one that has demonstrated 
honorable service to Indian Country and the United States. As Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level. As a veteran of the United States Air Force, where 
he served as a military public health specialist. He obtained his 
bachelor of science in health care management degree from Southern 
Illinois University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    Throughout his career within the IHS, he has served in the field, 
at the service unit and regional office level, as well as at IHS 
headquarters at the national level. RADM Weahkee has successfully led 
the Agency forward in a very trying time, overseeing the development 
and implementation of a new five year strategic plan for the Agency, 
the first in over a decade. He has pressed the Agency forward to 
address long-standing and unimplemented, external oversight 
recommendations from the Government Accountability Office and the HHS 
Office of Inspector General. He established and implemented a new 
Office of Quality at the IHS Headquarters level, to ensure appropriate 
management oversight and accountability by the Area Offices and federal 
service unit hospitals and health centers. In partnership with the 
Administration for Native Americans Commissioner, RADM Weahkee 
revitalized the HHS Intradepartmental Council on Native American 
Affairs, to provide a forum internally at HHS to discuss the needs and 
interests of Indian country.
    RADM Weahkee has been supportive of tribes in working to improve 
services. His prior work with the California Rural Indian Health Board 
gave him experience in the need for tribes to develop systems specific 
healthcare amenities. With the constant changes in healthcare. it is 
vital to have someone who is knovvledgeable for continued growth of all 
Native Nations.
    In our case. I came to know RADM Weahkee in 2015 during our Tribe's 
negotiation of its assumption of the IHS Service Unit on our 
Reservation. pursuant to the Indian Self-Determination and Education 
Assistance Act (P.L. 93-638, 25 U.S.C.  5301, et seq.). which included 
a newly constructed. $160 million hospital facility. We had reached an 
impass on the state of the facility's water plant system. RADM Weahkee 
graciously gathered together his team and effected a solution that 
worked. Today. the San Carlos Apache Healthcare Corporation, a 
subsidiary enterprise of the Tribe, runs the facility and employs some 
700 employees, including some 150 physicians, and our hospital has on 
average 20,000 patient contacts per month. Having a Director who 
understands that need is vital for our growth and future.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with.
    For these reasons, I respectfully request your endorsement of RADM 
Weahkee. As we say in our Apache language, Ahi'yi'e (thank you) for 
your review of our request.
        Sincerely,
                                   Terry Rambler, Chairman.
                                 ______
                                 
               SALT RIVER PIMA-MARICOPA INDIAN COMMUNITY
                    resolution number: sr-3744-2020

   a resolution to support the nomination of rear admiral michael d. 
  weahkee for the director of the indian health service at the united 
       states department of heal th services and human services.

    WHEREAS, Article VII, Sections l(c)(4) and (c)(5) of the 
Constitution of the Salt River PimaMaricopa Indian Community 
(``Constitution'') authorizes the Salt River PimaMaricopa Indian 
Community (``Community'') Council to protect the public health and 
morals and to provide for the public welfare; and

    WHEREAS, Article VII, Section l(h) of the Community Constitution 
authorizes the Community to consult, negotiate, contract, conclude and 
perform agreements with the federal government; and

    WHEREAS, Article VII, Section 1 (j) of the Community Constitution 
authorizes the Community to advise and recommend to the United States 
Government; and

    WHEREAS, Rear Admiral (RADM) Michael D. Weahkee, Principal Deputy 
Director of the Indian Health Service (!HS) and Assistant Surgeon 
General of the United States Public Health Services and the Department 
of Health and Human Services has been nominated by President Trump to 
be the Director of the Indian Health Service at the Department of 
Health and Human Services; and

    WHEREAS, RADM Michael D. Weahkee is an enrolled member of the Zuni 
Indian Tribe and a veteran of the United States Air Force where he was 
a public health specialist; and

    WHEREAS, RADM Michael D. Weahkee obtained his Bachelor of Science 
in Health Care Management from Southern Illinois University-Carbondale 
and later a Master of Health Services Administration and Master of 
Business Administration degree from Arizona State University; and

    WHEREAS, the Community has had experience working with RADM Michael 
D. Weahkee when he was the Chief Executive Officer (CEO) of the Phoenix 
Indian Medical Center (PIMC); and

    WHEREAS, while the CEO of the PIMC; RADM Michael D. Weahkee worked 
diligently to improve health service delivery, expand programs, 
understand patient needs, partner with other health care providers 
outside the !HS system so additional health services could be provided 
to patients; and

    WHEREAS, RADM Michael D. Weahkee while working as the PIMC CEO also 
sought to maximize the existing limited resources by reengineering 
their health systems that resulted in cost savings which were then put 
toward providing additional patient care; and

    WHEREAS, RADM Michael D. Weahkee prioritized transparency and 
communication as the PIMC CEO making monthly visits to the Community to 
discuss operations, policies and services; and

    WHEREAS, while working as the PIMC CEO, RADM Michael D. Weahkee 
created a true partnership with the Community so that needed health 
care could be provided to his membership; and

    WHEREAS, RADM Michael D. Weahkee as the Principal Deputy Director 
supports tribal selfgovernance and has supported the Community in their 
efforts to compact the Salt River Clinic, the Northeast Ambulatory Care 
Clinic (``NEACC'') construction project; and

    WHEREAS, RADM Michael D. Weahkee has demonstrated through his work 
as the PIMC CEO and the Principal Deputy Director that he is committed 
to improving the lives of American Indians through enhanced health care 
services provided by the Indian Health Services.

    NOW, THEREFORE, BE IT RESOLVED that the Salt River Pima-Maricopa 
Indian Community supports the nomination of RADM Michael D. Weahkee as 
the Director of Indian Health Services, Department of Health and Human 
Services.

    BE IT FINALLY RESOLVED that the President or Vice President is 
authorized to take all steps reasonably necessary to carry out the 
purposes and intentions of this resolution.

    CERTIFICATION
    Pursuant to the authority contained in Article VII, Section 
l(c)(4), l(c)(5), l(h), and lU) of the Constitution of the Salt River 
Pima-Maricopa Indian Community (as amended), ratified by the Tribe on 
February 28, 1990, and approved by the Secretary of the Interior on 
March 19, 1990, the foregoing resolution was adopted this 13th day of 
November, 20 I 9, in a duly called meeting of the Community Council at 
Salt River, Arizona, at which a quorum of 6 members was present, by a 
vote of 6 for; 0 opposed; 0 abstaining; and 3 excused.
                                 ______
                                 
                                           SAN JUAN COLLEGE
                                                  November 15, 2019
    It is a true pleasure to write a letter of recommendation that 
supports the nomination of Rear Admiral (RADM) Michael D. Weahkee of 
the Zuni Indian Tribe, and ask that you support his confirmation as 
Director of the Indian Health Service (IHS) in the United States 
Department of Health and Human Services (HHS). I have known RADM 
Weahkee for over thirty years. We actually attended high school 
together in Aztec, New Mexico. In May of 2018, he was San Juan 
College's commencement speaker. I am writing this recommendation from 
the perspective of someone who has spent over 20 years working as an 
administrator. Therefore, I can speak with authority about his 
attributes and extraordinary accomplishments.
    I am tremendously impressed with RADM Weahkee's background, 
knowledge, and commitment to his endeavors. He is extremely intelligent 
and a highly motivated individual. He obtained his Bachelor of Science 
in Health Care Management from Southern Illinois University-Carbondale. 
He also received a Master's degree in Health Services Administration 
and a Master of Business Administration degree from Arizona State 
University in Tempe, Arizona.
    RADM Weahkee has a wealth of experience that uniquely qualifies him 
to serve as the Director of the Indian Health Service. He has served at 
the local, regional, and national level in multiple capacities. For 
instance, he has served as the Principal Deputy Director and Acting 
Director of the Indian Health Services for the past two and a half 
years. He administers a nationwide health care delivery system that is 
responsible for providing health care to approximately 2.2 million 
Native American and Alaska Natives throughout the United States. Within 
this role, he oversees an annual operating budget of $6 billion and a 
workforce of 15,400 health care professionals. In addition, he has 
experience serving as the Chief Executive Officer and the Chief 
Operating Officer for Phoenix Indian Medical Center. Moreover, RADM 
Weahkee has served in several senior executive level positions at the 
Indian Health Service Headquarters in Rockville, Maryland. He is also a 
proud veteran of the United States Air Force, where he served as a 
military public health specialist.
    RADM Weahkee possesses excellent leadership skills. For example, 
RADM Weahkee has led the development and execution of a new five-year 
strategic plan. He also established and implemented a new Office of 
Quality to ensure appropriate management oversight and accountability.
    RADM Weahkee is a person of character and conviction. He truly 
cares about his constituents and his devoted his life to this vocation. 
He has traveled extensively throughout Indian country to witness the 
challenges and issues that native communities face and has strived to 
address their health concerns.
    RADM Weahkee is an amazing individual and has my unqualified 
endorsement and recommendation.
        Sincerely,
                 Toni Hopper Pendergrass, Ph.D., President.
                                 ______
                                 
                             San Juan Southern Paiute Tribe
                                                   October 30, 2019
    San Juan Southern Paiute Tribe strongly supports the nomination of 
Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
ask that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                      Carlene Yellowhair, Tribal President.
                                 ______
                                 
                 Sault Ste. Marie Tribe of Chippewa Indians
    As the elected Chairperson of the Sault Ste. Marie Tribe of 
Chippewa Indians, I am writing on behalf of my Tribe. Last week, 
President Trump nominated Rear Admiral (RADM) Michael D. Weahkee to 
serve as the Director of the Indian Health Service. My Tribe urges you 
to support his confirmation.
    RADM Weahkee currently serves as the Principal Deputy Director and 
as the Acting Director of the Indian Health Service. He is also an 
Assistant Surgeon General of the United States Public Health Services 
at the Department of Health and Human Services.
    For years, RADM Weahkee has worked to improve the Indian Health 
Service. Previously, he served as the Executive Officer for the Office 
of Clinical and Preventive Services; the Director of the Management 
Policy and Internal Control Staff office; and, as the Deputy Director 
for Personnel Functions in the Office of Management Services.
    He is a member of the Zuni Tribe and grew up as a direct user of 
the Indian Health Service. This is important to my Tribe: We know he 
has experience as both a user of the Indian Health Service and as an 
administrator within the Indian Health Service. This background will 
help him meet the needs of Indian Country.
    For years, my Tribe has worked with RADM Weahkee. We support his 
nomination for Director of the Indian Health Service. We ask that you 
support him as well.
    If you have any questions or want additional information, please do 
not hesitate to contact me or the Legislative Director of the Sault 
Ste. Marie Tribe of Chippewa Indians, Mike McCoy.
        Respectfully Submitted,
                             Aaron A. Payment, Chairperson.
                                 ______
                                 
                                Seattle Indian Health Board
                                                  November 25, 2019
    The Seattle Indian Health Board strongly supports the nomination of 
Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
ask that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    The IHS is in need of bold Indigenous leadership that understands 
and advocates for tribal and urban Indian healthcare needs. As a Zuni 
tribal member with ample experience with the Indian health care system, 
RADM Weahkee brings an Indigenous perspective to IHS administration by 
contining to advocate for increasing overall funding to the IHS and 
supporting Indigenous data tribal sovereignty and autonomy.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                   Esther Lucero, MPP, CEO;
             Abigail Echo-Hawk, MA, Chief Research Officer;
              Aren Sparck, MUP, Government Affairs Officer.
                                 ______
                                 
                                    Southcentral Foundation
                                                   November 8, 2019
    The Southcentral Foundation strongly supports the nomination of 
Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
ask that you support his confirmation.
    Southcentral Foundation (SCF) is the Alaska Native tribal health 
organization designated by Cook Inlet Region, Inc. and eleven 
Federally-Recognized Tribes--the Aleut Community of St. Paul Island, 
lgiugig, lliamna, Kokhanok, McGrath, Newhalen, Nikolai, Nondalton, 
Pedro Bay, Telida, and Takotna--to provide healthcare services to 
beneficiaries of the Indian Health Service pursuant to a compact with 
the United States government under the authority of P.L. 93-638, as 
amended, the Indian Self Determination and Education Assistance Act.
    SCF provides services to more than 65,000 Alaska Native and 
American Indian people living in the Municipality of Anchorage, the 
Matanuska-Susitna Borough and 55 rural Alaskan villages. Services 
provided by SCF include outpatient medical care, home health care, 
dentistry, optometry, psychiatry, mental health counseling, substance 
abuse treatment, residential treatment facilities for adolescents and 
for women, suicide prevention and domestic violence prevention. We 
employ numerous staff, all of whom work in harmony to treat patients 
for the best access to quality care.
    RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years, and in that time 
he has proven that he is capable and dedicated to improving the Agency 
and raising the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Sincerely,
          Katherine Gottlieb, MBA, DPS, LHD, President/CEO.
                                 ______
                                 
                        Southern Plains Tribal Health Board
                                                  November 27, 2019
    The Southern Plains Tribal Health Board (SPTHB) is a non-profit 
organization based in Oklahoma City, Oklahoma. The Health Board was 
established in 1972 to provide a unified voice on tribal public health 
needs and policy for the 44 federally recognized tribes located in 
Oklahoma, Kansas, and Texas. Board membership includes representatives 
from the 12 service units in the Indian Health Service (IHS) Oklahoma 
City area.
    On behalf of the Board, I am writing this letter of support and 
recommendation to the United States Senate Committee on Indian Affairs 
for RADM Michael Weahkee for the Indian Health Service (IHS) Director.
    RADM Weahkee has been serving as Acting Director and Principal 
Deputy Director for IHS since June 2017. Before that time, RADM Weahkee 
has been employed in various capacities within the IHS system since 
December 2007. Through his tenure, RADM Weahkee has exhibited exemplary 
work performance with tribes and tribal communities, he continues to 
display unique ability, aptitude, and character in his actions and 
understanding of the complex issues surrounding Native American health 
and wellness. I believe RADM Weahkee will continue to deliver positive 
impact to the Indian Health Service roles and responsibilities.
    In the changing landscape of healthcare RADM Weahkee has the vision 
to direct the Indian Health Service, under the Department of Health and 
Human Services with improved leadership throughout Indian Country, by 
signaling a united voice to provide increased accountability, defend 
quality delivery of healthcare, and navigate standards of care in a 
thoughtful and productive way with tribal nations.
    RADM Weahkee is the collaborator, leader, listener, and visionary 
to deliver culturally appropriate care as expected. SPTHB believes 
Tribal sovereignty and self-determination should be respected and 
innovative approaches should be implemented. Therefore, we urge this 
administration to confirm this nomination, as RADM Weahkee is widely 
viewed as committed to dialogue, seeking to implement solutions to the 
challenges of health-care access, to bring safe and modern facilities 
to serve Indian Country, and deliver adequate provider services with 
culturally diverse competencies.
        Respectfully,
                    Mrs. Marty Wafford, Chair of the Board.
                                 ______
                                 
                  Saint Louis University School of Medicine
                                                   December 4, 2019
    I am currently the Director of Interprofessional Education, 
Practice, and Research at Saint Louis University School of Medicine. 
Prior to joining SLU, starting in 2001, I was the Director of Health 
Services for United American Indian Involvement, Inc. an Urban Indian 
Health Program in Los Angeles, CA. In that capacity, it was my honor to 
serve on the Urban Programs National Diabetes Workgroup, support the 
previous IHS Director's response to 0MB inquiry, and secure 5-year 
federal funding in the initial round of Diabetes Prevention Program 
Community-Based Demonstration Projects. My personal and professional 
relationship with RADM Weahkee and my ongoing support for Indian Health 
Programs, is the basis of this letter.
    I strongly support the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe, and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS).
    RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years, where he has 
consistently demonstrated his capability and dedication to improving 
the Agency and raising the physical, mental, social and spiritual 
health of American Indians and Alaska Natives to the highest level. His 
strength of character, collaborative and inclusive practices, and his 
experience in hospital and healthcare administration are fully 
expressed in his leadership and behaviors.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona. RADM Weahkee has served in 
a variety of different roles within the Indian Health system of care, 
including in both the federal and tribal setting. He has served in the 
field and at all levels of leadership for IHS, demonstrating his 
commitment to representing front-line and community voice while 
developing policies and systems to enable and sustain better care and 
outcomes.
    RADM Weahkee has successfully led the Agency forward in a very 
challenging time for Native communities across the country, overseeing 
the development and implementation of a new five-year strategic plan 
for the Agency, the first in over a decade. He has pressed the Agency 
forward to address long-standing and unimplemented, external oversight 
recommendations from the Government Accountability Office and the HHS 
Office of Inspector General. He established and implemented a new 
Office of Quality at the IHS Headquarters level, to ensure appropriate 
management oversight and accountability by the Area Offices and federal 
service unit hospitals and health centers. In partnership with the 
Administration for Native Americans Commissioner, RADM Weahkee 
revitalized the HHS Intradepartmental Council on Native American 
Affairs, to provide a forum internally at HHS to discuss the needs and 
interests of Indian country.
    I fully support the recommendation of RADM Weahkee as Director of 
IHS and I am confident he will continue his leadership and tremendous 
dedicated efforts in service to lndian Country, the DHHS, and the 
Nation to move the Agency forward. Thank you for your consideration of 
this endorsement.
        Respectfully,
    David Pole, Ph.D, MPH.
                                 ______
                                 
        The Confederated Tribes of the Colville Reservation
                                                  November 26, 2019
    On behalf of the Confederated Tribes of the Colville Reservation 
(``Colville Tribes''), please consider this letter of support for the 
nomination of RADM Michael D. Weahkee to be the Director of the Indian 
Health Service (IHS). Mr. Weahkee's tenure in the IHS serving in 
various capacities, and his current role as Principal Deputy Director 
of the IHS, demonstrate that he is well qualified for this important 
position.
    Mr. Weahkee is a member of the Pueblo of Zuni and grew up as a 
direct user of IHS services. As a direct service tribe, the Colville 
Tribes appreciates the importance of the Federal Government's 
responsibility to provide quality health care services to our citizens. 
We believe that Mr. Weahkee's prior service managing the largest 
federally-operated IHS hospital will ensure that the needs of direct 
service tribes are considered in IHS decision-making.
    In July of this year, Mr. Weahkee visited the Colville Reservation 
community of Keller to meet with our tribal leadership and staff 
regarding the Colville Tribes' health care needs. Before and since that 
visit, Mr. Weahkee has been responsive to our requests for information 
and technical assistance on various issues, including the Joint Venture 
Construction Program.
    We respectfully urge the Committee to swiftly approve Mr. Weahkee's 
nomination and advance it to the full U.S. Senate. If you have any 
questions, please feel free to contact me.
        Sincerely,
                                  Rodney Cawston, CHAIRMAN.
                                 ______
                                 
                                         The NATIVE Project
                                                   December 3, 2019
    The NATIVE Project, a non-profit Urban Indian Clinic in Spokane, 
WA, strongly supports the nomination of Rear Admiral (RADM) Michael D. 
Weahkee as Director of the Indian Health Service (IHS) in the United 
States Department of Health and Human Services (HHS). RADM Weahkee, a 
member of the Zuni Indian Tribe, has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years. In that time he has proven that he is capable and dedicated to 
improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee, is a military veteran and is extremely well educated. 
He has served in a variety of different roles within the Indian Health 
system of care, in both the federal and tribal settings. He has served 
in the field, at the service unit and regional office level, as well as 
at IHS headquarters at the national level. RADM Weahkee has 
successfully led the Agency forward in a very trying time, overseeing 
the development and implementation of a new five year strategic plan 
for the Agency, the first in over a decade. He has pressed the Agency 
forward to address long-standing and unimplemented, external oversight 
recommendations from the Government Accountability Office and the HHS 
Office of Inspector General. He established and implemented a new 
Office of Quality at the IHS Headquarters level, to ensure appropriate 
management oversight and accountability by the Area Offices and federal 
service unit hospitals and health centers. In partnership with the 
Administration for Native Americans Commissioner, RADM Weahkee 
revitalized the HHS Intradepartmental Council on Native American 
Affairs, to provide a forum internally at HHS to discuss the needs and 
interests of Indian country.
    I have personally experienced Acting Director RADM Weahkee's 
example of leadership when he and his administrative team visited our 
Clinic here in Spokane in June 2019. After operating an Urban Indian 
Health Clinic for over 20 years, RADM Weahkee is the first IHS Director 
to ever visit our clinic. Staff were excited, impressed and 
appreciative that the accomplishments and concerns of the urban Indian 
community were acknowledged by a national leader of his caliber. RADM 
Weahkee has traveled extensively throughout Indian country to see and 
hear firsthand the challenges and issues that native communities face 
in addressing the various health concerns that they are confronted 
with. He is a savvy communicator and has done a great job connecting 
the Indian Health Service providers and patients together is a 21st 
century medium. We have appreciated his effective leadership! Thank you 
for your strong consideration of this endorsement. Call me if you have 
questions.
        Respectfully,
                                            Toni Lodge, CEO
                                 ______
                                 
                                  Tribal Emergency Medicine
                                                   December 3, 2019
    Tribal Emergency Medicine unequivocally supports the nomination of 
Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
asks that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years. During this time, he has led Indian Health Service through some 
very challenging times.
    For example, my organization, Tribal EM, provides the nurse, doctor 
and advance practice providers at the Pine Ridge and Rosebud Service 
Units. During our tenure, RADM Weahkee has made numerous visits to the 
Great Plains and has been instrumental in improving the delivery of 
care at these facilities. The changes that he championed have been life 
changing for members of the tribes and will have a multi-generational 
impact.
    For example, both the quality and the delivery of care in these 
service units has improved dramatically. Both have recently gone 
through their Joint Commission and CMS surveys and both service units 
did very well. Their success was due, in no small measure to RADM 
Weahkee's leadership, vision and direction.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. As I mentioned, he has traveled 
extensively throughout Indian country to see and hear firsthand the 
challenges and issues that native communities face in addressing the 
various health concerns that they are confronted with. I support RADM 
Weahkee's nomination and give him my highest recommendation. For those 
of us committed to improving the delivery and quality of care in Indian 
Country, RADM Weahkee has been a huge blessing!
        Respectfully,
                     John Shufeldt, MD, JD, MBA, FACEP, CEO
                                 ______
                                 
                      Tule River Indian Tribe of California
                                                  November 12, 2019
    The Tule River Tribal Council of the Tule River Indian Tribe of 
California strongly supports the nomination of Rear Admiral (RADM) 
Michael D. Weahkee of the Zuni Indian Tribe, and ask that you support 
his confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                     Neil Peyron, Chairman.
                                 ______
                                 
                   Turtle Mountain Band of Chippewa Indians
                                                  November 20, 2019
    The Turtle Mountain Band of Chippewa Health Board strongly supports 
the nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni 
Indian Tribe, and ask that you support his confirmation as Director of 
the Indian Health Service (IHS) in the United States Department of 
Health and Human Services (HHS). RADM Weahkee has served as the 
Principal Deputy Director and Acting Director of the IHS for the past 
two and a half years, and in that time he has proven that he is capable 
and dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                              Jamle Azure, Tribal Chairman;
                  Nathan Davis, District Tribal Councilman;
           Patrlck J. Marcellais, Health Board Chairperson.
                                 ______
                                 
                                       Tucson Indian Center
                                                   December 2, 2019
    The Tucson Indian Center strongly supports the nomination of Rear 
Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask 
that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                          Jacob Bernal, Executive Director.
                                 ______
                                 
                   United American Indian Involvement, Inc.
                                                  November 22, 2019
    The United American Indian Involvement, Inc. (UAII) is a 501 c3 
nonprofit Urban Indian Health Organization that has been providing 
Health and Human Services to the American Indian/Alaska Native 
community that resides in the urban Los Angeles area since 1974. UAII 
strongly supports the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe, and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                     Eugene Martinez, MBA, Interim CEO/COO.
                                 ______
                                 
                  USET SPF Resolution No. 2020 SPF:011
  support for the confirmation of rear admiral michael d. weahkee as 
                 director of the indian health service
    WHEREAS, United South and Eastern Tribes Sovereignty Protection 
Fund (USET SPF) is an intertribal organization comprised of thirty (30) 
federally recognized Tribal Nations; and

    WHEREAS, the actions taken by the USET SPF Board of Directors 
officially represent the intentions of each member Tribal Nation, as 
the Board of Directors comprises delegates from the member Tribal 
Nations' leadership; and

    WHEREAS, the Indian Health Service (IHS) is obligated to provide 
healthcare services to American Indians and Alaska Natives (AI/ANs) in 
fulfillment of the federal government's trust responsibility; and

    WHEREAS, throughout his career, Rear Admiral Michael D. Weahkee, a 
citizen of the Pueblo of Zuni, has been a commendable advocate for AI/
ANs and ensuring our people have access to quality healthcare; and

    WHEREAS, beginning in June 2017, Rear Admiral Weahkee served as 
Acting IHS Director for a year before assuming his current role as IHS 
Principal Deputy Director; and

    WHEREAS, on October 22, 2019, Rear Adm. Weahkee was formally 
nominated by President Donald J. Trump to be permanent IHS Director; 
and

    WHEREAS, IHS has lacked permanent leadership since 2015; and

    WHEREAS, in December 2010, the United States recognized the rights 
of its First Peoples through its support of the United Nations 
Declaration on the Rights of Indigenous Peoples (UNDRIP), whose 
provisions and principles support and promote the purposes of this 
resolution; therefore, be it

    RESOLVED the USET SPF Board of Directors supports the appointment 
of Rear Admiral Michael D. Weahkee as permanent Director of the Indian 
Health Service; and be if further

    RESOLVED the USET SPF Board of Directors requests expeditious 
Senate confirmation of Rear Admiral Michael D. Weahkee as permanent 
Director of the Indian Health Service.

    CERTIFICATION

    This resolution was duly passed at the USET SPF Annual Meeting held 
on the Sovereign Territory of the Mississippi Band of Choctaw Indians 
at which a quorum was present on November 7, 2019.
                     Chief Kirk E. Francis, Sr., President;
                             Chief Lynn Malerba, Secretary.
                                 ______
                                 
                         Urban Inter-Tribal Center of Texas
                                                  November 13, 2019
    The Urban Inter-Tribal Center of Texas would like to offer our 
support for the nomination of Rear Admiral (RADM) Michael D. Weahkee of 
the Zuni Indian Tribe, and ask that you support his confirmation as 
Director of the Indian Health Service (IHS) in the United States 
Department of Health and Human Services (HHS). RADM Weahkee has served 
as the Principal Deputy Director and Acting Director of the IHS for the 
past two and a half years, and in that time he has proven that he is 
capable and dedicated to improving the Agency and raising the physical, 
mental, social and spiritual health of American Indians and Alaska 
Natives to the highest level.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                          Robert Brady Malone MD, MBA, CEO.
                                 ______
                                 
                   Veronica A. Moody, MS gt, USAF (Retired)
                                                  November 20, 2019
    I, Veronica A. Moody strongly support the nomination of Rear 
Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask 
that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    I had the pleasure of serving with Michael when we were both 
stationed at Offutt, Air Force Base in Nebraska. Michael was always 
very knowledgeable and a productive member of our team. As a young 
airman, he was well respected as a diligent and thorough food and 
public facility inspector was known to have impressive ideas and self-
driven to take on program tasks with impressive results.
    I have had the pleasure of following his career after he separated 
from the Air Force and had no doubts that he would succeed in any path 
he chose to follow. I am proud to have served with him and I believe 
his confirmation as Director of the Indian Health Service is a natural 
fit and he will serve in a spectacular capacity in this role. Thank you 
for your strong consideration of this endorsement.
        Respectfully,
                  Veronica A. Moody, MS gt, USAF (Retired).
                                 ______
                                 
                                  Walker River Paiute Tribe
                                                  November 25, 2019
    The Walker River Paiute Tribe strongly supports the nomination of 
Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
ask that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                    Amber Torres, Chairman.
                                 ______
                                 
                                             Ilda Aharonian
                                                   December 5, 2019
    I, Ilda Aharonian, strongly support the nomination of Rear Admiral 
(RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask that you 
support his confirmation as Director of the Indian Health Service (IHS) 
in the United States Department of Health and Human Services (HHS). 
RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years, and in that time 
he has proven that he is capable and dedicated to improving the Agency 
and raising the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                      Ilda Aharonian, Ph.D.
                                 ______
                                 
                                      AI/AN Health Partners
                                                   December 5, 2019
    The AI/AN Health Partners, a coalition of health organizations 
dedicated to improving health care for American Indians and Alaska 
Natives (AI/ANs), strongly supports the nomination of Rear Admiral 
(RADM) Michael D. Weahkee of the Zuni Indian Tribe.
    RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS since 2017, and in that he has proven he is capable 
and dedicated to improving the Service and raising the physical, 
mental, social and spiritual health of American Indians and Alaska 
Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his Bachelor 
of Science in health care management from Southern Illinois University-
Carbondale, and both a Masters of Health Services Administration and 
Masters of Business Administration degree from Arizona State University 
in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
IHS in both the federal and tribal settings. He has served in the 
field, at the service unit and regional office level, as well as at IHS 
headquarters at the national level.
    RADM Weahkee has successfully led the Service forward in a very 
trying time, overseeing the development and implementation of a new 
five-year strategic plan for the Agency, the first in over a decade. He 
has pressed the IHS to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    He has traveled extensively throughout Indian country to see and 
hear firsthand the challenges and issues that native communities face 
in addressing the various health concerns that confront them. As a 
result, RADM Weahkee has moved the IHS forward in a positive manner 
during a short period of time.
    We strongly urge the Committee to confirm RADM Weahkee as Director 
of the Indian Health Service (IHS).
        Thank you for considering our request,
                American Association of Colleges of Nursing
               American Association of Colleges of Pharmacy
                            American Optometric Association
                  Association of American Indian Physicians
Commissioned Officers Association of the U.S. Public Health 
                                               Service, Inc
                                 ______
                                 
                           Paskenta Band of Nomlaki Indians
                                                  November 21, 2019
    The Paskenta Band of Nomlaki Indians strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                         Andrew Alejandre, Tribal Chairman.
                                 ______
                                 
                Southwest Oklahoma lntertribal Health Board
                                                   December 5, 2019
    The Southwest Oklahoma Intertribal Health Board passed the attached 
resolution supporting the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe, and asking that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). I am 
available if you or your staff have any questions or if follow up is 
needed, and appreciate your consideration for this very important 
position for American Indians that needs a permanent director.
                         resolution fy2020-004
    WHEREAS, the Southwest Oklahoma lntertribal Health Board was 
organized by constitution and by-laws and is comprised of seven (7) 
tribes in southwest Oklahoma that include the following tribes: Apache, 
Caddo, Comanche, Delaware, Fort Sill Apache, Kiowa and Wichita; AND

    WHEREAS, the Southwest Oklahoma lntertribal Health Board was 
established to provide an organized structure and to support in the 
development of existing and additional services being provided by the 
Lawton Service Unit; to cooperate with and seek the assistance of 
various federal and state agencies and other sources in furthering 
mutual programs designed to accomplish these purposes; to continuously 
promote the improvement of health services for the membership of tribes 
in this organization; and to enter into Memorandum of Agreement and 
contracts with Indian Health Service and other federal and state 
agencies; AND

    WHEREAS, the Lawton Service Unit encompasses ten counties in the 
southwestern corner of Oklahoma, where 25,000 members of the Caddo, 
Comanche, Delaware, Fort Sill Apache, Kiowa, Apache, and Wichita tribes 
are concentrated; AND

    WHEREAS, I.H.S. has lacked permanent leadership since 2015 and the 
United States has a unique and special relationship with AI/ANs and 
I.H.S. is obligated to provide health care services to Al/AN in 
fulfillment of the federal government's trust; AND

    WHEREAS, RADM Michael D. Weahkee, a citizen of the Pueblo of Zuni, 
has been nominated by President Trump on October 22, 2019, to be the 
permanent I.H.S. Director; AND

    WHEREAS, throughout his career, RADM Weahkee has been a commendable 
advocate for Al/Ans and ensuring our people have access to quality 
healthcare. RADM Weahkee has served as the Principal Deputy Director 
and Acting Director ofthe IHS for the past two and a half years, and in 
that time, he has proven that he is capable and dedicated to improving 
the Agency and raising the physical, mental, social and spiritual 
health of American Indians and Ala ska Natives to the highest level; 
AND

    WHEREAS, RADM Weahkee is a veteran of the United States Air force 
and American Indians and Alaska Natives service in the armed forces has 
been at a much higher rate than any other ethnicity, and providing the 
highest quality health care for our Al/AN veterans is a priority; AND

    WHEREAS, in December of 2010, the United States recognized the 
rights of its first Peoples through its support of the United Nations 
Declaration on the Rights of Indigenous Peoples (UNDRIP), whose 
provisions and principles support and promote the purposes of this 
resolution; AND

    WHEREAS, although the trust relationship requires the federal 
government to provide for the health and welfare of Tribal nations, the 
Indian Health Service remains chronically underfunded and AI/ANs suffer 
from among the lowest health status nationally; AND

    WHEREAS, RADM Weahkee has moved the Agency forward in a positive 
manner, and in a relatively short amount of time. He has traveled 
extensively throughout Indian country to see and hear firsthand the 
challenges and issues that native communities face in addressing the 
various health concerns that they are confronted with; AND

    NOW THEREFORE BE IT RESOLVED, that the tribal leadership of the 
Southwest Oklahoma lntertribal Health Board hereby supports the 
appointment of RADM Michael D. Weahkee as permanent Director of the 
Indian Health Service and request expeditious Senate confirmation as 
permanent Director of the Indian Health Service.

    CERTIFICATION

    The foregoing resolution was adopted by the Southwest Oklahoma 
lntertribal Health Board on December 5, 2019, by a vote of 4 for, 0 
against and 1 abstaining, a quorum being present.
                                   Lynda Delaune, Secretary
                                       Terri Parton, Chair.
                                 ______
                                 
                             DEPARTMENT OF VETERANS AFFAIRS
                                                   December 4, 2019
    I strongly support the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and he has proven that he 
is capable and dedicated to improving the Agency and raising the 
physical, mental, social and spiritual health of American Indians and 
Alaska Natives to the highest level.
    I have known RADM Weahkee for approximately 17 years as a 
professional colleague in the Indian healthcare system. RADM Weahkee's 
service to American Indian and Alaska Native people is remarkable. He 
has served in a variety of roles in the Indian healthcare system 
including urban Indian health programs, tribal health programs and the 
IHS Federal system. I had the opportunity to work with RADM Weahkee at 
the IHS Headquarters and I am confident he has the leadership qualities 
and dedication to lead the Agency.
    RADM Weahkee has successfully led the Agency as Principle Deputy 
Director, overseeing the development and implementation of a new five-
year strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee is a Veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his Bachelor 
of Science in Health Care Management from Southern Illinois University-
Carbondale, and both a Master of Health Services Administration and 
Master of Business Administration from Arizona State University in 
Tempe, Arizona.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
 David Clay Ward, MS, Office of Tribal Government Relations

                              Wichita and Affiliated Tribes
                                                   December 5, 2019
    The Wichita and Affiliated Tribes strongly supports the nomination 
of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and 
ask that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with.
    On a personal note, as a tribal leader who has worked directly with 
Admiral Weahkee on the Secretary's Tribal Advisory Committee (STAC), 
the Direct Service Tribes Advisory Committee (DST AC) and in various 
capacities over the last few years, as a tribal leader I am in support 
of his nomination. I offer the following comments in regards to support 
of his nomination:

  <bullet> Admiral Weahkee knows the Indian Health Service system.

  <bullet> An outsider to IHS would have to learn the Indian Health 
        Service system and would probably be less responsive to 
        resolving issues.

  <bullet> Admiral Weahkee provides stability.

  <bullet> Admiral Weahkee knows the Tribes and the needs of both the 
        Self-Governance and Direct Service Tribes.

  <bullet> Admiral Weahkee makes himself available to the Tribes.

  <bullet> While he can't always accommodate all of our requests, 
        Admiral Weahkee is responsive.

  <bullet> Finally, I would also hope that being appointed as the 
        director that he would be able to have a stronger voice in 
        working for the needs of our people like on the issues of the 
        need for advanced appropriations. Sometimes once someone moves 
        from acting to the actual director or position, they take more 
        ownership to the position and its success. *The resolution 
        attached has been retained in the Committee files.*
    Thank you for your strong consideration of this endorsement.
        Sincerely,
                                   Terri Parton, President.
                                 ______
                                 
           Association of American Indian Physicians (AAIP)
                                                  November 20, 2019
    The Association of American Indian Physicians (AAIP) strongly 
supports the nomination of Rear Admiral (RADM) Michael D. Weahkee of 
the Zuni Tribe for the office of Director of the Indian Health Service. 
Our Executive Board and Policy and Legislation Committee recently 
interviewed RADM Weahkee regarding his qualifications for the position 
and we were extremely pleased that he met our qualifications.
    RADM Weahkee is a veteran of the United States Air Force where he 
served as a public health specialist. He obtained his Bachelor of 
Science in health care management from Southern Illinois University-
Carbondale and both a Master of health services administration and 
Master of business administration from the Arizona State University in 
Tempe, Arizona.
    RADM Weahkee has served as Principal Deputy Director and Acting 
Director of the IHS since 2017. He has also served in the field at the 
service unit and regional office level as well as at IHS headquarters 
at the national level. Because of his many years of service in IHS, he 
has an intimate knowledge of the health status of American Indians and 
Alaska Natives throughout Indian country in the United States. He has 
proven that he is capable and dedicated to raising the health status of 
American Indians/Alaska Natives to the highest level. He also 
demonstrated an excellent knowledge of the complex health problems of 
American Indians/Alaska Natives as well as the IHS administrative 
structures caring for Indian people throughout the United States.
    RADM Weahkee has been overseeing the implementation of a new five 
year strategic plan for the IHS. It has been over a decade since the 
IHS has had a strategic plan. He has also addressed the unimplemented 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He has also implemented 
a new Office of Quality at the IHS headquarters level to ensure 
appropriate management oversight and accountability by the Area Offices 
and federal service unit hospitals and health centers.
    He has traveled extensively throughout Indian country and both seen 
and listened to the challenges and issues that Indian communities face 
in addressing the health concerns that Indian communities deal with. 
AAIP feels that RADM Weahkee has moved the IHS in a positive manner in 
a short period of time. The Association of American Indian Physicians 
strongly urges the Committee on Indian Affairs to confirm RADM Weahkee 
as Director of the Indian Health Service (IHS).
    Thank you for your time and consideration in this manner on behalf 
of AAIP members and we hope you consider our request.
        Respectfully Yours,
        Walter Hollow M.D., President/Chairman of the Board
                                 ______
                                 
                    Burrell College of Osteopathic Medicine
                                                  November 20, 2019
    The Burrell College of Osteopathic Medicine strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                 John L. Hummer, President.
                                 ______
                                 
     The Chippewa Cree Tribe of the Rocky Boy's Reservation
                                                  November 18, 2019
    The Chippewa Cree Business Committee strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                    Harlan Baker, Chairman.
                                 ______
                                 
     Commissioned Officers Association, U.S. Public Health 
                                                    Service
                                                   December 4, 2019
    It is my pleasure to support the nomination of RADM Michael D. 
Weahkee to become Director of the Indian Health Service. In my capacity 
as Executive Director of the non-profit, non-partisan organization that 
represents the uniformed officers of the US Public Health Service, I 
have gotten to know RADM Weahkee and have worked with him on Native 
American healthcare issues for the past five years, dating back to when 
he was at the Phoenix (AZ) Indian Medical Center, the largest hospital 
in the Indian Health Service.
    I know RADM Weahkee to be a capable and qualified administrator who 
cares deeply about the state of healthcare for our country's Indian 
population. He has been serving for the past two-plus years as 
Principal Deputy Director of the Indian Health Service and has done a 
superb job of running the agency as Acting Director.
    RADM Weahkee is an enrolled member of the Zuni Indian Tribe and has 
been assigned to the Indian Health Service as a PHS officer since 
entering the US Public Health Service in 1999 as a Lieutenant Junior 
Grade. He has always served in positions that called for higher-ranking 
officers, and his advancement to the rank of Rear Admiral in the USPHS 
is testimony to his extremely capable performance of duty.
    RADM Weahkee is passionate about the work of the Indian Health 
Service and would be in a better position to realize his vision of 
improved delivery of healthcare services to Native Americans if he were 
confirmed as Director of the Indian Health Service. I urge that he be 
given a favorable recommendation by your committee and that his 
nomination be forwarded to the full Senate for consideration.
        Respectfully,
      Col. James T. Currie, USA (ret.), Executive Director.
                                 ______
                                 
                    Hays Health Informatics Consulting, LLC
                                                  November 21, 2019
    I am writing to add my name to what I believe will be a chorus of 
others supporting the nomination of RADM Michael Weahkee to be 
confirmed as the Director of the Indian Health Service (IHS). I am 
pleased to support RADM Weahkee to fulfill this critical 
responsibility.
    I am a family physician and retired Commissioned Officer of the 
United States Public Health Service (USPHS). I served my entire USPHS 
career in the IHS from 1987 to 2014, in multiple locations and roles, 
including three years as the acting Director of the IHS Office of 
Information Technology (OIT) at IHS Headquarters in Rockville MD. In 
that role I reported directly to the Office of the IHS Director, and I 
am deeply familiar with the challenges and complexities faced by that 
person. I am also familiar with the risks and consequences of not 
having the right person in that role.
    I worked for IHS OIT from 2002 to 2014, and my path crossed with 
RADM Weahkee's at multiple points over those years. In all the years 
I've known Michael I've found him to be an officer of innate integrity, 
thoughtful, respectful, forward-thinking, and deeply committed to the 
mission of IHS. Since my retirement in 2014 I have remained in close 
contact with my former colleagues, and I follow with great interest the 
events at the agency.
    I was pleased to see RADM Weahkee elevated to the Acting Director 
and subsequently Principal Deputy Director role a couple of years ago. 
It has been gratifying (but not surprising) to observe how he and his 
leadership team have worked to address some very serious issues, and 
especially the progress he has made to restore trust and confidence on 
the part of the Tribes as well as federal staff nationwide. Having him 
begin a full term as IHS Director will instill an added sense of 
stability and further empower IHS to continue in a positive direction.
    As a physician I would like to emphasize that I have no qualms 
whatsoever about not selecting a doctor to be the IHS Director. This 
role is about leadership, compassion, respect, and above all, 
management, which includes a willingness to consult with and learn from 
the experts with which he has surrounded himself. Michael has plenty of 
outstanding clinicians at his disposal who will ensure that he has the 
expert healthcare-specific information he needs as Director.
    I urge you and your colleagues of both parties on the Senate 
Committee on Indian Affairs to act expeditiously and positively on this 
nomination. I thank you for the privilege of expressing my support.
        Cordially,
      G. Howard Hays, Jr, ME, MD, MSPH, CAPT (ret), USPHS, 
                               Founder/Principal Consultant
                                 ______
                                 
                                              Glinda Weddle
                                                   October 31, 2019
    I strongly support the nomination of Rear Admiral (RADM) Michael D. 
Weahkee of the Zuni Indian Tribe, and ask that you support his 
confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the Principal Deputy Director and Acting Director 
of the IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                             Glinda Weddle.
                                 ______
                                 
                     The Healing Lodge of the Seven Nations
                                                  November 18, 2019
    The Healing Lodge of the Seven Nations, a 93-638 Tribal entity, was 
established in 1988 to operate a nationally focused tribal residential 
45 bed ASAM 3.5 treatment facility providing chronic substance abuse 
and addiction, and co-occurring disorder intense clinical care services 
for Tribal youth (ages 13 through 17).
    The Healing Lodge's Board of Directors comprised of Tribal Council 
leaders from the Confederated Tribes of Colville Reservation, Coeur 
d'Alene Tribe, Confederated Tribes of Umatilla Indian Reservation, 
Kalispel Tribe of Indians, Spokane Tribe of Indians, the Nez Perce 
Tribe and Kootenai Tribe of Idaho who dedicate their time to build a 
successful and culturally focused evidence based program. A 3 year 
study conducted by Harvard Cambridge Institute found 80 percent of the 
graduated youth maintained recovery over a three year period utilizing 
evidenced based and cultural models.
    In June 2019, Rear Admiral Michael D. Weahkee visited the Healing 
Lodge to personally learn about the clinical and support services 
provided to the youth, the non-profit tribal programs unmet needs, and 
future program and facility expansion projects. He was very interested 
in the facility especially, the unmet needs resulting from the 
escalated utilization of Opioid use in the tribal adolescent 
population. It was refreshing to have someone of his stature visit the 
treatment center and to truly have an interest in the future of the 
Tribes, and their youth!
    The Healing Lodge of the Seven Nations which covers Washington, 
Oregon and Idaho strongly support the nomination of Rear Admiral (RADM) 
Michael D. Weahkee of the Zuni Indian Tribe, and asks that you support 
his confirmation as Director of the Indian Health Service (IHS) in the 
United States Department of Health and Human Services (HHS). RADM 
Weahkee has served as the P1incipal Deputy Director and Acting Director 
of IHS for the past two and a half years, and in that time he has 
proven that he is capable and dedicated to improving the Agency and 
raising the physical, mental, social and spiritual health of American 
Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his Bachelor 
of Science in Health Care Management from Southern Illinois University-
Carbondale, and both a Master of Health Services Administration and 
Master of Business Administration degrees from Arizona State University 
in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the HHS Indian Health Services forward in a 
positive manner, and in a relatively sho1i amount of time. He has 
traveled extensively throughout Indian country to see and hear 
firsthand the challenges and issues that native communities face in 
addressing the various health concerns that they are confronted with.
    In conclusion, I respectfully thank you for your strong 
consideration of this endorsement. If you have any questions or require 
any additional information, please do not hesitate to call upon me at 
any time.
        Respectfully,
                        Rebecca Crocker Executive Director.
                                 ______
                                 
                         Hopi Tribe of Northeastern Arizona
                                                   November 4, 2019
    The Hopi Tribe of Northeastern Arizona strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                          Timothy L. Nuvangyaoma, Chairman.
                                 ______
                                 
                                             Hualapai Tribe
                                                   October 31, 2019
    The Hualapai Tribe strongly supports the nomination of Rear Admiral 
(RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask that you 
support his confirmation as Director of the Indian Health Service (IHS) 
in the United States Department of Health and Human Services (HHS). 
RADM Weahkee has served as the Principal Deputy Director and Acting 
Director of the IHS for the past two and a half years, and in that time 
he has proven that he is capable and dedicated to improving the Agency 
and raising the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                  Philbert Watahomigie, Sr., Vice Chairman.
                                 ______
                                 
                                              Navajo Nation
                                                   November 2, 2019
    On behalf of the Navajo Nation, we strongly support the nomination 
of Rear Admiral (RADM) Michael D. Weahkee, of the Pueblo of Zuni, and 
ask your support of his confirmation as Director of the Indian Health 
Service (IHS) under the United States Department of Health and Human 
Services (HHS). RADM Weahkee served as the Principal Deputy Director 
and Acting Director of the IHS for the past two and a half years, and 
in the past year he has always provided his time to meet with us to 
discuss critical issues for our Nation and moved our issues forward 
with care to ensure all issues were addressed to the satisfaction of 
all involved.
    RADM Weahkee is a decorated public servant and veteran of the 
United States Air Force. He is the recipient of four IHS National 
Director's Awards, three outstanding service medal awards, a 
Presidential Unit Citation, and is recognized for other notable career 
and military service achievements. He obtained his bachelor of science 
in healthcare management degree from Southern Illinois University-
Carbondale, and a master of health services administration and master 
of business administration degree from Arizona State University in 
Tempe, Arizona.
    RADM Weahkee's career assignments over the last 20 years are with 
IHS. He has aimed at improving the delivery of healthcare services in 
Indian Country; consistently hitting the mark of improved service 
delivery.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care at the tribal and Federal levels. This 
experience is valuable in knowing the health care system needs of 
Native Americans. No other qualified Native American has this 
experience and this makes RADM Weahkee exceptionally fit for this 
important role. We fully support RADM Weahkee's nomination and urge 
confirmation as the Director of the Indian Health Service.
        Sincerely,
                                   Jonathan Nez, President;
                               Myron Lizer, Vice-President.
                                 ______
                                 
                         Pokagon Band of Potawatomi Indians
                                                  November 21, 2019
    The Pokagon Band of Potawatomi Indians strongly supports the 
nomination of Rear Admiral (RADM) Michael D. Weahkee of the Zuni Indian 
Tribe, and ask that you support his confirmation as Director of the 
Indian Health Service (IHS) in the United States Department of Health 
and Human Services (HHS). RADM Weahkee has served as the Principal 
Deputy Director and Acting Director of the IHS for the past two and a 
half years, and in that time he has proven that he is capable and 
dedicated to improving the Agency and raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with. Thank you for your strong 
consideration of this endorsement.
        Respectfully,
                                   Matthew Wesaw, Chairman.
                                 ______
                                 
                                           Pueblo of Sandia
                                                  November 14, 2019
    The Pueblo of Sandia strongly supports the nomination of Rear 
Admiral (RADM) Michael D. Weahkee of the Zuni Indian Tribe, and ask 
that you support his confirmation as Director of the Indian Health 
Service (IHS) in the United States Department of Health and Human 
Services (HHS). RADM Weahkee has served as the Principal Deputy 
Director and Acting Director of the IHS for the past two and a half 
years, and in that time he has proven that he is capable and dedicated 
to improving the Agency and raising the physical, mental, social and 
spiritual health of American Indians and Alaska Natives to the highest 
level.
    RADM Weahkee is a veteran of the United States Air Force, where he 
served as a military public health specialist. He obtained his bachelor 
of science in health care management degree from Southern Illinois 
University-Carbondale, and both a master of health services 
administration and master of business administration degree from 
Arizona State University in Tempe, Arizona.
    RADM Weahkee has served in a variety of different roles within the 
Indian Health system of care, including in both the federal and tribal 
setting. He has served in the field, at the service unit and regional 
office level, as well as at IHS headquarters at the national level. 
RADM Weahkee has successfully led the Agency forward in a very trying 
time, overseeing the development and implementation of a new five year 
strategic plan for the Agency, the first in over a decade. He has 
pressed the Agency forward to address long-standing and unimplemented, 
external oversight recommendations from the Government Accountability 
Office and the HHS Office of Inspector General. He established and 
implemented a new Office of Quality at the IHS Headquarters level, to 
ensure appropriate management oversight and accountability by the Area 
Offices and federal service unit hospitals and health centers. In 
partnership with the Administration for Native Americans Commissioner, 
RADM Weahkee revitalized the HHS Intradepartmental Council on Native 
American Affairs, to provide a forum internally at HHS to discuss the 
needs and interests of Indian country.
    RADM Weahkee has moved the Agency forward in a positive manner, and 
in a relatively short amount of time. He has traveled extensively 
throughout Indian country to see and hear firsthand the challenges and 
issues that native communities face in addressing the various health 
concerns that they are confronted with.
    The following is a list of issues that the Pueblo's Health Center 
continues to have with IHS as most relates to Information Technology 
(IT):

  <bullet> Tech Support--If and when Health Center needs immediate 
        assistance with IT related items, Health Center reaches out to 
        IT with IHS but there tends to be delays and/or direction to 
        consult with our contracted CAC

  <bullet> Tribal 638 Clinic do not have local domain rights to manage 
        user accounts and/or computer accounts. Requests are sent but 
        once again response times are lengthy and/or no response at 
        all.

  <bullet> For any support, including IT, Federal sites take priority 
        followed by Urban and then finally Tribal. This of course and 
        once again, delays such requests and at times our Health Center 
        gets minimal and/or no support.

  <bullet> Health Center is told they have shares (Tiers I/II/III) left 
        with IHS but no full details are given to how much and what 
        those shares consists and/or cover.

    Thank you for your strong consideration of this endorsement.
        Sincerely,
                                     Isaac Lujan, Governor.
                                 ______
                                 
                                              Quapaw Nation
                                                  November 20, 2019
    On behalf of the Quapaw Nation, I am writing to express strong 
support for Rear Admiral Michael D. Weahkee to be the next Director of 
the Indian Health Service (IHS) in the U.S. Department of Health and 
Human Services.
    Rear Admiral Weahkee is a member of the Zuni Indian Tribe and a 
veteran of the United States Air Force. He currently serves as 
Principal Deputy Director of the IHS and has previously served in 
various capacities in the IHS, including as Executive Officer for the 
Office of Clinical and Preventive Services; Director of the Management 
Policy and Internal Control Staff office; and as Deputy Director for 
Personnel Functions in the Office of Management Services.
    As you know all too well, the IHS is a troubled agency and is 
struggling to provide adequate care and service to the 2.2 million 
American Indians and Alaska Natives it serves. In short, the IHS is in 
dire need of reform and strong leadership and Rear Admiral Weahkhee is 
the right man at the right moment.
    For those reasons, the Quapaw Nation is pleased to support the 
nomination of Rear Admiral Weahkee to be the next Director of the IHS, 
and urges swift approval of his nomination by the Senate Committee on 
Indian Affairs and the full Senate.
    Thank you for your consideration of my request.
        Sincerely,
                                  John L. Berrey, Chairman.
                                 ______
                                 
                               National Indian Health Board
                                                   December 6, 2019
    On behalf of the National Indian Health Board (NIHB), I write today 
in strong support of the nomination of Rear Admiral (RADM) Michael D. 
Weahkee to serve as the Director of the Indian Health Service (IHS). In 
his current capacity as Principal Deputy Director, RADM Weahkee has 
demonstrated solid and capable leadership, determination, and 
commitment to honoring the federal Trust responsibility for health and 
towards raising the health status of AI/AN Peoples to the highest 
level. NIHB is confident that he will demonstrate similar resolve and 
fortitude as Director, and will continue to strengthen the government-
to-government relationship between IHS and Tribal Nations.
    Established in 1972, NIHB is a national, inter-Tribal organization 
that advocates on behalf of all federally-recognized Tribal governments 
for the fulfillment of federal Trust and Treaty obligations to deliver 
health care and public health services to all AI/AN Tribes and Peoples. 
NIHB is governed by a Board of Directors consisting of elected or duly 
appointed Tribal representatives from all twelve IHS Areas. In our 
capacity as the only national Tribal organization dedicated exclusively 
to addressing Tribal health care and public health priorities, NIHB has 
had extensive opportunity to work closely with RADM Weahkee and gauge 
his qualifications for IHS Director.
    RADM Weahkee has successfully led IHS during highly turbulent and 
trying periods. For instance, during the most recent 35-day federal 
government shutdown--the longest in U.S. history--RADM Weahkee 
maintained open communication channels with Tribal governments and 
organizations providing timely updates, documenting Tribal challenges 
and concerns, and extending available resources to mitigate the 
shutdown's impact on AI/AN communities. In this same vein, RADM Weahkee 
has traveled extensively throughout Indian Country to meet one-on-one 
with Tribal leaders and learn first-hand about the unique obstacles 
Tribes face in addressing health disparities to help inform IHS's 
strategic priorities. Recently, RADM Weahkee announced that IHS has 
made significant progress in securing an exceptional apportionment from 
the Office of Management and Budget (OMB) to help alleviate the adverse 
impacts of continuing resolutions (CR) on the agency's ability to meet 
its fiscal obligations to Tribal governments.
    In addition, he has proven to be thoughtful and collaborative in 
his leadership approach by establishing closer partnerships with other 
federal agencies to better leverage resources for Tribes and break down 
federal silos. For instance, RADM Weahkee joined with the Commissioner 
of the Administration for Native Americans, Jeannie Hovland, to revamp 
the Department of Health and Human Services (HHS) Interdepartmental 
Council on Native American Affairs so that HHS agencies are working 
more in tandem to address Tribal health priorities.
    Further, he has taken important strides to fortify IHS's 
relationship with its multiple Tribal advisory committees (TACs), such 
as by personally attending TAC convenings to build stronger Tribal 
connections, and by ensuring IHS is providing meaningful and timely 
responses to TAC recommendations. Similarly, under his leadership, the 
quality of IHS-led consultation and listening sessions have improved, 
as RADM Weahkee has displayed a great willingness to integrate Tribal 
feedback and priorities into IHS's policy development.
    Importantly, RADM Weahkee has prioritized addressing many of IHS's 
long-standing and destabilizing quality of care issues. Under his 
leadership, IHS has acted on recommendations from the Office of 
Inspector General and the Government Accountability Office to establish 
an Office of Quality within IHS Headquarters to improve oversight and 
accountability of IHS Area Offices and facilities. In addition, he 
effectively shepherded the development and implementation of a new 
five-year strategic plan for the agency--the first in over a decade--
and is actively partnering with Tribes to update the agency's Tribal 
consultation policy.
    Overall, RADM Weahkee has proven to be an adept and inclusive 
leader who has earned the trust and confidence of Tribal Nations. For 
these reasons, NIHB strongly supports his confirmation as the next 
Director of IHS.
        Yours in Health,
    Victoria Kitcheyan, Chairperson.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                    Rear Admiral Michael D. Weahkee
Ethics
    Question 1. An ethics agreement dated October 5, 2017 revealed you 
have oversight authority over two family members--your wife, Dr. Rose 
Weahkee, and your brother, Mr. Tim Weahkee. In this agreement, you 
agreed to recuse yourself from situations where either family member is 
a party and any personnel or financial decisions involving them. 
However, your nomination ethics agreement letter signed October 31, 
2019, makes no mention of this potential conflict of interest or your 
continued recusal from matters related to your wife and brother. If 
confirmed, will you continue to recuse yourself from matters relating 
to your wife and brother as outlined in your October 5, 2017 recusal?
    Answer. Yes, if confirmed I will continue to recuse myself from 
matters related to my wife and brother as outlined in my October 5, 
2017 recusal.

    Question 1a. Do IHS employees know about your recusal and how to 
report potential violations?
    Answer. A select subset of the 15,400 Indian Health Service (IHS) 
employees are aware of my recusal, including all members of IHS senior 
staff, our administrative support team, the human resources and program 
integrity and ethics staff, and the supervisors of both my spouse and 
my brother. The instructions for how to route items of potential 
conflict are included within the recusal (see Attachment A) and 
potential violations would be reportable to the Department of Health 
and Human Services (HHS) Secretary and Office of Inspector General.

    Question 1b. Have you informed Tribes and urban Indian 
organizations about your recusal and who they should contact with 
questions regarding the scope of the recusal or with potential 
concerns? And, if not and if confirmed, will you commit to doing so?
    Answer. Tribes and Urban Indian Organizations have not been 
provided with a copy of the recusal as the issues related to the 
recusal are generally internal in scope to the federal government. I am 
recused from participating in matters that could potentially 
financially benefit my spouse or my brother. This includes matters like 
pay raises, selection for promotions, cash awards, etc. I have no 
objection to Tribes and urban Indian organizations being made aware of 
the recusals. All matters related to my spouse or brother are to be 
referred to the IHS Deputy Director, RADM Chris Buchanan, and I am not 
to be involved in any discussions pertinent to either of my relatives.

Tribal Sovereignty and Consultation

    Question 2. What is your understanding of the U.S. trust and treaty 
responsibilities to Indian Tribes--specifically regarding the provision 
of healthcare?
    Answer. There is a general trust relationship between the United 
States and Indian people. United States v. Mitchell, 463 U.S. 206, 225 
(1983)). For a specific responsibility (also called duty or obligation) 
to exist, Congress must act through statute to require specific duties 
of the United States in the administration of Indian resources. The 
benefits extended to Indian people based on their status as Indians 
have been defined as a political relationship rather than a racial 
classification.
    Some treaties between the United States government and Indian 
tribes call for the provision of medical services, the services of 
physician(s), or the provision of hospital(s) for the members of the 
signatory tribe(s).
    Congress has acted to provide IHS with broad authority to provide 
health care services to Indian people. The Snyder Act of 1921 (25 
U.S.C.  13) and the Indian Health Care Improvement Act (25 U.S.C.   
1601-1685) authorize IHS programs and provide specific legislative 
authority for Congress to appropriate funds specifically for the health 
care of Indian people. Because of the broad nature of these authorities 
and the Congressional appropriations for IHS, IHS does not operate 
under a trust responsibility. See, e.g., Lincoln v. Vigil, 508 U.S. 182 
(1993). IHS remains committed to carrying out its statutory authorities 
in order to elevate the health status of Indian people.

    Question 3. If confirmed, will you commit to doing everything in 
your authority to ensure that all federal trust and treaty 
responsibilities are not only upheld, but strengthened?
    Answer. I am committed to carrying out IHS's authorities in order 
to elevate the health status of Indian people.

    Question 4. If confirmed, will you commit to engaging in meaningful 
government-to-government Tribal consultation?
    Answer. Yes, if confirmed I commit to engaging in meaningful 
government-to-government Tribal consultation.

    Question 5. If confirmed, please describe how you will ensure 
Tribal views expressed during consultation inform IHS policies and your 
own advocacy within the Department of Health and Human Services and the 
executive branch as a whole.
    Answer. The importance of tribal consultation has been affirmed 
through Presidential Memoranda and Executive Order. The IHS conducts a 
variety of consultation activities with tribal leaders and 
representatives of tribal governments, including national meetings, 
regional inter-tribal consultation sessions, individual tribal 
delegation meetings, area consultation sessions, and tribal advisory 
workgroups. Tribal leaders and representatives also play an important 
role in the IHS budget formulation process and setting health 
priorities at the national and regional levels.
    The increased involvement of tribes in advising and participating 
in the decisionmaking process of the agency has resulted in stronger 
collaborations between the federal government and tribal governments; 
innovations in the management of programs; and important issues being 
brought forward for consideration by IHS, the administration, and 
congress in a timely fashion. If confirmed, I will faithfully serve as 
the principal health advocate for American Indians and Alaska Natives 
both within the department and throughout the executive branch of 
government, and I will ensure that the viewpoints of tribes are made 
known throughout government.
Urban Indian Health
    Question 6. In its report accompanying the reauthorization of the 
Indian Health Care Improvement Act in 1988, the Committee stated, ``The 
responsibility for the provision of health care, arising from treaties 
and laws. . .does not end at the boarders of an Indian reservation.'' 
This is still the policy of the U.S. government. If confirmed, will you 
commit to ensuring IHS upholds its trust and treaty responsibilities 
for American Indians and Alaska Natives who live in urban areas and 
outside of Indian country?
    Answer. I am committed to carrying out IHS's authorities in order 
to elevate the health status of Indian people.

    Question 6a. If confirmed, will you commit to conferring with urban 
Native communities?
    Answer. Yes, if confirmed I commit to conferring with urban Indian 
organizations.

    Question 7. What is your view of the Indian Health Service's role 
in supporting Urban Indian Organizations?
    Answer. The IHS provides a comprehensive health service delivery 
system for approximately 2.6 million of the nation's estimated 3.7 
million American Indians and Alaska Natives. The 2010 Census reported 
78 percent of American Indians and Alaska Natives live in urban areas. 
\1\
---------------------------------------------------------------------------
    \1\ The American Indian and Alaska Native Population. U.S. Census 
Bureau. Accessed January 3, 2020, at: http://www.census.gov/prod/
cen2010/briefs/c2010br-10.pdf.
---------------------------------------------------------------------------
    The Indian Health Care Improvement Act (IHCIA), (25 U.S.C.  1602) 
declares that ``it is the policy of this Nation. . .to ensure the 
highest possible health status for Indians and urban Indians.'' The IHS 
provides contracts and grants to 41 urban-centered, nonprofit Urban 
Indian Organizations (UIOs) providing health care services at 59 
locations in 22 states throughout the United States. The IHS, through 
the Office of Urban Indian Health Programs (OUIHP), provides oversight 
of the grants and contracts to UIOs, with the purpose of making health 
services more accessible to urban Indians. UIOs are evaluated annually 
in accordance with the IHCIA requirements; and based on best-practice 
standards for delivering safe and high quality health care. The IHS 
works in partnership with UIOs to improve the transparency and the 
quality of data collected regarding health care services and program 
outcomes.
    The UIOs define their scopes of services based upon the service 
population, health status, and the documented unmet needs of the urban 
Indian communities they serve. The 41 programs engage in a variety of 
culturally appropriate activities to increase access to quality health 
care services for urban Indians. These services range from the 
provision of outreach and referral services to the delivery of limited 
and comprehensive ambulatory health care as well as residential and 
outpatient substance abuse treatment programs.
    The IHS also currently awards 33 4-in-1 grants to UIOs. The 4-in-1 
grant program provides funding to UIOs to ensure comprehensive, 
culturally acceptable personal and public health services are available 
and accessible to urban Indians. The grants provide funding for four 
health program areas: (1) health promotion and disease prevention 
services, (2) immunization services, (3) alcohol and substance abuse 
related services, and (4) mental health services. Grantees integrate 
cultural interventions and implement practice-based and evidence-based 
approaches to meet urban Indian service population needs.
    The IHCIA Title V funds are but one source of funding for UIOs. 
Most UIOs obtain supplemental resources from other federal, state, 
local, and private sources. The IHS has implemented HHS priorities 
directed at ensuring accountability and provision of high quality 
health services for the urban Indian population served by the IHS. 
Based on special provisions for Indians in the Patient Protection and 
Affordable Care Act (PPACA) and the IHCIA, the IHS continues to work 
towards the expansion of health care coverage and quality services for 
the underinsured and underserved urban Indian population. The primary 
area of focus involves aligning with the PPACA health insurance 
marketplace to increase the number of urban Indians served, enhance 
revenues, and improve quality of care and customer service. This 
includes the development of new approaches and the refining of proven 
processes for coordinated care services, supports, and networks as 
valued and essential services.
    The IHCIA, as amended, also requires that the IHS confer with UIOs 
to the maximum extent practicable. Confer means engagement in an open 
and free exchange of information and opinions leading to mutual 
understanding and comprehension and emphasizing trust, respect, and 
shared responsibility. The IHS has utilized the confer process to seek 
input from UIOs on urban Indian health matters and published a confer 
policy in the Indian Health Manual (IHM). \2\
---------------------------------------------------------------------------
    \2\ IHM, Part 5, Chapter 26, Conferring with Urban Indian 
Organizations, available at https://www.ihs.gov/IHM/
index.cfm?module=dsp_ihm_pc_p5c26.
---------------------------------------------------------------------------
    Our partnerships and relationships with UIOs are critical to our 
success and supports the IHS mission of raising the physical, mental, 
social and spiritual health of American Indians and Alaska Natives to 
the highest level. Performance of the mission regarding urban Indian 
health significantly depends on the efforts of the IHS working in 
unison with UIOs on a wide range of issues. These include engaging UIOs 
on matters that impact urban Indians and ensuring that the funding and 
resources are available to UIOs to provide health care services to 
urban Indians.
    The OUIHP, working with the IHS Area Offices and other Headquarters 
program offices, works in partnership with UIOs to advance urban Indian 
health priorities and initiatives. A significant role for the OUIHP is 
education about the role of the UIOs and improving the integration of 
urban Indian considerations in IHS policies and procedures and across 
the Department of Health and Human Services (HHS) as well as other 
federal agencies. The IHS works to educate and inform partners about 
urban Indian health matters, identify challenges that limit access to 
health care, and works in partnership with UIOs to support health care 
solutions that fit the diverse circumstances of urban Indians and the 
tribal communities they serve.

    Question 8. What do you believe are some of the major health care 
barriers for American Indians and Alaska Natives residing in urban 
areas? How do you think IHS can help address the barriers you 
identified?
    Answer. Urban Indians not only share the same health problems as 
the general Indian population, their health problems are exacerbated in 
terms of mental and physical hardships because of the lack of family 
and traditional cultural environments. Urban Indian youth are at 
greater risk for serious mental health and substance abuse problems, 
suicide, increased gang activity, teen pregnancy, abuse, and neglect. 
Recent studies of the urban Indian population document poor health 
status and reveal that lack of adequate health care services are a 
serious problem for most families. This is reflected in the 2004 
report, ``The Health Status of Urban American Indians and Alaska 
Natives: An Analysis of Select Vital Records and Census Data Sources.'' 
\3\ The report, which was limited to the counties served by Title V 
funded UIOs, demonstrated that although progress had been made toward 
better health among this population, substantial health disparities 
continue to exist when compared to the general population.
---------------------------------------------------------------------------
    \3\ Urban Indian Health Institute (March 16, 2004), available at 
http://www.uihi.org/wp-content/uploads/2017/08/
2004healthstatusreport.pdf.
---------------------------------------------------------------------------
    The 41 UIOs are an integral part of the Indian health care system 
and serve as resources to both tribal and urban communities. Urban 
Indians are often invisible in the urban setting and face unique 
challenges when accessing health care. A large proportion of urban 
Indians live in or near poverty and face multiple barriers such as the 
lack of quality and culturally relevant health care services in cities. 
UIOs are an important support to urban Indians seeking to maintain 
their tribal values and cultures and serve as a safety net for our 
urban patients. Social determinants of health play a key role in health 
and wellness and UIOs are addressing a range of factors which 
contribute to improved health outcomes. While the UIOs are diverse in 
geographic area, size, services offered, and funding strategy, they 
share a commitment to providing culturally competent health care to a 
population that is impacted by socioeconomic disparities, including 
lower incomes, higher unemployment, and lower levels of educational 
attainment.
    Urban Indians present a unique morbidity and mortality profile. 
Urban Indian populations suffer disproportionately higher mortality 
from certain causes in sharp contrast to mainstream society. Leading 
health care conditions for urban Indians are substance abuse, heart 
disease, cancer, infant mortality, accidents and external causes, 
diabetes, and cerebrovascular disease. \4\
---------------------------------------------------------------------------
    \4\ Indian Health Service, Report to Congress: New Needs Assessment 
of the Urban Indian Health Program and the Communities it Services at 
10 (Mar. 31, 2016) (hereinafter New Needs Assessment), available at 
https://www.ihs.gov/sites/urban/themes/responsive2017/display_objects/
documents/ReportToCongressUrbanNeedsAssessment.pdf.
---------------------------------------------------------------------------
    Urban Indian populations are more likely to engage in health risk 
behaviors. Urban Indians are more likely to report heavy or binge 
drinking than all-race populations and urban Indians are 1.7 times more 
likely to smoke cigarettes. Urban Indians more often view themselves in 
poor or only fair health status, with 22.6 percent reporting fair/poor 
health as compared to 14.7 percent of all races reporting as fair/poor. 
\5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
    These unique challenges require a targeted response. I believe that 
the IHS can target more of its resources towards the development of 
culturally relevant programming that includes traditional Indian 
health, social support network development, education regarding trauma-
informed care, etc. Culturally competent care is particularly important 
in an urban environment where Indian culture may be absent in the daily 
lives of many urban Indians. The UIOs provide an important connection 
to Indian culture. Care in a trusted and supportive environment can be 
critically important to positive health outcomes. We can also partner 
with sister agencies throughout government to support language 
preservation, faith-based initiatives and to address other social 
determinants of health (lack of stable housing, lack of economic 
opportunity, lack of transportation, etc.). The ability of UIOs to 
deliver health care services relies on key partnerships with other 
federal agencies, as well as states, local governments, insurers, and 
foundations that fund UIOs; non-profit organizations that provide 
advocacy, timely information, technical assistance, and training; and 
Tribes, which in some cases, operate health care programs that may 
partner with, receive referrals from UIOs, or provide referrals to 
UIOs. IHS can support UIOs in their efforts to address key challenges 
for improving and expanding their capacity to provide access to 
quality, culturally competent health services for urban Indians.
Substance Abuse and Opioids
    Question 9. In September 2018 remarks before the HHS Secretary's 
Tribal Advisory Committee, you stated: ``Another challenge we must work 
together to overcome is the opioid crisis that is affecting our Tribal 
communities. . .As with this plan and all other IHS initiatives around 
substance use, collaboration with Tribes is fundamental.'' In what ways 
do you feel the federal government could improve its support for 
addressing the opioid and substance abuse challenges facing Indian 
country?
    Answer. The IHS appreciates the Committee's recognition of the 
disproportionate impact of the opioid crisis on tribal communities and 
willingness to foster ongoing collaborations to leverage available 
resources to address the broader substance use crisis facing Indian 
country. The invaluable feedback that IHS has received through formal 
tribal consultation and urban confer has informed the internal IHS 
opioid response and contributed to the creation of a comprehensive 
strategic plan to assist tribes with addressing gaps and increasing 
access to medication assisted treatment (MAT) services, enhancing harm 
reduction efforts, and improving IHS opioid stewardship activities. 
Yet, challenges remain.
    Tribal communities have expressed the need for dedicated funding 
streams to improve local response capacity, expand access to treatment 
and recovery services, and to improve substance use prevention efforts; 
explicitly tribes have voiced the need for increased budget 
appropriations to assist these programming efforts. Additionally, the 
IHS acknowledges the recent Administration announcement to increase 
funding for states to combat the opioid crisis. The IHS recommends that 
states be explicitly instructed to consult with tribal communities on 
the use of this funding to ensure that available state resources are 
available to assist tribes with addressing local challenges related to 
substance use disorders. The IHS has learned through tribal 
consultation of the need to expand healthcare infrastructure to improve 
aftercare services, increase access to medically assisted 
detoxification services, and to improve access to transitional housing 
or sober living facilities.
    The IHS has appreciated the ongoing collaboration with Substance 
Abuse and Mental Health Services Administration partners to address the 
challenges created by the requirements of 42 CFR Part 2 and the 
barriers to increasing access to integrated MAT models in primary care 
across IHS, tribal, and urban health programs. IHS is willing to 
provide technical assistance upon request should legislative 
improvements to 42 CFR Part 2 be considered in the future.
    The IHS has also received important feedback from tribal 
communities on the opportunity to improve acceptance of traditional 
Indian health practices across the federal government and within 
states. Federal support for broad awareness of traditional Indian 
health practices may further assist tribes with increasing access to 
these treatment and prevention interventions.
    The IHS also recognizes a need for improved Federal collaboration 
between agency and tribes to improve the availability of data and 
improve data integrity to create effective public health surveillance 
strategies. Available Centers for Disease Control and Prevention, 
Agency for Healthcare Research and Quality, and Centers for Medicare 
and Medicaid Services data sets may be better leveraged to further 
understand the impact of substance use on tribal communities.
    The IHS recognizes recent federal efforts to direct grant funding 
and focus intervention strategies to strengthen families and promote 
community wellness. The IHS recommends continued efforts for criminal 
justice reforms that reduce child out of home placements (where safe 
and appropriate to do so) that can impact long-term psycho-social 
wellness.

    Question 9a. Under your leadership as Acting Director and Principle 
Deputy Director, how has Tribal consultation informed the Service's 
development of strategies to effectively address the opioid crisis in 
Indian Country?
    Answer. IHS received $10 million in fiscal year 2019 funding under 
the Special Behavioral Health Pilot Program (SBHPP) for Indians to be 
targeted at opioid specific activities. The conference report language 
stated that this grant program be developed after tribal consultation. 
IHS coordinated tribal consultation and urban confer activities with 
the IHS Heroin, Opioid and Pain Efforts (HOPE) Committee and the IHS 
Opioid Coordinating Group. The consultation and confer sessions allowed 
for feedback on priorities, methodologies, and desired outcomes to be 
used in the selection and award process. One face-to-face consultation, 
four virtual consultations, and one urban confer session were completed 
between June 17, and July 31, 2019. In addition, written comments were 
accepted by both email and postal mail through the duration of the 
consultation and confer process, which ended on September 3, 2019.
    During the formal tribal consultation and urban confer sessions, 
the comments received represented a wide range of suggestions and 
several themes emerged, including the importance of program 
flexibility, which was noted in responses to all questions. Another 
major theme that came out of the consultation and confer was the desire 
to reduce the evaluation and reporting requirements for grantees. 
Additional highlights of the consultation and confer include requests 
for the SBHPP to focus on (1) culturally-responsive interventions and 
approaches, (2) increasing access to care, (3) funding for housing and 
transportation, (4) training and education on opioids and treatment 
options, (5) support for use of MAT and Naloxone as options, (6) 
competitive grants based on merit of proposals, including urban Indian 
organizations, (7) funding at levels high enough to provide services 
and impact the community, and (8) a limited set aside for national 
management.
    The tribal consultation and urban confer on the opioid grant 
funding informed the IHS funding plan, with plans to encourage the use 
of evidence-based interventions, traditional cultural practices, a 
combination of those, and to allow other novel approaches in the design 
of an applicant's pilot program. Additionally, in response to requests 
from Tribes, evaluation of the grants will be designed with an emphasis 
on local evaluation of the pilot program and an effort to reduce the 
burden of cross-site/national data collection. To assist Tribes with 
carrying out their projects and to ease the reporting burden, IHS will 
provide intensive programmatic technical assistance and support to 
grantees in developing, implementing and evaluating their pilot 
program.

    Question 10. According to reports from a number of Tribes, IHS has 
not been responsive to requests for opioids data. Many of these Tribes 
submitted their request several months ago--even submitting a FOIA 
request--but, to date, IHS has not furnished any data. Were you aware 
that Tribes are having difficulty obtaining opioid data?
    Answer. After discussing with my staff, I am aware that some tribes 
and tribal organizations have requested IHS provide opioid data (e.g., 
opioid use disorder to be used when applying for grant funding). In 
some cases, IHS is still working to provide the data and in other 
cases, IHS may have been unable to provide the data requested due to 
privacy law restrictions.

    Question 10a. If confirmed, will you commit to working with your 
leadership team to ensure Tribes have access to the public health data 
they need?
    Answer. Yes, if confirmed I commit to working with the IHS 
leadership team to help Tribes gain access to the public health data 
they need. IHS is committed to assisting tribes and tribal 
organizations, when possible, by providing data for decisionmaking and 
planning for health services, for use in applying for funding 
opportunities, and in response to Freedom of Information Act (FOIA) 
requests. The IHS Headquarters Privacy Officer reviews requests that 
are submitted through the FOIA process to determine how IHS can best 
provide the data requested. In some cases, tribes want data that is 
protected by the Privacy Act, the Health Insurance Portability and 
Accountability Act of 1996, and/or 42 CFR Part 2. In some cases, tribes 
can use county level opioid data available from their state. IHS is 
looking into alternative ways for tribes and tribal organizations to 
get needed data including working with the tribal epidemiology centers.
Nominee Questionnaire Clarifications
    Question 11. In response to questions A-9-12 and A-14, you directed 
the Committee to refer to your CV. Your CV indicates that you worked in 
the IHS's Office of Management Services from January, 2010, to 
November, 2012. While working with that office, your CV indicates that 
you served as the IHS liaison to the Office of the Inspector General, 
the Government Accountability Office (GAO), and the Office of Special 
Counsel. Please summarize your duties and responsibilities as the IHS 
liaison to these three external oversight offices.
    Answer. The IHS Liaison to these three external oversight offices, 
HHS Office of the Inspector General (OIG), the Office of Special 
Counsel (OSC), and the Government Accountability Office (GAO), is the 
primary point of contact in the IHS for each of the external 
authorities. The primary responsibilities for each Liaison is to:

  <bullet> Build positive relationships and knowledge within the IHS 
        regarding purpose and process of external authority oversight 
        activities, and with the external authority officials;

  <bullet> Receive and distribute to appropriate offices notices of new 
        audits, evaluations, studies and inspections;

  <bullet> Ensure that new engagement notices are promptly communicated 
        to and understood by program managers and senior leadership;

  <bullet> Coordinate internal staff planning and preparing for 
        entrance and exit conferences;

  <bullet> Ensure timely internal management of engagements, including 
        managing timely requests for information, and developing 
        progress reports and other official agency responses in 
        consultation with program managers; and

  <bullet> Ensure appropriate staff and senior management clearances of 
        all agency correspondence.

    Question 11a. If confirmed, how would your experience working as 
the IHS liaison to these three offices inform your work as IHS 
Director?
    Answer. I am committed to working positively and cooperatively with 
our external authorities, especially with the OIG, OSC and GAO. 
Consistent with that commitment, I have made it a priority for all IHS 
employees to build and sustain a positive relationship and to be 
responsive and cooperative in working with the OIG and the GAO. In 
2019, I issued guidance to all IHS employees on the benefits of having 
a positive and strong relationship with OIG and GAO in order to reduce 
the burden of the audits on the agency, make us aware of what may be 
coming in the future, and that auditors may be more responsive to our 
concerns.

    Question 12. Question A-9 asks you to detail your employment 
record. You directed the Committee to refer to your CV. Your CV 
indicates that you worked in IHS's Office of Management Services from 
January, 2010, to November, 2012, where you served as the IHS liaison 
to the GAO. During that period, GAO issued at least three reports on 
the Indian Health Service. \6\

    \6\ U.S. Gov't Accountability Office, GAO11-767, Indian Health 
Service: Increased Oversight Needed to Ensure Accuracy of Data Used for 
Estimating Contract Health Service Need (2011). U.S. Gov't 
Accountability Office, GAO-12-29, Indian Health Service: Continued 
Efforts Needed to Health Strengthen Responses to Sexual Assaults and 
Domestic Violence (2011). U.S. Gov't Accountability Office, GAO-12-446, 
Indian Health Service: Action Needed to Ensure Equitable Allocation of 
Resources for the Contract Health Service Program (2012).
---------------------------------------------------------------------------
    Regarding the status of recommendations from GAO-12-446, GAO 
reports: ``In October 2017, IHS officials provided information to us, 
which was not provided during the course of the original audit work. . 
.'' As the IHS liaison to GAO, were you responsible for providing 
information to inform GAO's audit work? If so, why was this information 
not shared with GAO at the time?
    Answer. As the GAO Liaison, I would have been involved in 
communicating to GAO the agency's responses. One of the important roles 
of an audit liaison is to ensure timely internal management of 
engagements, including managing timely requests for information, and 
developing progress reports and other official agency responses in 
consultation with program managers. The audit liaison is not intended 
to be the subject matter expert on the matters under audit, but rather 
to have sufficient knowledge of the agency and the audit process to 
facilitate information flow and timely agency responses.
    GAO works directly with staff throughout the agency during the 
course of any audit engagement, and GAO does not always identify the 
sources of specific information provided to them in their reports. It 
is not clear in the GAO's statement cited in this question, which 
information they received later that influenced or changed their 
conclusions in these recommendations.

    IHS did not withhold information from GAO during the course of this 
audit engagement. Rather, IHS provided GAO with information as the 
audit progressed, and especially after the audit was completed and IHS 
began working to resolve the GAO audit findings and open 
recommendations.
    Throughout the engagement, IHS explained to GAO that tribal 
consultation was an important factor in funding allocation decisions, 
and the consultation process for PRC funding allocations supported the 
methods currently used, notwithstanding GAO's opinion on the 
appropriate way to allocate funds. In 2017, IHS invited the GAO audit 
team to attend a tribal/federal workgroup meeting where this matter was 
discussed. At this meeting the assertions made by IHS were reinforced 
as to the position advocated by tribal representatives on PRC fund 
allocations. One aspect of the inflexibility of PRC fund allocations 
relates to the fact that a majority of PRC funds are included in Indian 
Self-Determination awards, and any reductions in base funding from 
previous years for these awards cannot be made unilaterally by IHS, and 
they must be agreed to by the tribal organization receiving the awards.

    Question 12a. Regarding the status of recommendations from GAO-12-
29, GAO issued five recommendations that it considers ``closed--
implemented.'' Recommendation 1 directs the IHS to clarify how the 
agency will support hospitals and staff in fulfilling the IHS sexual 
assault policy from the Indian Health Manual. Please provide an update 
on any changes or improvements to the IHS's sexual assault policy.
    Answer. IHS is committed to addressing the high rates of sexual 
violence among American Indians and Alaska Natives. \7\ The IHS Sexual 
Assault policy (Indian Health Manual (IHM) Part 3, Chapter 29) was 
updated on February 6, 2018. The purpose of this chapter is to 
establish the requirements for care following sexual assault at IHS 
hospitals, health centers, and health stations (also referred to as 
facilities). This policy requires all facilities to provide patients 
age 18 and older who present with a report of sexual assault access to 
timely, high-quality sexual assault services that are patient-centered 
and culturally sensitive using a trauma-informed care approach to 
promote healing, minimize trauma, and prevent re-traumatization. IHS 
policy and mandated reporting requirements for children age 17 and 
under who present to a facility with suspicion of sexual assault and 
abuse are outlined in the IHS Child Maltreatment policy (IHM Part 3, 
Chapter 36).
---------------------------------------------------------------------------
    \7\ Department of Justice. A National Protocol for Sexual Assault 
Medical Forensic Examinations: Adults/Adolescents, Second Edition 
(April 2013), available at https://www.ncjrs.gov/pdffiles1/ovw/
241903.pdf.
---------------------------------------------------------------------------
    The IHS also funds an annual contract with the International 
Association of Forensic Nurses with a budget of approximately $660,000. 
The contract supports training of forensic examiners including 
pediatric sexual abuse forensic examiners through administration of 
four on-line pediatric sexual assault courses per contract year. The 
contract also supports clinical skills experiences for IHS pediatric 
forensic examiners, whereby providers gain clinical experience 
performing pediatric exams in three of our nation's high-volume 
pediatric sexual abuse clinics. Similar training opportunities exist 
for healthcare professionals attending to adolescent and adult sexual 
assault victims. Webinars are offered quarterly for continuing 
education credits related to forensic health care subjects like 
forensic photography, strangulation, human trafficking, and pediatric 
physical abuse. These trainings allow medical professionals to acquire 
and maintain the knowledge, skills, and competent clinical forensic 
practice to improve the response to domestic and sexual violence in 
hospitals, health clinics, and health stations within the Indian health 
system. The contract also supports a monthly peer review session in 
which forensic examiners collaboratively review responses to recent 
pediatric sexual abuse cases with a goal of peer development and 
support.
    In addition, IHS takes advantage of all opportunities to educate 
staff by observing April as Sexual Assault Awareness and Prevention 
Month. This national campaign supports IHS efforts to promote awareness 
around sexual assault and prevention activities including those that 
encourage staff to participate in training, improve responses to sexual 
assault, and to prevent future incidences of sexual violence within 
tribal and urban Indian communities.
    The IHS Sexual Assault Nurse Examiner-Sexual Assault Response Team 
(SANE SART) Coordinators are available to provide technical assistance 
and support to Sexual Assault Examiners (SAEs), IHS and Tribal 
hospitals, clinics, and health stations. SAEs are primarily registered 
nurses and advanced practice nurses, but also includes physicians and 
physician assistants, with specialized training and clinical experience 
in providing forensic examinations of sexual assault victims. SAEs are 
part of a coordinated response to sexual assault and therefore often 
work closely with law enforcement officers, forensic lab staff, child 
protective services, prosecutors, and sexual assault advocates and 
crisis programs.

    Question 12b. Has IHS done any internal monitoring to ensure all 
Service Areas and Units are in compliance with the IHS sexual assault 
policy?
    Answer. Internal monitoring was completed in 2016. All IHS Areas 
submitted policies for facilities in their Areas to the IHS Office of 
Clinical and Preventive Services and reviews were provided by the IHS 
National Forensic Nurse Consultant and/or in consultation with IHS Area 
Chief Medical Officers. Further, resources were provided to each IHS 
Area to assist with consultative services to map out responses to 
sexual assault to ensure compliance with portions of the IHS Sexual 
Assault policy (IHM Part 3, Chapter 29) and technical assistance 
through the IHS National Forensic Nurse Consultant and partnership with 
the International Association of Forensic Nurses.
    To ensure ongoing compliance, the IHS Office of Quality (OQ) 
Division of Quality Assurance maintains an external accreditation and 
certification designation database of all IHS facilities. Facilities 
that are accredited have adhered to all IHS policies and accreditation 
requirements, these include that patients have the right to be free 
from neglect, exploitation, and verbal, mental, physical and sexual 
abuse. The OQ also offers ongoing technical assistance to ensure 
continued survey readiness, which includes maintaining compliance with 
accreditation requirements and IHS policies. For facilities that are 
not accredited, the OQ provides technical assistance for survey 
readiness and shares best practices with facilities and governing 
boards to reach accreditation status.

    Question 12c. Do you believe IHS has sufficient resources to comply 
with its sexual assault policy?
    Answer. The Domestic Violence Prevention Program (DVPP) funding has 
been critical for the IHS in providing training and resources to 
tribes, tribal organizations, urban Indian organizations, and federal 
facilities as they address high rates of sexual violence among the 
American Indian and Alaska Native population. Yes, continued support 
for DVPP funding and increased resources will support IHS efforts to 
assess and ensure compliance with the IHS Sexual Assault policy (IHM 
Part 3, Chapter 29). Increased resources will provide for the expansion 
of priority populations and efforts that address the direct correlation 
between high rates of domestic violence, sexual abuse, substance abuse, 
and missing and murdered indigenous women and girls. Specifically, 
these funds will strengthen patient care by improving forensic health 
care services with additional forensic examiners, staff training, and 
equipment and enhancements to the IHS electronic health records system 
to improve documentation and identification of patients at risk for 
sexual abuse and exploitation.

    Question 12d. If confirmed, will you commit to (I.) reviewing the 
Service's sexual assault policy to determine if any updates are needed; 
and (II.) ensuring IHS facilities have the proper resources and 
training to fully implement the IHS sexual assault policy?
    Answer. Yes, if confirmed I commit to ensure the IHS Sexual Assault 
policy is reviewed for needed updates and that proper resources and 
training go toward full implementation of the IHS Sexual Assault 
policy.

    Question 12e. Regarding the status of recommendations from GAO-12-
29, GAO issued five recommendations that it considers ``closed--
implemented.'' Recommendation 2 directs the IHS to Develop a policy for 
responding to incidents of child sexual abuse consistent with protocols 
developed by the Department of Justice. In its response, IHS indicted 
it had developed a child maltreatment policy, which is in draft form 
until a National Protocol for Pediatric Sexual Abuse Medical Forensic 
Examinations is finalized. IHS further indicated that it would align 
the IHS child maltreatment policy with the National Protocol. As the 
IHS liaison to GAO, were you responsible for coordinating with GAO on 
closing this recommendation?
    Answer. As the GAO Liaison, I would have been involved in 
communicating to GAO the agency's responses. One of the important roles 
of an audit liaison is to ensure timely internal management of 
engagements, including managing timely requests for information, and 
developing progress reports and other official agency responses in 
consultation with program managers. The audit liaison is not intended 
to be the subject matter expert on the matters under audit, but rather 
to have sufficient knowledge of the agency and the audit process to 
facilitate information flow and timely agency responses.

    Question 12f. Did IHS ever finalize its child maltreatment policy? 
And, if not, why not?
    Answer. The IHS Child Maltreatment policy was released in September 
2019 (IHM Part 3, Chapter 36). The purpose of this chapter is to 
establish the requirements for identifying and responding to suspected 
child maltreatment and for children age 17 and under who present with 
suspicion of sexual assault and abuse including mandated reporting 
requirements. In addition, the IHS has strengthened our response to 
child abuse in several ways including agency-wide policies have been 
created or strengthened in order to better guide staff in expectations 
surrounding mandated reporting, qualifications required of forensic 
examiners, recognition of child maltreatment, treatment and response to 
concerns of child maltreatment including sexual abuse, and required 
annual training.

    Question 12g. If IHS did finalize its child maltreatment policy, 
did it provide any training to federal IHS employees on this policy?
    Answer. The IHS Child Maltreatment policy was released in September 
2019 (IHM Part 3, Chapter 36). Training requirements for this policy 
are outlined for all staff including specific trainings topics for 
clinical staff and medical forensic staff caring for pediatric 
patients. IHS is currently developing this training for staff.
    In addition, IHS released the Protecting Children from Sexual Abuse 
by Health Care Providers policy (IHM Part 3, Chapter 20) in February 
2019. This additional guidance clearly defines professional boundaries 
and reporting requirements of all employees if child abuse is suspected 
or witnessed. IHS developed a mandatory employee training for this 
policy under the review and guidance of IHS clinical subject matter 
experts. The training includes information on indicators of abuse and 
warning signs, organizational safeguards used to ensure patient safety, 
and the process for reporting suspected sexual abuse.

    Question 12h. Does the scope of this policy (either draft or final) 
cover incidents like those associated with the patient abuse of former 
IHS pediatrician Dr. Stanley Patrick Weber?
    Answer. Yes, the IHS Child Maltreatment policy (IHM Part 3, Chapter 
36) ``Reporting Requirements'' section states the following:

         It is IHS policy that all staff must report suspected child 
        maltreatment immediately, and in all cases within 24 hours, to 
        appropriate law enforcement or child protective services. 
        Facility policy identifies under what circumstances to report, 
        the type of information to report, to whom they should report, 
        the reporting procedures, and the timelines for making a 
        report. All staff are responsible for knowing and complying 
        with the reporting requirements. Facility policy should ensure 
        universal awareness of these requirements among all staff and 
        should identify appropriate local agencies who will receive 
        child maltreatment reports.

    In addition, IHS released the Protecting Children from Sexual Abuse 
by Health Care Providers policy (IHM Part 3, Chapter 20) in February 
2019. This additional guidance clearly defines professional boundaries 
and reporting requirements of all employees if child abuse is suspected 
or witnessed. IHS developed a mandatory employee training for this 
policy under the review and guidance of IHS clinical subject matter 
experts. The training includes information on indicators of abuse and 
warning signs, organizational safeguards used to ensure patient safety, 
and the process for reporting suspected sexual abuse.

    Question 12i. Will the audit IHS contracted for review of 
circumstances surrounding the Weber abuse cases examine management and 
employee compliance with this child maltreatment policy?
    Answer. The contract is specifically scoped to perform a 
retrospective review of actions related to Dr. Weber. There is not a 
separate focus from the audit on compliance with the new (September 
2019) Child Maltreatment policy (IHM Part 3, Chapter 36). To ensure 
ongoing compliance with all policies, the IHS Office of Quality (OQ) 
Division of Quality Assurance maintains an external accreditation and 
certification designation database of all IHS facilities. Facilities 
that are accredited have adhered to all IHS policies and accreditation 
requirements, these include the new child maltreatment policy. The OQ 
also offers ongoing technical assistance to ensure continued survey 
readiness, which includes maintaining compliance with accreditation 
requirements and IHS policies. For facilities that are not accredited, 
the OQ provides technical assistance for survey readiness and shares 
best practices with facilities and governing boards to reach 
accreditation status.

    Question 13. Question A-13 contained five subparts (a-e), but you 
only responded to three subparts (1-c). Please review the questionnaire 
form and submit answers to all five subparts as listed below. List all 
offices with a political party which you have held or any public office 
for which you have been a candidate.
    Answer. I have not held an office with a political party or been a 
candidate for a public office.

    Question 13a. List all memberships held in or political 
registrations with any political parties during the last 10 years.
    Answer. Approximately from 1988-2006, I was registered to vote as a 
Republican and from approximately 2006-2012, I was registered to vote 
as a Democrat. From approximately 2012 to present I have been 
registered to vote as an Independent.

    Question 13b. List all political offices or election committees 
during the last 10 years.
    Answer. I have not held a political office or been a member of an 
election committee during the last ten years.

    Question 13c. Itemize all political contributions to any 
individual, campaign organization, political party, political action 
committee, or similar entity of $500 or more for the past 10 years.
    Answer. Although not included in the scope of this request, since 
it is less than the $500 threshold identified, I have made four $100 
contributions to U.S. Senator Kyrsten Sinema (Arizona), who is my home 
state Senator and a fellow Arizona State University alumnus.

    Question 13d. Current political party registration, if any.
    Answer. I am currently registered as an Independent.

    Question 14. In your original response to question A-13, you stated 
that you have not made any political contributions totaling $500 or 
more for the past ten years. Review of the Federal Elections Committee 
website confirmed this information, but also showed that you have made 
six $100 donations since February 2019--including four $100 donations 
in February, March, April and May to ActBlue. Please explain these 
donations.
    Answer. I confirm that I have made only four $100 political 
contributions in support of U.S. Senator Kyrsten Sinema (Arizona). Upon 
review of the Federal Elections Commission website report (see 
Attachment B), I believe that the contributions identified on June 2, 
2019 and May 5, 2019 are duplicate entries of the contributions made on 
May 30, 2019 and April 30, 2019 respectively. I verified this by 
accessing the ActBlue website and downloading my contribution history 
(see Attachment C). I researched ActBlue and based on that research, I 
believe ActBlue is a resource for campaigns to use for raising 
political donations to campaigns. I technically have not contributed 
directly to ActBlue, rather I have contributed to Senator Sinema four 
times and I believe the Senator's office has used the ActBlue resource 
for collection of those contributions.

    Question 15. Question A-15 asks you to ``list the titles, 
publishers, and dates of books, articles, reports, or other published 
materials which you have written or published under your name.'' You 
listed two items an editorial in the Journal of the American Medical 
Association and an op-ed in Indian Country Today. Please confirm that 
these are the only two published writings (as defined by the scope of 
the question) that you have authored.
    Answer. I confirm that I have only authored two published writings.

    Question 16. Question A-16 asks you to ``list the date, location, 
audience, and topic of any formal speeches relevant to the position for 
which you have been nominated that you have delivered during the last 5 
years.'' It also direct you ``for those speeches that you have 
transcripts or copies of, provide the Committee with two copies as an 
addendum to this questionnaire.'' In response, you provided a link to 
review speeches made by the IHS director on the IHS website and you 
noted that you have served as Acting Director and Principal Deputy 
Director since June, 19, 2017--a period which covers only the last 
approximately 2.5 years. Please confirm that you have made no formal 
speeches relevant to the position for which you have been nominated 
within the last five years but prior to June 19, 2017.
    Answer. Before June 19, 2017, I made no formal speeches relevant to 
the position of IHS Director. In addition, I am submitting speeches 
(see Attachments D, E, and F) that I have given since June 19, 2017, 
while serving as the Acting IHS Director and Principal Deputy Director 
that may not have been included on the IHS website previously 
referenced.

    Question 17. In response to question A-17, you stated, ``I led the 
team that reopened the Rosebud Indian Hospital emergency department 
after it was closed in December of 2015.'' However, a recently 
published Wall Street Journal article indicated that the Rosebud 
operating rooms remain unopened--one of several goals you established 
for your reform efforts at Rosebud. \8\ This closure is ongoing despite 
renovation efforts and has cost the IHS hundreds of thousands of 
dollars in air ambulance fees, referred care bills, and salaries for 
IHS surgeons who could not operate.
---------------------------------------------------------------------------
    \8\ Anna Wilde Mathews & Christopher Weaver, Six CEOs and No 
Operating Room: The Impossible Job of Fixing the Indian Health Service, 
Wall Street Journal, Dec. 10, 2019, https://www.wsj.com/articles/six-
ceos-and-no-operating-room-the-impossible-job-of-fixing-the-indian-
health-service-11575993216.
---------------------------------------------------------------------------
     At the hearing, I discussed the temporary closure of the ACL 
Hospital emergency room in November and asked for your commitment to 
keeping IHS emergency and urgent care departments open. When do you 
estimate the Rosebud operating rooms will reopen?
    Answer. The IHS Strategic Plan, Goal 1 is ``To ensure that 
comprehensive, culturally appropriate personal and public health 
services are available and accessible to American Indian and Alaska 
Native people.'' To help us meet this goal, each IHS Service Unit has a 
defined scope of services that includes the types and ages of patients 
served, the hours of operation, staffing, the types of services 
provided, and the goals or plans to improve quality of service. In the 
case of hospital emergency departments, urgent care clinics, or 
operating rooms, whether in Rosebud, Acoma-Canoncito-Laguna (ACL), or 
anywhere in the IHS system of care, IHS must ensure these services are 
the best fit for the scope of service for the population. Where the 
services are a best fit, we will work to reestablish or maintain them. 
Where they are not the best fit, we work to find the best fit of 
services, defining which services are to be provided by IHS, tribes, or 
other partners through Purchased/Referred Care options.
    At this time, we do not have an estimate on the potential reopening 
of the operating room at Rosebud Hospital. Any decision to reopen 
services must be made based on multiple factors, including first and 
foremost patient quality and safety.

    Question 17a. Please provide a summary of all renovation related 
expenses related to the Rosebud hospital's operating rooms incurred by 
IHS since you were stationed at the facility in May 2016.
    Answer. IHS has made significant investments in the surgery 
department at the Rosebud Service Unit. Some of the larger projects 
that were completed include:

  <bullet> New flooring for the entire operating room department
  <bullet> New casework
  <bullet> New operating room lights
  <bullet> New operating room anesthesia booms
  <bullet> New operating room tables
  <bullet> Sterilization reconfiguration
  <bullet> Endoscopy room reconfiguration
  <bullet> Sterilization equipment repairs
  <bullet> New nurse call installation

    IHS has spent $1.3 million on this department, with operating 
department facility projects totaling $525,884 and a further $788,794 
on medical equipment.

    Question 17b. Please provide an estimate of air ambulance fees, 
referred care bills, and surgeon salaries paid by the IHS as a result 
of the closure of the Rosebud operating room and the temporary closure 
of the ACL hospital.
    Answer. At the Rosebud Hospital, IHS cannot identify any remaining 
surgeons who received salaries from September 2016 onward. IHS cannot 
determine from our existing records which referred care bills were for 
surgery that would have otherwise been conducted at Rosebud Hospital as 
opposed to by outside providers. The Rosebud Hospital operating room 
would have had a modest capacity regardless and would have referred 
some emergency surgeries. Further, it would be difficult to determine 
based on our records which diagnoses resulted in a surgical procedure.
    For the Acoma-Canoncito-Laguna (ACL) Hospital, to date the 
Purchased/Referred Care department issued $2,664.00 to cover the costs 
resulting from the temporary closure of the emergency room not funded 
by alternate resources (i.e., Medicare, Medicaid, private insurance).

    Question 17c. Has IHS reviewed any contracts awarded for renovation 
of the Rosebud operating rooms for compliance failures? And, if so, has 
IHS taken any actions related to any contractor compliance failures 
uncovered by its review?
    Answer. Any deficiencies that were identified during construction 
were corrected as discovered. To the best of my knowledge, the projects 
were completed in compliance with required standards.

    Question 17d. If confirmed, will you commit to ensuring that--(i.) 
IHS contract awards contain strong compliance mechanisms as laid out in 
the Federal Acquisition Regulation; and (ii.) All such contract 
compliance mechanisms are enforced?
    Answer. Yes, if confirmed I commit to ensuring IHS contract awards 
contain strong compliance mechanisms as provided in the Federal 
Acquisition Regulation and all contract compliance mechanisms are 
enforced.

    Question 18. In response to question D-2, you indicated that you 
pled nolo contender/no contest to a February 2012 non-moving citation 
for attempting to drive under the influence in Baltimore, MD. Our CV, 
which you submitted as part of your response to questions A-9-12 and A-
14, indicates that IHS transferred you to serve as Chief Operating 
Officer for the Phoenix Indian Medical Center in November, 2012. A 
recent report received by the Committee suggests that these two events 
are linked. Please summarize the circumstances the led to your transfer 
in November, 2012.
    Answer. These two events are not linked in any way. I applied for 
the publicly advertised position of Chief Operating Officer at the 
Phoenix Indian Medical Center, and competed for the position against 
several other qualified Indian preference candidates. The vetting 
process included an initial interview with a panel composed of senior 
hospital officials, tribal leaders and the Phoenix Area Director, and a 
second interview with only the Area Director and Chief Executive 
Officer (CEO). I pursued this position, which was a lateral transfer at 
the GS-15/O-6 billet level, to position myself to be more competitive 
for the Phoenix Indian Medical Center, CEO position (Senior Executive 
Service/flag grade), should it become available in the coming years. 
The CEO position became available a year later and I applied and was 
successful in being selected to serve in that position.

    Question 18a. To the best of your knowledge, can you confirm 
whether or not the February 2012 citation played any role in the 
decision to transfer you in November, 2012.
    Answer. The decision to transfer was my own, see response to 
question 18.a. above.

    Question 19. Question F-1 asks you to explain how your previous 
professional experiences and education qualify you for the IHS Director 
position. You responded that, among other things, you are qualified due 
to your tenure serving in an acting capacity. What is your 
understanding of the limits on your authority as Principal Deputy 
Director and Acting Director, compared to the authority of a Senate-
confirmed Director?
    Answer. On September 25, 2018, the HHS Secretary delegated to me 
all of the delegable functions and duties of the IHS Director except 
those that by statute or regulation must be performed by the Director. 
HHS has not identified any non-delegable functions/duties in this 
regard.

    Question 20. In response to question F-3, you indicated one of your 
immediate goals upon confirmation would be converting all IHS hospitals 
to an appropriate facility type. You stated, ``Currently, the majority 
of IHS hospitals are classified by CMS as acute care hospitals. Due to 
the low volume of inpatients at many of our sites, some facilities do 
not meet the criteria for being classified as acute care hospitals and 
should be reclassified as either critical access hospitals or as 
ambulatory health care facilities (outpatient).'' Have you consulted 
with Tribes or conferred with urban Indian organizations regarding this 
proposal?
    Answer. Local level consultation with the impacted tribes has been 
underway for quite some time. This consultation is being led by the 
appropriate Area Directors upon my request.

    Question 20a. Has anyone at IHS evaluated what impact these types 
of reclassifications might have on each IHS Service Area, especially in 
regards to their individual Purchase-Referred Care budgets?
    Answer. Evaluation of the facility type changes has been examined 
thoroughly, to include not only potential impacts on the scope of 
services provided within the facilities and Purchased/Referred Care 
program implications, but also potential impacts on the facility cost 
reports and the national all-inclusive rate formula calculations. In 
many cases, facilities will receive more third party reimbursement and 
they will be able to target their limited resources to better meet the 
needs of patients.

    Question 20b. How would this proposal interact with Tribal 
initiatives--like the regional specialty referral center idea put 
forward for IHS consideration by the Northwest Portland Area Indian 
Health Board?
    Answer. The list of facilities to be converted is based on 
inpatient workload data and is limited to those facilities currently 
categorized as ``hospitals.'' The conversion of existing facilities to 
an appropriate facility type is a Centers for Medicare and Medicaid 
Services (CMS) requirement, and in fact, we are in receipt of letters 
from CMS requiring that these changes be made in order to comply with 
conditions of participation regarding hospital definitions for an 
inpatient facility. The majority of these facilities have been 
operating with extremely limited inpatient capacity for decades, and 
the conversions to an appropriate facility type should have been 
completed years ago.
    If Congress would like to support tribal initiatives, like the 
Northwest Portland Area Indian Health Board specialty referral center 
demonstration project, I would be happy to support that effort. This 
will require that Congress provide the funding and language in our 
appropriation to support the initiative.

    Question 21. In response to question F-12(b) relating to the steps 
Congress should consider taking if a department/agency fails to achieve 
its performance goals, you stated, ``I believe that step one should be 
Congress to review whether the Agency is appropriately resourced to 
fulfill the goals and objectives assigned to it.'' Do you believe the 
IHS is appropriately resourced to fulfill its goals and objectives?
    Answer. No, not at the level that our patients, tribes, urban 
Indian organizations, and other stakeholders would deem 
``appropriate.'' The question then becomes, ``what level of care is 
appropriate?'' In my opinion, the measurement should be morbidity and 
mortality statistics. When there is no disparity between the rates of 
death and disease of American Indians and Alaska Natives, in comparison 
to the general U.S. population, then we can say that the IHS is 
appropriately resourced.

    Question 22. In response to question F-16, you propose a number of 
legislative actions related to the IHS for Congress to consider--
including expressing your support for moving IHS to an advance 
appropriations cycle, a proposal reflected in two bills I have 
sponsored this Congress (S. 229 the Indian Programs Advance 
Appropriations Act and S. 2541 the Indian Health Service Advance 
Appropriations Act). Have you consulted with Tribes or conferred with 
urban Indian organizations regarding these proposals?
    Answer. The vast majority of the proposals included in the list of 
legislative actions were developed specifically as a result of 
consulting with Tribes and conferring with urban Indian organizations. 
The exact language included in the legislative action requests have not 
yet been shared with Tribes and urban Indian organizations, however the 
concepts and goals are in alignment with the interests of Tribes and 
urban Indian organizations.

    Question 22a. Did you discuss these legislative proposals with the 
HHS or the Administration before submitting them to the Committee?
    Answer. Yes, all of the legislative actions included on the list 
have been discussed with both HHS and OMB officials, and my responses 
to the Senate Committee on Indian Affairs were reviewed and cleared 
prior to submission.

    Question 22b. If confirmed, do you plan to push for inclusion of 
your proposals included in the Administration's budget requests?
    Answer. Yes, absolutely. If confirmed I plan to push for these 
proposals to be included in the Administration's budget requests.

                                  <all>
</pre></body></html>
